<html>
<title> - THE AMERICANS WITH DISABILITIES ACT AND ACCESSIBLE TRANSPORTATION: CHALLENGES AND OPPORTUNITIES</title>
<body><pre>[Senate Hearing 112-880]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-880
 
  THE AMERICANS WITH DISABILITIES ACT AND ACCESSIBLE TRANSPORTATION: 
                      CHALLENGES AND OPPORTUNITIES 

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

     EXAMINING THE AMERICANS WITH DISABILITIES ACT AND ACCESSIBLE 
        TRANSPORTATION, FOCUSING ON CHALLENGES AND OPPORTUNITIES

                               __________

                           NOVEMBER 17, 2011

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

87-946 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland              MICHAEL B. ENZI, Wyoming
JEFF BINGAMAN, New Mexico                  LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington                   RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont               JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, JR., Pennsylvania         RAND PAUL, Kentucky
KAY R. HAGAN, North Carolina               ORRIN G. HATCH, Utah
JEFF MERKLEY, Oregon                       JOHN McCAIN, Arizona
AL FRANKEN, Minnesota                      PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado                LISA MURKOWSKI, Alaska
SHELDON WHITEHOUSE, Rhode Island           MARK KIRK, Illinois
RICHARD BLUMENTHAL, Connecticut
                                       

                    Daniel E. Smith, Staff Director

                  Pamela Smith, Deputy Staff Director 

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)



                            C O N T E N T S

                               __________

                               STATEMENTS

                      THURSDAY, NOVEMBER 17, 2011

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1

                               Witnesses

Capozzi, David M., Executive Director, U.S. Access Board, 
  Washington, DC.................................................     5
    Prepared statement...........................................     8
Bristo, Marca, President and CEO, Access Living, Chicago, IL.....    12
    Prepared statement...........................................    15
Altom, Billy W., Executive Director, Association of Programs for 
  Rural Independent Living, North Little Rock, AR................    19
    Prepared statement...........................................    21
Houghton, Jill, Executive Director, U.S. Business Leadership 
  Network, Washington, DC........................................    25
    Prepared statement...........................................    27

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Community Transportation Association of America (CTAA), Dale 
      J. Marsico, Executive Director, Scott Bogren, Associate 
      Director, Charles Henry Dickson, Associate Director, 
      prepared statement.........................................    41
Letters:
    Abilities!, John Kemp, President & CEO.......................    57
    Catskill Center for Independence, Joshua King, Disability 
      Rights Advocate............................................    59
    Clifton Perez, M.S.W., Systems Advocate, Independent Living 
      Center of the Hudson Valley (ILCHV), NY, and Chair, 
      National Council on Independent Living's NCIL) Policy Sub-
      Committee on Transportation................................    59
    Southern Tier Independence Center, Susan Ruff, Advocacy 
      Director (STIC)............................................    62

                                 (iii)

  


  THE AMERICANS WITH DISABILITIES ACT AND ACCESSIBLE TRANSPORTATION: 
                      CHALLENGES AND OPPORTUNITIES

                              ----------                              


                      THURSDAY, NOVEMBER 17, 2011

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in Room 
SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senator Harkin.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will come to order.
    The title of this hearing this morning is ``The Americans 
with Disabilities Act and Accessible Transportation: Challenges 
and Opportunities.'' This is the fifth in a series of HELP 
Committee hearings that have examined promising ways to improve 
employment outcomes for Americans with disabilities.
    We always hear about how much unemployment there is in 
America--9 percent. Actually, it's a little bit more than that, 
and we think that's just devastating. But for people with 
disabilities, the unemployment rate is over 60 percent; over 60 
percent. How would we feel as a nation if we had 60 percent 
unemployment? But that's a fact of life for people with 
disabilities.
    In the last 3 years, the rate of people with disabilities 
leaving the workforce because of unemployment has been over 
twice that of nondisabled persons. So I just want to put this 
in context.
    Thanks to the Americans with Disabilities Act, our country 
has made significant progress in the area of accessible 
transportation. There's no question that the ADA has produced a 
transformation in the accessibility of buses that people ride 
in our country's great cities, and that newer mass transit 
systems like the DC Metro are much more accessible than older 
systems that were built in an era when our country just didn't 
think much about accessibility.
    Before the ADA, less than 5 percent of city buses were 
accessible to wheelchair users. Today, more than 98 percent of 
city buses are accessible.
    It's a shame that we are not seeing the same rate of 
progress in subways and taxis and trains and shuttles that 
we've seen in the bus system and in the paratransit area. 
Unfortunately, as many of our witnesses discuss in their 
written testimony for today's hearing, more than 21 years after 
the passage of the ADA we have not yet achieved equality in 
access to transportation.
    The current situation in New York City with regard to 
taxicab accessibility is a good illustration of the barriers 
that people with mobility disabilities continue to face. And, 
also, not just those physical barriers, but also outdated 
attitudes. I'm concerned that if we allow people with 
disabilities to continue to be treated like second-class 
citizens when it comes to transportation access, we will not 
achieve the goals of the ADA and will not open up the doors to 
employment for everyone who can work and wants to work.
    So you may ask: What's the problem in New York City? Well, 
let's start with the status quo. At this moment in New York 
City, there are about 13,000 yellow taxicabs driving around 
Manhattan, picking up riders, taking them to their destinations 
around Manhattan, to the airports, or to other boroughs. Of 
those 13,000 cabs, only 231 are accessible to wheelchair users.
    The city of New York has been sued by the United Spinal 
Association and others for violating the ADA. The status quo in 
New York City treats wheelchair users like second-class 
citizens. To add insult to injury, when the New York City Taxi 
and Limousine Commission recently held a competition to 
create--get this, now--to create the ``taxi of tomorrow,'' they 
made accessibility optional and ultimately selected a Nissan 
van that is not wheelchair accessible.
    Now, the RFP that went out from New York should not have 
made it optional. If they want a true taxi of tomorrow, then it 
should not have been optional that it be accessible.
    When the U.S. Department of Justice filed a Statement of 
Interest in the United Spinal Association lawsuit and asserted 
that the city of New York was not doing enough to ensure equal 
transportation access for their citizens with disabilities, 
Mayor Bloomberg personally engaged in the debate. He argued, 
``You just can't take a wheelchair out into the street and hail 
a cab.''
    He said that in the accessible taxicabs, this is his quote, 
``A lot of drivers say that passengers sit too far away and so 
they can't have a good dialog and they can't get good tips.'' 
That's not my words. That's the mayor's words.
    Finally, Mayor Bloomberg argued, ``Fewer people may use 
cabs because the suspension is worse.'' Having ridden in many 
yellow taxicabs in New York City, I don't see how any 
suspension could be worse than what I've ridden in in those 
taxicabs up there. I have spoken personally with Mayor 
Bloomberg about this situation. I am hopeful that he will gain 
a better understanding that people with disabilities have a 
federally protected right to hail a taxicab just like everyone 
else.
    The witnesses today all have personal experience with 
accessible transportation and barriers to accessible 
transportation. I want to take this opportunity to make it 
clear that I don't agree with Mayor Bloomberg, and I'm going to 
do everything in my power as a U.S. Senator, as a chief sponsor 
of the Americans with Disabilities Act, to challenge the 
blatant discrimination that is occurring in taxicab 
accessibility.
    I think it is a gross injustice that less than 2 percent of 
the taxicabs in New York City are wheelchair accessible. I 
think it is a throw-back to pre-ADA America that the city 
thought it was OK to make accessibility optional when they held 
a competition to design the taxi of tomorrow.
    I want to make it clear that New York City is in the 
process of having this taxi of tomorrow program, which will 
result in several thousand new taxis. And it seems to me this 
is an opportunity, both for New York City and for America, to 
make this step forward.
    It's not just New York City. I don't mean just to be 
picking on New York City. But this is a place where as they 
move ahead with this massive replacement of taxis in New York 
City that if we can include universal design, then companies 
will make more of these accessible vehicles, and then 
Washington, DC, and Los Angeles and Miami and Des Moines, IA, 
and other places now will begin to have accessible cabs.
    I'm delighted there is now a new American-made wheelchair 
accessible vehicle. I'm told it's made in Indiana, although I'm 
not certain about that. It's called the MV-1 that has the 
potential to become the standard taxicab in New York and other 
cities.
    I've got a picture of it right here, and it's parked 
outside if anybody wants to see it. It's parked right outside 
of this building on First and C streets, right in back of the 
Dirksen Building.
    If London can have a taxicab fleet that is 100-percent 
wheelchair accessible--and I can tell you I was over there this 
summer and I rode in those cabs. Now, it may not be the best 
design, but at least they're accessible. And to the statement 
that Mayor Bloomberg said, that people in wheelchairs can't go 
out in the street and hail a cab, they do it all the time in 
London. And they drive pretty fast over there too.
    I saw this with my own eyes and experienced it. London has 
100 percent accessibility for their cabs. They've achieved that 
status. I can't understand why New York City and other American 
cities can't achieve the same goal. I'm also told this MV-1 can 
run on compressed natural gas. I'm hopeful they'll come out 
with a version that runs on flex fuel so it can be both 
accessible and green.
    I want to make it clear I am not shilling for a company. I 
don't know this company. I've seen the cab. I'm not trying to 
tout one company. I'm just pointing out that a universally 
designed cab is possible, feasible, and practical.
    The bottom line is if large cities like New York were to 
require that their taxicabs be of universal design, wheelchair 
accessible--not just wheelchair users would benefit. How about 
mothers with baby strollers? How about elderly people who use 
walkers--maybe can't step into or can't bend down to get into a 
cab? It's a universal design.
    If we can take that step, then automobile manufacturers 
would compete with each other to go after the business, and 
maybe this company would have some competition out there. We're 
all for that.
    But I'm very well aware that the taxicab issue is one of 
many transportation access issues that are playing out as we 
enter the third decade since the enactment of the ADA. I 
appreciate the thorough exploration of those issues that our 
witnesses provided in their written testimony.
    I want to repeat I'm also aware that New York City is not 
alone in their failure to prioritize accessibility. I'm just 
pointing out that we are on the verge of an issue for a city 
that has an unusually large taxicab fleet, more than any other 
city in America--that when they are now transforming and 
beginning to move into a taxi of tomorrow, it just gives us a 
significant point in time to make it mandatory, not optional, 
that every one of those taxicabs be fully accessible. If they 
do that there, it will lead to breakthroughs in every city in 
America.
    Mobility is so crucial for people to get to work; visit the 
doctor; go to visit family, children, others; to be full 
members of society. Lack of transportation hurts the ability of 
those with disabilities to have gainful employment. It's not 
something that our society should tolerate any longer. We've 
waited 21 years, 21 years. It's time to get on with it, time to 
get on with universal design in transportation.
    Today's hearing gives us all a chance to hear from leading 
experts about where the transportation challenges and 
opportunities exist 21 years after the passage of the ADA. I 
appreciate all of you for your leadership and your 
participation in this hearing. I read all of your testimonies 
last evening. I thank you for that. I will now leave the record 
open for any opening comments by Senator Enzi.
    Let me introduce our witnesses this morning. David Capozzi 
is the executive director of the U.S. Access Board, an 
independent Federal agency devoted to accessibility for people 
with disabilities. The Access Board develops and maintains 
design criteria for the built environment, transit vehicles, 
telecommunications, electronic information technology. It also 
provides technical assistance and training on these 
requirements and accessible design.
    Mr. Capozzi joined the Access Board in 1992, was named the 
executive director in 2008. Prior to that, Mr. Capozzi was vice 
president of Advocacy for Easter Seals and was the National 
Advocacy director for the Paralyzed Veterans of America.
    Our second witness, Marca Bristo, is a pioneer of Chicago's 
disability rights movement. Ms. Bristo helped launch Access 
Living in 1979, one of the country's first 10 centers of 
independent living. In 1987, Access Living became an 
independent nonprofit with Ms. Bristo at the helm as the 
president and CEO.
    Since that time, Access Living has provided peer services 
and advocacy to over 40,000 people with disabilities; has won 
systemic improvements in housing, public schools, public 
transportation, public access, and long-term care. Having 
personally visited, I can attest it is one magnificent 
institution.
    Ms. Bristo has been an important national and international 
advocate for the rights of individuals with disabilities. Marca 
Bristo was also very instrumental in the passage of the 
Americans with Disabilities Act--she was here many, many times 
in 1987, 1988, 1989, and 1990.
    In 1994, President Clinton appointed Ms. Bristo as 
chairperson of the National Council on Disability--the first 
person--get this--the first person with a disability to hold 
that position. Today, she serves as vice president of North 
America for Rehabilitation International and is president of 
the U.S. International Council on Disabilities, where she is 
leading a campaign to promote the ratification of the United 
Nations Convention on the Rights of People with Disabilities--
ratified here in the United States.
    We welcome you.
    Our next is Billy Altom. Mr. Altom is the executive 
director of the Association of Programs for Rural Independent 
Living, called APRIL. APRIL provides leadership and resources 
on rural independent living through a national network of rural 
centers for independent living programs and individuals 
concerned with the unique aspect of rural independent living. I 
can also attest from being in a rural State that APRIL has a 
rich history in rural transportation advocacy.
    Prior to this, Mr. Altom was the director of the Delta 
Resource Center for Independent Living in Pine Bluff, AR, where 
he supervised a program providing transportation vouchers for 
people with disabilities who were employed, who were looking 
for employment, and who were in training for employment. The 
program had well over 300 people enrolled in 17 rural counties 
of southeast Arkansas.
    Our final witness is Jill Houghton. Ms. Houghton is the 
executive director of the U.S. Business Leadership Network, a 
national, nonprofit, nonpartisan business-to-business network 
promoting workplaces, marketplaces, and supply chains where 
people with disabilities are included.
    Ms. Houghton has over 20 years of diverse leadership 
experience at the Federal, State, and local levels to advance 
the employment and economic self-sufficiency of all people with 
disabilities. Prior to joining the USBLN, Ms. Houghton served 
as the executive director of the Ticket to Work and the Work 
Incentives Advisory Panel from 2005 to 2008.
    Ms. Houghton is a graduate of the University of Kansas and 
served as an intern for Senator Robert Dole. Was that during 
the ADA time?
    Ms. Houghton. It was.
    The Chairman. Was it?
    Ms. Houghton. Yes.
    The Chairman. He was a great supporter, as you know, a 
great help in that.
    Ms. Houghton was appointed in 2009 by Governor Crist to 
serve a 3-year term on Florida's Commission for Transportation 
of the Disadvantaged and also serves on the board for the 
Broward Center for Independent Living.
    We welcome you all here. Obviously, you're all very well 
credentialed to respond to these questions about transportation 
and accessibility for transportation. Your statements will all 
be made a part of the record in their entirety. And if you 
could sum it up in 5 or 7 minutes, we'd certainly appreciate 
it, and then we can get into a dialog. So we'll just start in 
order of introduction.
    David Capozzi, we'll start with you. Welcome and please 
proceed.

STATEMENT OF DAVID M. CAPOZZI, EXECUTIVE DIRECTOR, U.S. ACCESS 
                     BOARD, WASHINGTON, DC

    Mr. Capozzi. Thank you. Thank you for the opportunity to 
testify.
    I have over 25 years of experience in transportation 
accessibility. When I began my career with the Paralyzed 
Veterans of America, I was a member of the Department of 
Transportation's Regulatory Negotiation Committee that 
negotiated regulations to implement the Air Carrier Access Act, 
and then was chair of DOT's Federal Advisory Committee that 
wrote the first ADA regulations for the transportation 
provisions.
    When I was at Easter Seals, I was the second director of 
Project ACTION following Bob Burgdorf, who was the first. And 
Project ACTION is a program created by Congress to promote 
cooperation between the disability community and the transit 
industry to improve access to transportation for people with 
disabilities.
    But I want to talk about the challenges that remain in 
spite of legislation, in spite of regulations, and the 
guidelines that the Access Board issues. Laws, regulations, and 
guidelines are important ingredients in establishing the legal 
basis to ensure nondiscrimination on the basis of disability. 
But when those exist and barriers still remain, we need to look 
for more answers.
    Last Wednesday, the Department of Transportation held a 
celebration to mark the 25th anniversary of the signing of the 
Air Carrier Access Act. And that law was enacted to ensure that 
people with disabilities receive consistent and 
nondiscriminatory treatment when traveling by air. In 1990, DOT 
first issued regulations to enforce the law, but 
inconsistencies still remained.
    By way of example, one of the provisions in the regulations 
is to stow a passenger's personal folding wheelchair in the 
cabin of a coat closet. As most frequent travelers know, coat 
closets are disappearing in favor of creating more space for 
passenger seats. Additionally, based on my travel experiences, 
airline staff are largely unaware of the requirement for 
onboard storage of personal wheelchairs.
    Since regulations were first issued in 1990, I've made it a 
practice to carry the regulations with me with the relevant 
provisions highlighted in yellow so that they can be shown to 
the crew. What other minority group has to carry regulations 
with them to prove their rights?
    Even with the regulations in hand, I find it necessary to 
argue for the right to stow my wheelchair on board the 
aircraft. Airline staff who deal with the traveling public are 
also required to be trained to proficiency on the regulations, 
and for staff involved in boarding and deplaning, they are 
required to be trained in assistance procedures to safeguard 
the safety and dignity of passengers.
    Just a few weeks ago at our November 2011 board meeting, we 
welcomed two new presidential appointees to the Access Board. 
Both use power wheelchairs. Our member from Texas was dropped 
by the airport staff not once but twice, on both legs of her 
trip from Dallas to Washington, DC. Her wheelchair was damaged 
as well after it was stowed in the aircraft's baggage 
compartment. Unfortunately, these problems are not infrequent.
    In the mid-1980s, the Paralyzed Veterans of America had a 
program called Access to the Skies. And like Project ACTION 
after it, Access to the Skies was founded on the principle of 
cooperation to improve access to air transportation for people 
with disabilities. The program ended in the early 1990s because 
of a lack of funding, but we could benefit from a program like 
that today to provide technical assistance, training, 
publications development, and research on airline accessibility 
issues.
    The second topic that I'd like to talk about is mass 
transit. Mass transit accessibility has been one of the great 
success stories of the ADA. As you mentioned in your opening 
statement, before passage of the ADA, 36 percent of fixed route 
buses were accessible. Today, 98 percent are accessible. But 
even with this success, problems persist in compliance with 
other ADA requirements, such as maintaining lifts and ramps, 
announcing transit stops, and gaining independent access to 
Amtrak rail stations.
    The ADA required that all Amtrak stations be made 
accessible as soon as practical, but no later than 20 years 
after the law's enactment. Since the ADA's enactment, twenty 
years has now passed. According to an August 2011 Amtrak 
report, 481 of Amtrak's stations come with an ADA obligation 
and by December 31 of this year, 90 percent of the stations 
will have barrier-free access between the train and the station 
platform.
    But much of this access will depend on hand-operated mobile 
crank lifts that are not independently operable by people with 
disabilities. Congress and the Federal Railroad Administration 
need to maintain a vigorous oversight role regarding station 
accessibility.
    The last topic I'd like to talk about is taxicab 
accessibility. We've not progressed much in the 21 years after 
passage of the ADA in terms of providing accessible taxis, as 
you noted. People with disabilities still need to call in 
advance for the few taxis that exist. Going outside and 
expecting to hail an accessible taxi in most cities in this 
country is simply not possible.
    In Washington, DC, there are 20 accessible taxis, and 
that's relatively new. In New York City, there are about 230-
231, as you mentioned. In London, metropolitan legislation has 
required all new taxis to be wheelchair accessible since 1989.
    Under the ADA, private entities primarily engaged in the 
business of transporting people and providing demand responsive 
service, the category that includes taxis, are not required to 
buy accessible sedan type automobiles. Such entities are 
required to purchase accessible vans, when they buy vans, 
unless the entity can demonstrate that it provides equivalent 
service. Publicly controlled taxi companies, on the other hand, 
have to meet a higher standard.
    Equivalent service is determined based on factors such as 
response time, fares, geographic area of service, hours and 
days of service, and reservations capability. Accessibility is 
governed by the Access Board's ADA accessibility guidelines, 
and from what we know, few accessible taxis have been 
purchased. More needs to be done to promote good practices and 
develop incentives for taxicab accessibility nationwide.
    My experience has shown me over the past 25 years after 
passage of the Air Carrier Access Act and 21 years after 
passage of the ADA that many countries are closely watching our 
progress. They have modeled their own legislation on ours. Many 
want to learn from our successes and challenges. And just last 
week, the Access Board sponsored an information exchange with 
the government of Ontario, Canada, and representatives from the 
European Commission. Both are developing accessibility 
provisions that will be greatly informed by what we have done 
here in the United States.
    We can certainly learn from what other countries are doing 
and their experiences with accessibility. But it's clear that, 
still, the United States is a model of inclusion and 
accessibility and is a leader in this area. However, issues 
remain in implementing the laws and regulations that are in 
effect today. We have many successes that we can be proud of, 
but we can still do better.
    Thank you for the opportunity to testify, and I'd be happy 
to answer any questions later. Thank you.
    [The prepared statement of Mr. Capozzi follows:]
                 Prepared Statement of David M. Capozzi
    Thank you for the opportunity to testify today on the topic of 
accessible transportation. My name is David Capozzi and I am the 
Executive Director of the U.S. Access Board. The Access Board is the 
only Federal agency whose sole mission is accessibility for people with 
disabilities. Our agency develops accessibility guidelines for the 
Americans with Disabilities Act, the Architectural Barriers Act, the 
Telecommunications Act, and accessibility standards for electronic and 
information technology and medical diagnostic equipment under the 
Rehabilitation Act. We also enforce the Architectural Barriers Act and 
provide training, technical assistance, and research on accessibility 
issues.
    Prior to joining the Access Board in 1992, I was vice president of 
Advocacy for the National Easter Seal Society and managed Project 
ACTION (Accessible Community Transportation In Our Nation), a 
congressionally created program to promote cooperation between the 
disability community and the transportation industry to improve access 
to transportation for people with disabilities.
    Prior to working at Easter Seals, I was the National Advocacy 
Director for the Paralyzed Veterans of America. I worked with Federal 
agencies and the U.S. Congress to promote the rights of individuals 
with disabilities including the Fair Housing Act Amendments, the Air 
Carrier Access Act, the Civil Rights Restoration Act, and the Uniform 
System for Handicapped Parking Act. I served as the lead negotiator on 
the Department of Transportation's (DOT) Federal Advisory Committee 
that negotiated regulations to implement the Air Carrier Access Act.
    While in the private sector, I testified in support of the 
Americans with Disabilities Act (ADA) before the House Committee on 
Public Works and Transportation, was a member of the nine-person ADA 
``legal team'' for the disability community that helped Congress craft 
the legislation and then served as Chairman of DOT's ADA Federal 
Advisory Committee that developed the 1991 regulations implementing the 
transportation provisions of the ADA.
    I have made over 300 presentations during my career including 
keynote addresses, was a guest lecturer at Georgetown University Law 
Center, and provided international presentations in Prague, Czech 
Republic; Toronto and Montreal, Canada; Kobe City, Japan; Madrid, 
Spain; Vienna, Austria; Dublin, Ireland; Rio de Janeiro, Brazil; 
Kranjska Gora, Slovenia; and Brussels, Belgium. I have been a 
wheelchair user since 1977.
                        access board activities
    For a small agency (29 staff, a Board of 25, and a budget of $7.4 
million) the Access Board has a very ambitious rulemaking agenda. We 
are developing new accessibility guidelines for outdoor developed 
areas, shared use paths, passenger vessels, public rights-of-way, self-
service transaction machines, emergency transportable housing, 
classroom acoustics, and medical diagnostic equipment. We are updating 
existing requirements for information and communication technology and 
transportation vehicles. Below is a summary of our current 
transportation-related rulemaking activities.
Shared Use Paths
    When the Board approved draft final accessibility guidelines for 
trails, coverage of shared use paths was deferred to a future 
rulemaking. Commenters on our outdoor developed areas rule had raised 
concerns about the need for differing guidelines for shared use paths 
(commonly called hiker-biker or multi-use trails). Commenters noted 
that shared use paths differ from trails and typically are located in 
more developed outdoor areas, as opposed to more primitive trail 
settings. Unlike trails, shared use paths are designed to serve both 
bicyclists and pedestrians and are used for transportation and 
recreation purposes. As a result, the Board has initiated a separate 
rulemaking to cover shared use paths. In March 2011, the Board 
published an advance notice of proposed rulemaking on this topic.
Passenger Vessels
    The Board's guidelines will apply to passenger vessels that are 
permitted to carry more than 150 passengers or more than 49 overnight 
passengers, all ferries, and certain tenders that carry 60 or more 
passengers. In June 2008, we published revised draft guidelines for the 
purpose of holding information meetings to collect data necessary for a 
regulatory assessment. Meetings were held in August 2008 to collect 
this data. In 2009, we contracted with the Volpe National 
Transportation Systems Center to assist the Board in finalizing the 
regulatory assessment. The Board intends to vote to approve a notice of 
proposed rulemaking at its January 2012 meeting and then submit the 
rulemaking to the Office of Management and Budget for review.
Public Rights-of-Way
    In 2009, we contracted with the Volpe Center to assist the Board in 
finalizing a regulatory assessment for this rulemaking. The guidelines 
provide design criteria for accessible public streets and sidewalks, 
including pedestrian access routes, street crossings, curb ramps and 
blended transitions, on-street parking, street furniture, and other 
elements. The Board published a notice of proposed rulemaking for 
public comment in July 2011. We have held two public hearings on the 
proposed rule; the comment period ends on November 23, 2011.
Self-Service Transaction Machines
    The Access Board and the Departments of Transportation and Justice 
are undertaking related rulemakings on self-service transaction 
machines. In September 2011, DOT published a proposed rule under the 
Air Carrier Access Act to address accessibility issues relating to 
airline check-in kiosk machines used in airports. The Board will issue 
a proposed rule in 2012 for machines covered by the ADA. These 
rulemakings present an opportunity to work collaboratively to develop a 
single set of technical requirements that would be referenced and 
scoped by each participating agency.
Transportation Vehicles Guidelines Update
    In November 2008, the Board released for public comment a second 
draft of revisions updating its accessibility guidelines for buses and 
vans covered by the ADA. The second draft was issued because the format 
changed significantly, provisions for over-the-road buses were added, 
and changes were made in response to comments on a first draft that was 
published in April 2007. The proposed updates address new types of 
systems, such as bus rapid transit and low-floor buses, and advances in 
technology, including automation of announcements. In addition, the 
proposed guidelines revise specifications for vehicle ramps, 
circulation routes, wheelchair spaces, and securement systems. In 2009, 
we contracted with the Volpe Center to assist the Board in finalizing 
the regulatory assessment for this rulemaking. In July 2010, we 
published a proposed rule to revise and update the accessibility 
guidelines for buses, over-the-road buses, and vans. Two public 
hearings were held. The comment period closed in November 2010. A final 
rule is planned for early 2012.
    Our new guidelines and the update of existing provisions will 
certainly improve the transportation landscape in America. However, I 
would like to talk about challenges that remain in spite of 
legislation, regulations, and guidelines. Laws, regulations, and 
guidelines are important ingredients in establishing the legal basis to 
ensure nondiscrimination on the basis of disability--but when those 
exist and barriers still remain--we need to look for more answers.
                       air transportation issues
    Last Wednesday the Department of Transportation held a celebration 
to mark the 25th anniversary of the signing of the Air Carrier Access 
Act. The 1986 law was enacted to ensure that people with disabilities 
would receive consistent and nondiscriminatory treatment when traveling 
by air. In 1990, DOT first issued regulations to enforce the law and 
those initial regulations have been enhanced over the years through 
many amendments. While some provisions of these regulations require the 
design of aircraft to be more accessible, most require airlines to 
modify their practices and to provide training to their employees to 
ensure that passengers with disabilities do not face discrimination.
    However, inconsistencies still remain. By way of example, one of 
the provisions in the regulations is to require carriers to stow at 
least one passenger's personal folding wheelchair in the aircraft 
cabin. The regulations require carriers to ``ensure that there is a 
priority space in the cabin of sufficient size to stow at least one 
typical adult-sized folding, collapsible, or break-down manual 
passenger wheelchair, the dimensions of which are within a space of 13 
inches by 36 inches by 42 inches without having to remove the wheels or 
otherwise disassemble it. This requirement applies to any aircraft with 
100 or more passenger seats and this space must be other than the 
overhead compartments and under-seat spaces routinely used for 
passengers' carry-on items.'' 14 CFR 382.67(a) and (b). The regulations 
also provide that carriers ``must ensure that a passenger with a 
disability who uses a wheelchair and takes advantage of the opportunity 
to preboard the aircraft can stow his or her wheelchair with priority 
over other items brought onto the aircraft by other passengers or crew 
enplaning at the same airport; items must be moved that crew have 
placed in the priority stowage area (e.g., crew luggage, an on-board 
wheelchair) to make room for the passenger's wheelchair, even if those 
items were stowed in the priority stowage area before the passenger 
seeking to stow a wheelchair boarded the aircraft.'' 14 CFR 
382.123(a)(1).
    As most frequent travelers know, coat closets are disappearing in 
favor of creating more space for passenger seats. Additionally, based 
on my travel experiences and those of our staff and Board members who 
travel frequently, airline personnel still are largely unaware about 
the requirement for on-board storage of personal wheelchairs. Since the 
regulations were first issued in 1990, I have made it a practice to 
carry the regulations with me with the relevant provisions highlighted 
so that they can be shown to the crew. What other minority group has to 
carry regulations with them? Even with the regulations in hand I often 
find it necessary to argue for the right to stow my wheelchair on-board 
the aircraft. In June 2011, DOT issued a proposed rule (the so-called 
``seat-strapping'' rule) that would require alternative means of 
securing wheelchairs in the cabin where there are no closets. It is an 
attempt on DOT's part to ensure wheelchair access in the cabin.
    Airline personnel who deal with the traveling public are also 
required to be trained to proficiency on the Air Carrier Access Act 
regulations concerning the requirements of the regulations; airline 
procedures including the proper and safe operation of any equipment 
used to accommodate passengers with a disability; and for those 
personnel involved in providing boarding and deplaning assistance, the 
use of the boarding and deplaning assistance equipment used by the 
carrier and appropriate boarding and deplaning assistance procedures 
that safeguard the safety and dignity of passengers. 14 CFR 382.141(a). 
It is not the responsibility of the passenger to train airline 
personnel. Yet, in order to ensure compliance, we still carry the 
regulations with us and have to convince airline personnel of their 
obligations.
    At our November 2011 Board meeting we welcomed two new presidential 
appointees on the Board. Both use power wheelchairs. Our member from 
Texas was dropped by the airport staff not once but on both legs of her 
trip; her wheelchair was damaged as well after being stowed in the 
aircraft's baggage compartment. Unfortunately, these problems are not 
infrequent.
    DOT has made significant outreach efforts to the industry and the 
disability community, through direct oversight as well as public 
forums. DOT also has taken enforcement action against airlines for 
violations of its regulations, with its February 2011 consent order 
assessing a $2 million civil penalty against a major carrier for, among 
other things, failing to provide proper enplaning and deplaning 
assistance.
    However, further outreach, particularly between the airline 
industry and disability community, should be undertaken. In the mid-
1980s the Paralyzed Veterans of America had a program called ``Access 
to the Skies''. Like Project ACTION after it, Access to the Skies was 
founded on the principle of cooperation between the disability 
community and the airline industry to improve access to air 
transportation for people with disabilities. The program ended in the 
early 1990s because of a lack of funding. But, we could benefit from a 
program like that today to provide technical assistance, training, 
publications development, and research on airline accessibility issues. 
The law and regulations are in place. What is needed is a sustained and 
concentrated program to implement these requirements.
                          mass transit issues
    Mass transit accessibility has been one of the greatest success 
stories of the ADA. Before passage of the ADA in 1989, 36 percent of 
fixed route buses were accessible to wheelchair users. Today, 98 
percent of fixed route buses are accessible as new, accessible vehicles 
replace older inaccessible ones. When independent accessibility is 
achieved it can be quite liberating. I remember around 10 years ago 
when the Washington Metropolitan Area Transit Authority (Metro) added 
accessible faregates to its stations. Previously, the faregates were 
too narrow for a wheelchair to pass through so I had to hand my 
farecard to a station attendant, have them process it, and then go 
through a separate gate that was wide enough to pass through. When the 
first accessible faregates were installed, going through one by myself 
was a liberating experience. I can still remember the feeling 10 years 
later. It is that independent travel and liberating experiences that we 
should be striving for.
    Accessibility is also about dignity. Dignity means being able to 
access vehicles and facilities like anyone else. No more having to 
depend on a station attendant for assistance--or going through the 
kitchen to get to the restaurant. After my injury in the late 1970s I 
would call ahead to a restaurant or other place of business to 
determine if it was accessible before I left home. Today, I expect them 
to be accessible and in large part they are. The ADA, its regulations, 
and advocacy efforts are largely responsible for that success.
    Even with the success of mass transit accessibility, problems 
persist in compliance with other ADA requirements, such as maintaining 
lifts and ramps, announcing transit stops, ensuring access to visual 
information by people with vision impairments and audio information for 
people with hearing impairments, and gaining independent access to 
intercity (Amtrak) rail stations.
    The ADA required that all stations in the intercity rail 
transportation system be made readily accessible to and usable by 
individuals with disabilities, including individuals who use 
wheelchairs, as soon as practicable, but in no event later than 20 
years after the date of enactment of the ADA. Since the ADA was signed 
into law, 20 years have now passed. According to an August 2011 report, 
entitled ``Intercity Rail Stations Served by Amtrak: A Report on 
Accessibility and Compliance with the Americans with Disabilities Act 
of 1990'' Amtrak serves more than 500 stations in the United States and 
Canada. Of these, 481 stations come with an ADA obligation. Amtrak has 
determined that responsibility at 84 of the Amtrak-served stations lies 
with other entities. Amtrak will address compliance needs at the 
remaining 398 stations. By December 31, 2011, according to the report, 
90 percent of Amtrak stations will have barrier-free access between the 
train and the station platform--but much of this access will depend on 
mobile lifts that are not independently operable by people with 
disabilities. Station-based mobile lifts require Amtrak staff to 
operate and take more time for boarding than would independent access. 
In September 2011, DOT issued a final rule requiring nondiscriminatory 
access to require intercity, commuter, and high-speed passenger 
railroads to ensure, at new and altered station platforms, that 
passengers with disabilities can get on and off any accessible car of 
the train. Congress and the Federal Railroad Administration need to 
maintain a vigorous oversight role regarding station accessibility.
                      taxicab accessibility issues
    We have not progressed much in 20 years in terms of providing 
accessible taxis. As much as 10 percent of the customer base for taxi 
service consists of people with disabilities. And we have the same 
needs and interests as everybody else. We have jobs, families, classes, 
meetings, travel plans, and other activities to keep us on the move, 
and we need transportation, including taxicabs, to help us get where we 
are going. But, people with disabilities still need to call in advance 
for the few accessible taxis that might exist. Going outside and 
expecting to hail an accessible taxi in most cities in this country is 
simply not possible. In Washington, DC (through a new program that 
began in 2011) there are only 20 wheelchair accessible taxis; in New 
York City there are about 230 accessible taxis. In London, England 
metropolitan legislation has required all new taxis to be wheelchair 
accessible since 1989 (most are manufactured by The London Taxi 
Company). The London Taxis feature integral ramps and securement 
mechanisms; a swivel seat used in conjunction with an intermediate step 
for easier access for passengers with limited mobility; large colored 
grab handles for people with low vision; and an induction loop for 
people with hearing impairments.
    Under the ADA, private entities primarily engaged in the business 
of transporting people and providing demand responsive service (the 
category that includes taxis) are not required to buy accessible new 
sedan-type automobiles. Such entities are required to purchase new 
accessible vans--when they buy new vans, unless the entity can 
demonstrate that it provides equivalent service. Equivalent service is 
determined based on response time, fares, geographic area of service, 
hours and days of service, availability of information, reservations 
capability, any constraints on capacity or service availability, and 
restrictions priorities based on trip purpose. 49 CFR 37.103(c).
    If a private taxi company purchases or leases a new van with a 
seating capacity of fewer than eight persons (including the driver), 
the acquired vehicle must be accessible, unless the company is already 
providing ``equivalent service''. The Access Board's ADA accessibility 
guidelines for transportation vehicles specify that for new vehicles 22 
feet in length or less to be considered accessible, the overhead 
clearance between the top of the door opening and the raised lift 
platform or highest point of a ramp must be a minimum of 56 inches. 
These vehicles must have a two-part securement system to secure a 
wheelchair and a seatbelt and shoulder harness for the customer using a 
wheelchair. There must be enough room inside the vehicle so the 
customer using a mobility aid can reach the securement location. Lifts 
or ramps must be 30 inches wide minimum and hold a capacity of at least 
600 lbs. Lift or ramp surfaces, securement locations, and all places 
where people walk must have continuous and slip-resistant surfaces. 
Ramp slopes shall not exceed 1:4 when deployed to ground level 
(although the Board's proposed rule to amend the ADA accessibility 
guidelines for transportation vehicles would modify this).
    But nothing in the statute requires a private entity to acquire a 
van; if a private taxi company acquires only automobiles, it need never 
obtain an accessible vehicle. According to DOT's preamble to its 1991 
regulations, ``given the absence of specific statutory language 
requiring a mix of accessible vehicles in taxi fleets, we believe that 
to impose such a requirement based only on a general concept of 
`accessible in its entirety' would be inappropriate.'' (See DOT's ADA 
final rule issued on September 6, 1991 ``Transportation for Individuals 
with Disabilities'' preamble at 49 CFR 37.29 ``Private providers of 
taxi service''.) Publicly controlled taxi companies on the other hand 
have to meet a higher standard and this issue is presently in 
litigation in New York.
    Project ACTION has developed materials about taxicab accessibility. 
These include: Moving Forward Together: A Workbook for Initiating and 
Increasing Accessible Taxi Services (2005), The Americans with 
Disabilities Act and You: Frequently Asked Questions on Taxicab Service 
(2005 with the Taxicab, Limousine & Paratransit Association), and The 
Taxicab Pocket Guide (2006). The Taxicab, Limousine & Paratransit 
Association recently developed a new publication entitled, ``Assessing 
the Full Cost of Implementing An Accessible Taxicab Program'' (March 1, 
2010). However, much more needs to be done to promote good practices 
and develop incentives for taxicab accessibility nationwide.
                               conclusion
    My experience has shown me that over the past 25 years after 
passage of the Air Carrier Access Act and 20 years after passage of the 
ADA, that many other countries are closely watching our progress. 
Countries have modeled their own legislation on ours. Standards 
development efforts around the globe are informed by what we do here in 
the United States. Many want to learn from our successes and 
challenges. Implementation of the Convention on the Rights of Persons 
with Disabilities will further this desire. Just last week the Access 
Board sponsored an information exchange with the government of Ontario, 
Canada and representatives from the European Commission. Both are 
developing accessibility provisions that will be greatly informed by 
what we have done here. We can certainly learn from other countries and 
their experiences with accessibility--but it is clear that the United 
States still serves as a model of inclusion and accessibility. The 
Access Board's new guidelines and the update of existing provisions 
will certainly improve the transportation landscape in America. But, 
issues remain in implementing the laws and regulations that are in 
effect today. We have many successes that we can be proud of but we can 
still do better.
    Thank you for the opportunity to testify today on the topic of 
accessible transportation. I would be happy to answer any questions.

    The Chairman. Thank you very much, Mr. Capozzi.
    Ms. Bristo, welcome back. How many times have you been 
here----
    Ms. Bristo. A while.
    The Chairman [continuing]. In the past 20 years? Welcome 
back.

 STATEMENT OF MARCA BRISTO, PRESIDENT AND CEO, ACCESS LIVING, 
                          CHICAGO, IL

    Ms. Bristo. Senator Harkin, thank you so very much for 
holding this hearing. Not enough attention has been paid to the 
issues of public transportation for people with disabilities, 
and we really, really appreciate your leadership in bringing 
attention. I'm here today not only as the president of Access 
Living, but also as a mother and as an employer of a good 
number of people with disabilities.
    As you know, in 1977, I broke my neck in a diving accident, 
and pretty much like that, I went through the transformation 
into understanding what discrimination feels like firsthand. I 
lost my home. I lost my job. I lost my health insurance. And, 
very significantly, I lost the only kind of transportation I 
had ever used in Chicago--public transportation.
    There was no way for me to get around. Therefore, thinking 
about going back to work was a really big deal. When I was 
finally given a job offer, one of my first barriers was how I 
was going to get to work. And fortunately, for me, I had a 
grandmother who gave me a loan, and I was able to learn how to 
drive with hand controls. Many, many, many people with 
disabilities don't have that opportunity, either financially or 
physically, and, therefore, what worked for me still left so 
many other people out in the cold.
    We've come a long, long way since then. My testimony that 
we submitted for the record covers a lot of different areas. 
Today, I'd like to just focus on a few things that are going on 
in Chicago.
    First, 100 percent of our buses are accessible, and all of 
the key stations in Chicago have been made accessible. However, 
that still leaves a third of the stations in the subway system 
of Chicago not accessible. Between those two systems, 92,000 
rides per day are used by people with disabilities. And this is 
a pretty big undercount, because they can only count those 
people who have free fares.
    The Chairman. How----
    Ms. Bristo. Ninety-two thousand----
    The Chairman. Every day?
    Ms. Bristo [continuing]. Rides per day. That is people with 
disabilities who are on the free fare, for people who are 
indigent. We have incentivized getting people off of 
paratransit by providing free transportation on mainline. That 
has worked pretty well, but not well enough, because there is 
inadequate training programs to help people make that 
transition.
    And as we're seeing bus routes, because of budget 
reductions, get reduced and cut back, we're now watching people 
leave mainline to go back on paratransit because they have to 
wait for four or five buses before one of the two spots for 
wheelchairs are available to them.
    Paratransit, at the same time, has been growing in an out-
of-
control way. I'm sure you know this, but the baby boomers are 
about to age into their disabilities. A lot more of us are 
going to be working longer, and a lot more of us are going to 
be living in our homes rather than in nursing homes. So we have 
an aging community that's going to want to use public 
transportation. And we have a choice about whether they're 
going to be trapped into the expensive paratransit or whether 
we're going to remove the remaining barriers to make mainline 
accessibility a reality for them.
    In Chicago, taxis are a big part of our solution. And I 
want to say that while we have 92 accessible cabs and some 35 
or 40 coming on board, I think, this year, that is still not 
enough. The reason we've been successful in getting that many 
is because we've had commissioners who have worked hand-in-hand 
with the disability community to open up more options.
    I also want to say that cabs like the MV-1 are the only 
socially responsible designs. Combining universal design with 
green technology really is the way of the future. And I asked 
Mayor Bloomberg whether he would like to be a person with a 
disability trying to get a cab in New York City where they 
simply don't exist.
    I've traveled in New York quite a bit. For starters, when 
you hail a cab, it's not the danger that prevents me from 
getting a cab. It's the cab drivers that just pass me by. 
That's the problem. Discrimination is still rampant, Senator.
    If we make cabs accessible, more and more people who are on 
the paratransit system will shift over to the taxicab system. 
In Chicago, we're using public dollars to allow that to happen. 
People can get what's called a voucher, and the Transit 
Authority will pay portions of their cab fare in order to get 
us who can use the regular cabs onto taxis and off of the 
paratransit.
    The final thing I'd like to comment on is the air carrier. 
Taxis and airplanes are a big part of my life. I travel a lot 
in my international role. I'm on planes on a regular basis.
    I had an incident that occurred about 3 weeks ago on 
Southwest Airlines in Albany, NY, where I went up to the gate 
after checking in and telling them what my needs were, that I 
was going to need two people to help lift me onto the plane and 
I'd need an aisle chair. The man at the gate said, ``Are you 
traveling alone?'' I said, ``Yes.'' And he said with a straight 
face, ``I may not be able to board you on this flight.'' I 
thought he was joking, and I made a comment that I thought he 
was joking.
    And he said to me, ``You're not to speak to me like that,'' 
and I said, ``Are you kidding? You are kidding.'' And then I 
realized he was not kidding. A big production occurred, where 
they brought up two or three different supervisors. Finally, 
someone came out of the plane and said to me, ``Can you move 
your arms?'' And I said, ``Yes, look.'' I moved my arms, and 
they said, ``Well, OK. We'll let you board.''
    So they got me in the plane. In the plane, I called the 
supervisor over and I said, ``Are you telling me that if I 
couldn't have moved my arms, you weren't going to put me on the 
plane?'' And she said,

          ``We're not required to. We've just returned from 
        training in Dallas, and the FAA has told us that we're 
        not required to allow people who are not independent to 
        fly.''

    I went back and checked the regulations and, actually, 
there is a regulation in there that says it's up to the 
discretion of the pilot to make the decision as to whether the 
airline provides you assistance through a volunteer that might 
volunteer to assist you in flight. That's a regulation I had 
forgotten. But it's long overdue that we get rid of those kinds 
of regulations and once and for all create a private right of 
action under the Air Carrier Access Act.
    We do not have the enforcement tools needed in that law. 
It's extremely important to understand that civil rights laws 
do not self-enforce. I know you know this. The advances we've 
seen in Chicago have not come just because the authorities 
decided there's a law and we're now going to do it.
    We've had to sue the CTA not once but twice; first, to get 
the lifts on the buses before the ADA; second, to cause the 
drivers to operate the lifts and to cause the CTA to put the 
lifts and elevators on a routine maintenance schedule and to do 
consumer-directed training. We have to have those kinds of 
enforcement mechanisms available in the Air Carrier Access Act 
as well or the airlines will continue.
    I have just returned from a meeting in Brazil. In fact, I 
was in an accessible cab in Brazil when I received the email 
from your staff asking me if I would come to testify. I was 
amazed to see the accessibility improvements, not only there 
but also recently in Seoul, Korea. The transit system in Seoul 
was fully accessible--the subway system. The signage was better 
than any in this country. When I asked why, they said Michael 
Winter, who works for the Department of Transportation, had 
been hired by the Korean officials to give technical 
assistance.
    And I'm here to say that as the U.N. Treaty on the Rights 
of People with Disabilities is a bigger part of everyone's 
life, transit and global transit is becoming a more important 
thing.
    Finally, as all these officials come from all over the 
world to the United Nations, it's a travesty that those people 
who are traveling from all over the world to this great country 
which gave us the ADA which led to the U.N. treaty in the first 
place--that they can't get the transportation through the taxi 
system that they need. We can do better. We must do better. 
It's time for us to go back legislatively and administratively 
to shore up the areas that remain weak.
    Thank you.
    [The prepared statement of Ms. Bristo follows:]
                   Prepared Statement of Marca Bristo
    My name is Marca Bristo and I am president and CEO of Access Living 
in Metropolitan Chicago--Chicago's Center for Independent Living. I am 
also currently president of the U.S. International Council on 
Disability. As a person with a disability, a mother, and as an employer 
I know firsthand the importance of transportation to the employment, 
health, and quality of life of people with disabilities. When I broke 
my neck in 1977, I was a public transit user--never having learned to 
drive. Suddenly my ability to move about the city came to a screeching 
halt. There was no accessible transportation in Chicago in 1977. 
Fortunately for me, a loan from my grandmother to purchase a car with 
hand controls enabled me to go back to work and maintain my social 
life. But the experience of being denied access to transit and other 
things people take for granted led to the movement which gave us the 
ADA. This testimony is intended to highlight the advances and remaining 
challenges in meeting the transportation needs of the Nation's growing 
disability community.
    The basic mandates of the Americans with Disabilities Act (ADA) are 
that all new vehicles for use in mass transit, which include buses, 
rail cars and vans, have to be accessible; that key rail stations on 
both rapid rail systems and commuter rail systems had to be made 
accessible; that a paratransit system be established by operators of 
rapid rail and bus systems to ensure that transportation is provided to 
those who cannot use mass transit; and that all new rail systems and 
facilities such as stations have to be built accessibly; that private 
taxi companies comply with service requirements of the ADA and provide 
accessible cabs when purchasing vans unless the company is already 
providing equivalent service.
    The statute, and USDOT's implementing regulations, provided 
operational mandates for paratransit systems. Years of experience with 
ineffective paratransit, which operated prior to the ADA's passage, 
made disability advocates fear that paratransit would always be of 
secondary importance to mass transit operators, so minimum service 
criteria were established. No artificial restraints on paratransit 
demand were permitted. To be eligible for ADA complimentary paratransit 
service, a person with a disability must be unable to use mass transit 
for the trip requested and must live within the paratransit catchment 
area (i.e. within \3/4\ mile from a fixed bus route or rapid or light 
rail station). Transit operators were prohibited from placing 
priorities or restrictions on trip purposes, and the hours of operation 
of paratransit must be identical to those of mass transit. 
Unconscionably, the regulation allows paratransit fares to be double 
mass transit fares, despite the fact that only those who cannot use 
mass transit are eligible for paratransit, and they are by and large 
low income.
    Paratransit has become an essential part of the lives of people 
with disabilities who cannot use mass transit. Since transit providers 
cannot lawfully suppress demand, and people with disabilities 
increasingly reside in their home communities and need transportation 
for work and recreational purposes, the cost of paratransit has 
skyrocketed. Life expectancies continue to increase, and the 
coincidence of aging and mobility impairment has increased the demand 
for paratransit. New York City Transit (NYCT) spent over $500 million 
on paratransit this year, which is about as much as it costs to run the 
Metro North Railroad that operates between Westchester, Connecticut and 
New York City.
    The rationale of disability advocates who promoted minimum service 
criteria for paratransit was twofold: (1) prevent abuse by transit 
operators and (2) encourage transit operators to make their mass 
transit systems as accessible and user friendly to people with 
disabilities as possible, so they would begin to see themselves as mass 
transit users rather than paratransit dependents. This approach did not 
achieve the desired result.
    Unfortunately, ADA paratransit systems continue to be plagued by 
many problems. They often fail to comply with important ADA 
requirements through failing to provide on-time performance, failing to 
provide telephone access for call requests that do not require 
inordinate waiting on hold, driver failure to assist from the door of 
the origin or destination to the vehicle if needed, failing to base 
eligibility on an individual's functional ability rather than relying 
on blanket denials based on type of disability, and limiting penalties 
for no-shows to situations within the rider's control.
    Paratransit fare increases (i.e., in Chicago from $2.25 to $3.00 
one way) have made transportation too expensive for many, particularly 
those living on fixed incomes. Further, as budget pressures cause 
elimination of some bus routes in the mainline system, riders of 
paratransit are having service totally eliminated leaving them stranded 
altogether because they are now outside the catchment areas.
    On the positive side, ADA paratransit systems were created faster 
than, for example, accessible rail systems. Obviously, making only key 
stations accessible, rather than making all stations accessible, which 
is all that the ADA mandates of existing rail systems, builds in 
significant obstacles to mass transit use and keeps people paratransit 
dependent. Mass transit systems set up paratransit programs that 
operate independently and do not interface with mass transit. Transit 
operators do not encourage the use of mass transit or transit training 
for people with disabilities, although some have created incentives to 
get people off of their paratransit systems and onto their bus and rail 
systems, including free or discounted rides for paratransit to mass 
transit switchers. Training programs, where they do exist, are 
inconsistent and inefficient. In Chicago, the demand for training far 
outstrips the trainers' capacity to train, especially for young people 
with disabilities graduating high school and people who are newly 
disabled.
    Lift equipped buses have been in use since the late seventies in 
the United States. Operating personnel in some cities are currently 
familiar and proficient at lift operation and maintenance, but in some 
locations, there are still unnecessary breakdowns (due to poor 
maintenance programs) and failure to provide the required alternative 
service. But despite those problems, the word ``bus'' in the United 
States has come to mean accessible bus, as passengers with and without 
disabilities expect buses to be accessible, and people using 
wheelchairs and scooters to board. Some transit systems (such as 
Chicago) have responded to advocacy by disabled riders by adding 
scrolling visual marquees and automated stop voice call-outs on buses 
to improve communications access for deaf and blind individuals.
    Large ``over-the-road'' style buses, operated privately, in 
intercity travel and on tours, and publicly and privately as commuter 
buses, became accessible slowly. Because of lobbying by intercity 
carriers, over-the-road style buses were exempt from access 
requirements until 1998. Larger private companies operate accessible 
over-the-road buses adequately, for the most part. However, smaller 
carriers and charters continue to operate inaccessible vehicles and 
have no ability to make arrangements for alternate transportation for 
wheelchair and scooter users. Federal enforcement for scofflaw 
companies has come slowly, but has improved markedly in the last year 
or two.
    Gap problems continue to deter people using wheeled mobility aids 
from accessing rail systems. The gap is the distance between the 
platform and the rail car and is both horizontal and vertical. New rail 
systems have minimal gaps, but older rail systems contain gaps of 4" or 
more and are a significant disincentive to use. In Chicago after 
litigation against the CTA to require improved maintenance and service, 
access to rail service has greatly improved through the improved use of 
``gap fillers''.
    Issues concerning rail platform heights and lengths have surfaced 
as ADA has been implemented. A low-level platform at a commuter train 
which must be boarded by climbing car-borne steps makes it impossible 
for people using mobility aids to board. Transit systems have proposed 
alternatives to raising the entire platform, which do not work. The 
construction of a mini high-level platform on top of a low-level 
platform which is accessed by ramps provides access to only one rail 
car. All cars must be accessible, according to ADA, so mini high-level 
platforms are not a solution, although they exist on some systems (for 
example, Niagara Frontier Transit Authority light rail system in 
Buffalo, NY).
    Elevator installation at key stations, mandated by ADA, has just 
not provided meaningful access on older rail systems, as they have been 
installed slowly because of expense and difficulty, and are few and far 
between. In Chicago, this problem is exacerbated by lack of urban space 
for expansion along the sides of the stations during renovation and 
installation of elevators or large ramps.
    Perhaps the worst example of ADA compliance on rail systems is the 
Amtrak system. On the 20th anniversary of the Americans with 
Disabilities Act, the statutory deadline for 100 percent of Amtrak's 
stations to be ADA compliant, Amtrak had only 20 percent of its 
stations in compliance. Moreover, Amtrak ``discovered'' at 
approximately the same time that it did not own most of the stations at 
which it operates and therefore must persuade entities of local 
government to assist in making facilities accessible. Complicating this 
problem is the fact that most of Amtrak's tracks are owned by freight 
railroads. These railroads do not want high-level boarding platforms 
built next to their tracks because of what appears to be a historical 
resistance to improving passenger service. Many of the Amtrak platforms 
that must be made accessible are just concrete slabs which are 
currently in disrepair and need to be rebuilt. The U.S. Department of 
Transportation (DOT) recently issued a disappointingly weak regulation 
requiring only a performance standard for equal boarding access if 
there is freight traffic in a location as well, which there usually is. 
This rule unfortunately allows solutions I've already mentioned, as 
well as others, that have proven ineffective in the past.
    In Chicago, we have been extremely frustrated by the fact that we 
know that the trains can handle three wheelchairs per car; however, we 
are only allowed to reserve three wheelchair spots per train. Amtrak 
says this is due to an outdated online reservation schedule. However, 
when we have simply showed up with a group of wheelchair users for 
travel, we have been subjected to poor customer service and a negative 
attitude because our needs were not outlined in the passenger manifest.
    A significant transportation alternative has been largely unused by 
transit operators to reduce costs of paratransit. If taxis were 
accessible, paratransit costs would be reduced for several reasons. 
First, taxis are privately operated and purchased. Many people with 
disabilities would choose the taxi, which permits spontaneous travel, 
rather than deal with a demand-response, advanced reservation 
paratransit system. Transit operators themselves might employ private 
taxi services to reduce paratransit costs as invariably taxi fares are 
lower than the average cost of a paratransit ride. In New York City, 
for example, paratransit rides cost the transit system about $60 per 
ride, far more than the cost of a taxi ride. Nevertheless, New York 
City's Taxi of Tomorrow program shockingly chose an inaccessible 
vehicle to be New York City's taxi for the next 10 years. Mayor 
Bloomberg, in commenting on the situation stated accessible taxis cost 
$16,000 more than inaccessible taxis; that it is dangerous for 
wheelchair users to hail a taxi; that wheelchair users will not 
``establish a dialog'' with the driver and therefore would be bad 
tippers; and that ``normal'' riders will complain about the suspension 
in accessible cabs. The Mayor has repeated his offensive remarks, 
despite being wrong on the facts. He is a champion of some civil rights 
but has overlooked the needs and rights of disabled passengers. 
Unforgivably, New York City Transit has not opposed the Mayor despite 
the fact that if cabs were accessible their paratransit expenses would 
be dramatically reduced.
    If taxis were accessible, dollars spent on ambulettes to bring 
Medicaid patients using wheelchairs and scooters to doctor appointments 
can be spent on healthcare instead of transportation, as taxis would be 
a cheaper alternative. All ``benefits-
related travel'' by wheelchair users, such as trips to the Department 
of Veterans Affairs' clinics and medical centers and vocational 
rehabilitation, and even some special education trips, could be made 
cheaper and more efficiently by accessible taxis than by privately 
operated ambulettes or public paratransit systems.
    A small percentage of taxis are accessible nationally, though some 
cities such as Washington, Boston, Las Vegas, San Francisco, Chicago, 
and others have begun programs in earnest. I'm proud to say that, in my 
home town, Chicago's program of accessible taxis is a particularly 
outstanding model for many reasons, but chiefly because the rules are 
actually enforced, something that should be true everywhere, but is 
not. Chicago has used various incentives to increase the number and 
quality of accessible cabs. Currently there are approximately 100 
accessible cabs with many more to be added this year. The new MV-1 is 
the first cab designed to be accessible and the Chicago disability 
community played a part in assuring that it will go beyond ADA 
requirements. It will also use natural gas and the city has 
incentivized the purchase of such environmental friendly vehicles with 
a fund to defray the costs of acquisition. We hope this will add even 
more accessible cabs to our fleet.
    The only gatekeeper for paratransit eligibility, however, correctly 
remains the physical or intellectual inability to use mass transit. 
Transit could create incentives for mass transit use, such as reduced 
or free fares for those who are eligible for paratransit, providing 
accessible streets and sidewalks including bus stops, complying with 
the ADA's rules for calling out the stops, and transportation training 
in schools and vocational rehabilitation programs.
    There is one more very significant problem and we look to the 
Department of Transportation to resolve it. Several Federal courts have 
misunderstood the intended relationship between the Department of 
Justice and Department of Transportation ADA regulations, with the 
resulting catch-22 that, unlike hotels, libraries, and every other type 
of organization covered by the ADA, public transit agencies are 
arguably not required to make reasonable modifications of their 
policies, practices, and procedures when necessary to avoid 
discriminating against a person with a disability. Something as simple 
as the right of a person with diabetes to eat food when medically 
necessary while on the train, even though there is a no-eating policy, 
is not guaranteed under the ADA until DOT acts. DOT made an excellent 
proposal in 2006 to add this provision to its regulation, but has 
neglected to finalize it. We urge rapid action that maintains full 
consistency with the excellent proposed rule.
    The ADA does not address air transportation since the Air Carrier 
Access Act (ACAA) was passed in 1986, 4 years prior to the enactment of 
the ADA; however, the ACAA does cover access to the airport structure 
and grounds. The ACAA prevents both domestic and foreign airlines 
operating in the United States, from discriminating against passengers 
with disabilities. The nondiscrimination mandate covers all aspects of 
air transportation including reservations, boarding, deplaning, 
handling of mobility devices, and connecting service. Complaints 
stemming from lack of training of airline personnel and personnel of 
airline contractors are still prevalent 25 years after the passage of 
the ACAA. Also, in the past 25 years little has been done to improve 
the access of airplanes as the ACAA mandate for accessible aircraft is 
minimal. Without firm mandates, the industry has not voluntarily made 
airplanes wheelchair accessible.
    In summary, 21 years after ADA's passage, transportation 
alternatives for people with disabilities are still extremely limited. 
While Amtrak cars are largely accessible, stations are difficult or 
impossible to access in many locales. The reservation system creates a 
vortex of discrimination and poor customer service. A clear success is 
that virtually 100 percent of mass transit buses are accessible in the 
United States, and all newer rail systems are accessible and used by 
people with disabilities. Rail systems that pre-existed the ADA have 
until 2020 for key stations access and are not heavily used by people 
with disabilities, because so little of each system is required to be 
accessible. Paratransit, while a life-style changer for people with 
disabilities, as it permits us to work, shop and socialize, even if 
we're unable to use the bus or train, is always at risk of budget 
problems. Transit should take meaningful, effective steps to make more 
rail stations accessible and encourage the switch from paratransit to 
bus and rail service. And in 2011, there should be no more failures to 
comply fully with the letter and spirit of the ADA.
    The progress we have made here in the United States is being 
closely watched and has great potential to open transportation options 
for people with disabilities worldwide. The U.N. Convention on the 
Rights of People with Disabilities calls upon countries who ratify to 
improve transportation options for people with disabilities. Some 
countries have already made these changes, such as Seoul, South Korea 
and Rio de Janeiro, Brazil. We hope that the U.S. ratification of the 
CRPD will position the United States to further assist countries to 
open up transit to the 1 billion disabled people worldwide.
    In closing, we have come a long way in opening transportation to 
people with disabilities but there is still so much more to do. Some 
will say we've done enough. In the period of tight budgets, we cannot 
do more. That is short-sighted and fails to take into account the 
growing population of people with disabilities who will be aging into 
their disabilities. They will be working longer and unlike their 
predecessors they will live in the community rather than in 
institutions. Improved accessibility in the taxi and mainline systems 
can take some pressure off of more expensive publicly funded 
transportation, like school buses and medical transportation.
    Finally, if we are ever to reverse the terrible unemployment of 
people with disabilities, transportation is the key.
    Thank you for giving me the opportunity to provide this testimony. 
I can be reached at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="29444b5b405a5d4669484645074a4644">[email&#160;protected]</a> or (312) 640-2104 for further 
information.

    The Chairman. Thank you again for a very provocative and 
strong statement, Marca. You never fail us by pointing things 
out to us. I appreciate it.
    Mr. Altom, welcome. Please proceed.

       STATEMENT OF BILLY W. ALTOM, EXECUTIVE DIRECTOR, 
  ASSOCIATION OF PROGRAMS FOR RURAL INDEPENDENT LIVING, NORTH 
                        LITTLE ROCK, AR

    Mr. Altom. Thank you, Senator Harkin.
    Today, it is my pleasure to talk about a topic which 
affects so many Americans, and that is transportation and, in 
particular, rural transportation. Rural transportation, as you 
know, looks totally different than transportation in other 
parts of the country. And the lack of affordable, available and 
accessible transportation is one of the most significant and 
persistent problems faced by people with disabilities, people 
who are elderly, and those with low incomes.
    This is especially true for individuals who live and work 
in rural America, which is why APRIL has been so concerned with 
accessible and effective rural transportation for well over a 
decade, because in the rural areas, we rely on human service 
providers. We rely on private vehicles, and we rely on taxi 
companies, which is why I'm thrilled to see the taxi folks here 
today.
    I'd like to start by giving you just a brief retrospective 
of transportation legislation as it pertains to people with 
disabilities. I'd like to start with the Urban Mass 
Transportation Act of 1970, which stated that,

          ``It is hereby declared to be national policy that 
        elderly and handicapped persons have the same right as 
        other persons to utilize mass transportation facilities 
        and services.''

    Then 20 years later, we have the Americans with 
Disabilities Act, which reinforced those statements by clearly 
stating that where public transportation is provided, it must 
be accessible for people with disabilities. And then with those 
thoughts in mind, the current transportation act, the Safe, 
Accountable, Flexible, Effective Transportation Equity Act: A 
Legacy for Users, or SAFETEA-LU, created the New Freedom 
Program, or section 5317, to support new public transportation 
services and transportation alternatives beyond those required 
by the ADA in order to assist individuals with disabilities 
with their transportation needs.
    So I'd like to describe a couple of programs that utilize 
some of these human service providers and voucher models and 
also car ownership, just to show the effectiveness of how 
transportation can be provided in rural areas if we coordinate 
our programs.
    First, the Center for Independent Living in Western 
Wisconsin created a Regional Mobility Management and New 
Freedom Transportation Program that used a combination of the 
regional approach to coordinating and providing transportation 
to those largely without access to transportation and has 
resulted in a robust and growing program. In 2011, more than 
12,000 rides were provided through the program and recently 
surpassed 1 million miles of service to a diverse population of 
individuals with disabilities in rural Wisconsin.
    The center uses more than 140 volunteer drivers to serve 
the majority of those programs. This is funded through a 
variety of moneys from the FTA New Freedom Program, Mobility 
Management Program funds--which I want to talk a little bit 
about Mobility Management in just a moment. But those who 
access the program are people with disabilities of all ages, 
and they do so for a variety of reasons, including medical, 
social, recreation, and employment.
    Oftentimes, folks do not think of transportation as 
anything other than a ride back and forth to work. And in rural 
areas, we need more than just a ride back and forth to work. We 
have to be holistic in our approach to providing transportation 
and ensure that folks have social opportunities and recreation.
    Another program, the Living Independence Network, LINC, in 
Boise, ID, has a transportation program that is the user-side 
subsidy friendly that allows people with disabilities that 
prevent them from driving to defray the cost of public 
transportation by using vouchers. For each $1 they spend, they 
get a $3 voucher. So, for example, a $9 ride costs the user 
three bucks. Then the transportation provider can redeem this 
unused portion and be reimbursed from the Center.
    Currently, there are 1,325 people utilizing this program, 
809 of those are over 60 years of age, and 698 use the program 
specifically for employment. Participating transportation 
providers have had to increase staff to deal with the increased 
demand as this system has grown, creating new jobs. This 
program works because of cooperation and coordination between 
human service agencies; public and private transportation 
providers; the ridership; and Federal, State, and local funding 
resources.
    Using creativity, the program provides a significant link 
between people with disabilities and seniors in rural America 
and their communities and employment opportunities. These two 
programs are voucher models. Next, I'd like to describe quickly 
a car ownership program.
    The Good News Mountaineer Garage Program in West Virginia 
is a nonprofit organization that takes donated cars, repairs 
them, and provides them to families in need of transportation 
to get to work and/or training. The vehicles are matched 
according to the individual needs of the recipient and are 
provided a warranty and training in how to care for the car and 
keep it running. The families are required to have insurance 
and budget for maintenance.
    Having available transportation is crucial to economic 
independence. Economic independence means personal 
independence, and car ownership can be a solution to many 
transportation challenges. Research has shown that parents with 
a car are more likely to be employed and to work more hours 
than a parent without a car. And when a parent has a stable and 
consistent means to get back and forth to work, their chances 
of obtaining and maintaining better jobs with higher pay are 
much greater.
    Finally, 2 years ago, Easter Seals Project ACTION and the 
Association of Programs for Rural Independent Living and the 
National Council on Independent Living started a project in 20 
States to create mobility management independent living 
coaches. These coaches are people with disabilities. The 
coaches enlighten mobility managers in disability perspectives 
as they pertain to various forms of transportation, because we 
realize that one-size-does-not-fit-all.
    They also train the mobility managers to coordinate and 
work closely with other disability organizations in their 
respective communities. In the IL world, we have a slogan for 
this. It's ``nothing about us, without us.'' The thing that we 
really need to do is to ensure that the enforcement of our 
civil rights protections afforded to us under the ADA and other 
pieces of legislation that impact transportation are enforced.
    I thank you very much for your time, and I would be glad to 
answer any questions that you may have later.
    [The prepared statement of Mr. Altom follows:]
                  Prepared Statement of Billy W. Altom
    Chairman Harkin, Ranking Member Enzi and members of the Senate 
Health, Education, Labor, and Pensions Committee, I would like to start 
by thanking you for the opportunity to address the HELP Committee 
regarding The Americans with Disabilities Act and Accessible 
Transportation: Challenges and Opportunities.
    My name is Billy Altom and I am the executive director of the 
Association of Programs for Rural Independent Living (APRIL). APRIL is 
a national membership organization dedicated to advancing the rights 
and responsibilities of people with disabilities in rural America. We 
provide leadership and resources through a national network of rural 
centers for independent living, programs and individuals concerned with 
the unique aspects of rural independent living. The goal of APRIL is to 
work with others to find solutions to common problems and to bring 
rural issues in independent living into focus on the national level.
    The lack of available, affordable and accessible transportation is 
one of the most significant and persistent problems faced by people 
with disabilities, people who are elderly and those with low incomes. 
This is especially true for individuals who live and work in rural 
America and is why APRIL has been concerned with accessible and 
effective rural transportation for well over a decade.

          ``It is hereby declared to be the national policy that 
        elderly and handicapped persons have the same right as other 
        persons to utilize mass transportation facilities and services; 
        that special efforts shall be made in the planning and design 
        of mass transportation facilities and services so that the 
        availability to elderly and handicapped persons of mass 
        transportation which they can effectively utilize will be 
        assured; and that all Federal programs offering assistance in 
        the field of mass transportation (including the programs under 
        this Act) should contain provisions implementing this policy.'' 
        Urban Mass Transportation Act of 1970, P.L. 91-453.

    The above 1970 statutory language, establishing national 
transportation policy, was written 20 years before the 1990 Americans 
with Disabilities Act (ADA). We need to use the 1970 Transportation 
Act's words as a challenge and a reminder of promises to keep.
    Minimal or non-existent transit services in rural areas still 
create serious barriers to employment, accessible health care and full 
participation in society for people with disabilities, 40 years after 
initial national policy, and 20 years post-ADA. Lack of public 
transportation is one of the most serious, persistent problems reported 
by people with disabilities who live in rural America. Compared to the 
resources allocated to urban areas, those allocated for rural public 
transportation are significantly inequitable.
    APRIL's guiding principles in addressing transportation needs in 
rural America include:

    <bullet> ``All'' public transportation should be accessible to 
``All'' users, ``All'' the time.
    <bullet> Transportation must address the needs of all transit 
dependent groups, including people with disabilities, senior citizens, 
youth and low-income individuals.
    <bullet> Systems designed to meet the transit needs of people with 
disabilities will meet the needs of all transit users.
    <bullet> Systems must be accountable for the accessibility, quality 
and quantity of services they provide.
    <bullet> Accessible transportation includes systems, services, 
vehicles, routes, stops, programs and all other aspects of 
transportation and must at least meet or exceed the minimum 
requirements set forth in the Americans with Disabilities Act.

    The current Transportation Act--the Safe, Accountable, Flexible, 
Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU) 
created the New Freedom Program (Sec. 5317) to support new public 
transportation services and public transportation alternatives beyond 
those required by the ADA, in order to assist individuals with 
disabilities with their transportation needs.
    There are models that demonstrate the spirit and intent: Mobility 
Management and Voucher Programs.
    Mobility Management refers to the consideration of all modes of 
transportation in order to meet the needs of users. In utilizing the 
practice of mobility management, communities rely upon a variety of 
transportation sources in an effort to move rural and small town 
residents from point A to point B as safely and efficiently as 
possible. This is a people-oriented approach that accounts for a 
rider's age, income level and accessibility needs to determine the best 
transportation option.
    Effective mobility management ensures that residents are familiar 
with available resources and that communities coordinate transit 
programs effectively. Customer-focused coordination is essential to 
ensure that services create sufficient access to jobs, groceries and 
health care services.
    Easter Seals Project ACTION (ESPA), the Association of Programs for 
Rural Independent Living (APRIL) and the National Council on 
Independent Living (NCIL) started a project 2 years ago, in 20 States, 
to train mobility management independent living coaches who are people 
with disabilities.
    These coaches educate mobility managers in disability perspectives 
as they pertain to various forms of transportation. They also work with 
mobility managers to coordinate their services with disability 
organizations in their respective communities. In the Independent 
Living world we have a slogan for this . . . Nothing about us, without 
us!
    But currently, many mobility plans do not take all modes into 
account, leaving some residents without options. A comprehensive and 
flexible mobility management program should include various types of 
mobility, from carpools and vouchers, intercity and local buses, rail, 
vanpools, personal vehicles, to walking and biking.
    Vouchers are tickets or coupons that eligible riders give to 
participating transportation providers in exchange for rides. In 
general, voucher programs target those with the greatest need for 
transportation who cannot use existing transportation services for one 
or more reasons. For example, they cannot operate a private vehicle 
because they have a disability that prevents them from doing so, they 
lack insurance or a driver's license, or they do not own a vehicle. 
Perhaps they cannot afford to use existing taxi services or those 
services are not available or they live outside of the fixed-route bus 
service area.
    So, how does this voucher system work and who's involved?
    A voucher system involves three parties:

    1. The riders who use public and private transportation services at 
a fully or partially subsidized rate and pay for those rides with the 
vouchers.
    2. The transportation providers who, based on previously negotiated 
arrangements, agree to accept the vouchers or coupons as payment for 
the trips and submits the coupons to the sponsoring agency for 
reimbursement. The transportation provider can be a private taxi, human 
services transportation provider, neighbor, other volunteer or even a 
family member.
    3. The community, through its local agency or agencies that support 
the subsidized cost of the voucher, determine customer eligibility for 
the voucher program, provide the vouchers to the customer and reimburse 
the transportation providers for trips.
                     benefits of a voucher program
    A voucher program helps customers afford the cost of a trip that 
allows them to access essential services and destinations. The customer 
may pay nothing or just a small co-payment for the ride. Using vouchers 
means that the customer encounters little hassle in paying for a ride. 
For example, in some cases, the rider may have to submit only a voucher 
or check to the transportation provider to receive a ride.
    The rider becomes more involved in the process if he or she also 
chooses the provider, such as when the provider is also a family 
member, friend or neighbor.
    Being able to rely on voucher-supported services means additional 
independence for the customer previously dependent on the good will of 
family members and friends for their personal transportation.
    A voucher system allows customers to choose transportation services 
that match their needs; from the type of vehicle, to the time and day 
of travel, including evenings and weekends, to the type of service 
(e.g., door-to-door). And from the transportation provider's 
perspective, participation in a voucher program allows public 
transportation providers to increase their ridership; taxis and human 
services transportation providers to expand their contract revenue; and 
family members, neighbors and others to receive reimbursement for trips 
they may have been funding out of their own pocket.
    So here we are, 40 years after initial national policy, and 20 
years post-ADA, and minimal or non-existent transit services in rural 
areas still create serious barriers to employment, accessible health 
care and full participation in society for people with disabilities.
    I would like to highlight three programs operating in rural America 
that provide transportation options for people with disabilities and 
those with low incomes.
Center for Independent Living for Western Wisconsin (CILWW) Regional 
        Mobility Management/ New Freedom Transportation Program
    The Center for Independent Living for Western Wisconsin's efforts 
to increase transit options for rural Western Wisconsin residents has 
two critical components: Regional Coordination and provision of 
transportation to rural communities with few or no transit resources.
    The center employs a certified Regional Mobility Manager, who also 
serves as the center's transportation program coordinator. The center 
formed and staffs a seven-county transportation coordinating committee 
that serves to knit together the required locally developed human 
service coordinated transportation plans into a truly regional 
approach.
    The regional coordinating committee is comprised of public and 
private stakeholders and meets quarterly in rotating locations within 
the region.
    The combination of the regional approach to coordination and 
providing transportation to those largely without access to 
transportation has resulted in a robust and growing program. In 2011, 
more than 12,000 rides were provided, and the program recently 
surpassed 1 million miles of service to a diverse population of 
individuals with disabilities. The center uses more than 140 volunteer 
drivers to serve the majority of those who use the program. The program 
is funded through a combination of Federal FTA New Freedom, Section 
5317 funds, mobility management project funds, and moneys received for 
delivering transit services. The rest is ``local match'': fee-for-
service funds, rider reimbursement, agreements (cash and in-kind) from 
county partners, contracts and value of the driver's time (in-kind).
    Those who access the program (people with disabilities of all ages) 
do so for a variety of reasons including medical, social, recreation 
and employment. Since 2008, a third of those who request transportation 
services are seeking education, training, employment or employment-
related programs.
    In addition, (largely due to the success of meeting the unmet needs 
of the rural counties) the center has engaged in a number of contracts 
with county human service and Aging and Disability Resource Centers 
(ADRCs), to coordinate and provide a portion of the transportation for 
those eligible under State and Federal programs. Additionally, the 
centers' transportation program has garnered contracts to provide 
transportation to consumers of two regional managed care organizations 
(MCOs).
    Due to a recent collaboration with another private non-profit 
center for independent living, the program now coordinates and provides 
transportation to residents in an 18-county area of Western and 
Northwestern Wisconsin. A growing segment of those served are veterans 
with no transportation to regional Veterans Administration centers. The 
program currently serves more than 130 veterans weekly.
    Finally, the recognition of a growing demand for transportation 
options for rural Wisconsin residents with disabilities has led to an 
unprecedented successful collaboration. In partnership with the Eau 
Claire County Aging and Disability Resource Center, the center was 
awarded the first ever Federal Veterans Transportation Community Living 
Initiative grant for the next 5 years. The public-private collaborative 
was the only program in Wisconsin funded.
       living independence network corporation (linc)--boise, id
    Living Independence Network Corporation (LINC) is a center for 
independent living (CIL) with offices in Boise, Caldwell and Twin 
Falls, ID.
    The LINC office in Twin Falls operates a rural transportation 
program that serves a four-county area in south central Idaho that is 
approximately the size of the State of Connecticut. The four-county 
area has a population of just over 100,000 people and 64,000 of them 
live in Twin Falls County.
    The LINC transportation program is a ``user-side subsidy'' service 
that allows people with disabilities that prevent them from driving to 
defray the cost of public and private transportation. Users purchase 
vouchers from LINC and each dollar spent purchases $3 worth of 
transportation. Users use the vouchers to pay for rides (for example, a 
$9 ride costs the user $3), then the transportation provider redeems 
the unreimbursed portion of the ride from the CIL. Users can use their 
vouchers to pay for rides from private providers such as taxis, from 
public transportation such as fixed-route and paratransit or to pay for 
mileage to ``community inclusion drivers'' implemented through 
contracts with private and public transportation providers.

    <bullet> 1,325 people use the program.
    <bullet> 809 of those are over 60 years of age.
    <bullet> 698 use the program specifically for employment.

    Participating transportation providers have had to increase staff 
to deal with increased demand as the system has grown, creating new 
jobs.
    The transportation program is funded by a combination of:

    <bullet> 5,310 Elderly Individuals & Individuals with Disabilities 
Program.
    <bullet> 5,316 Job Access and Reverse Commute Program (JARC).
    <bullet> 5,317 New Freedom Initiative Program.
    <bullet> Older Americans Act funds through the local Area Agency on 
Aging.
    <bullet> LINC provides required matching funds from unrestricted 
revenues.
    <bullet> As described above, users pay a portion of the cost.
    <bullet> A link to an online news story about the program: http://
www.dailyyonder.com
/twin-falls-transportation/2011/02/0l/3155.

    The program works because of cooperation and coordination between 
human service agencies, public and private transportation providers, 
the ridership and Federal, State and local funding resources.
    Using creativity and existing programs, providers and resources, 
the program provides a significant link between people with 
disabilities and seniors in rural America and their communities and 
employment opportunities.
              good news mountaineer garage--west virginia
    Good News Mountaineer Garage is a West Virginia non-profit 
organization that takes donated cars, repairs them and provides them to 
families in need of transportation to get to work or training. The 
vehicles are matched according to the needs of the recipients who are 
provided a warranty and training in how to care for the car and keep it 
running. The families are required to have insurance and budget for 
maintenance.
    Having available transportation is crucial to economic 
independence. Economic independence means personal independence. Car 
ownership can be a solution to many transportation challenges. Research 
has shown that a parent with a car is more likely to be employed and to 
work more hours than a parent without a car. When a parent has a stable 
and consistent means to get back and forth to work, their chances of 
obtaining and maintaining better jobs with higher pay are much greater.
    The Good News Mountaineer Garage, which opened its door in 2001 
after having been organized by a group of concerned citizens, has 
helped over 1,700 West Virginia families meet their transportation 
needs.
    The GNMG is involved in an ongoing program to measure the outcomes 
of its programs. The results of this past year's respondent followup 
study showed that:

    <bullet> The number of cars provided to families total 
approximately 1,700 since it started in 2001: Most of the vehicles were 
provided to referred clients of the WV Works--Temporary Assistance to 
Needy Families--statewide.
    <bullet> In 2009, GNMG entered an agreement with the Department of 
Rehabilitation Services to provide vehicles to referred clients. Since 
that time, 90 vehicles have been provided.
    <bullet> In the past 3 years we have provided vehicles to meet the 
transportation needs of 829 adults and 1,107 children.
    <bullet> DHHR TANF's director reported to the USDHHS that GNMG was 
one of the case managers' most valuable programs to help people get off 
public assistance.
    <bullet> WVDHHR-DRS has asked if GNMG has the capacity to increase 
the number of vehicles provided to their referred clientele indicating 
that GNMG is helping the agency move their clients to gainful 
employment or training.

    A followup survey of TANF vehicle recipients conducted in fiscal 
year 2009 showed the following:

    <bullet> 87 percent were no longer on TANF.
    <bullet> 9 percent were on TANF but were in training or the 6 month 
transition stage of moving to employment.
    <bullet> 4 percent were still receiving TANF and not in training or 
transition.
    <bullet> 36 percent are able to attend more school activities.
    <bullet> 36 percent accessed better child care.
    <bullet> 21 percent moved to better housing.
    <bullet> 31 percent accessed improved medical care.

    In closing, we have to move past those us versus them scenarios. We 
need to consolidate the silo approach and give transportation providers 
the flexibility they need in order to serve the entire community. Not 
just individual segments. We should systematically encourage and fund 
innovative private and public sector models that can address 
unavailable and/or insufficient rural transportation.
    Solutions might include: accessible taxi services; using private 
drivers, including those with disabilities; vehicle pools similar to 
those used by intercity bus programs and voucher models administered by 
community-based organizations. Allocate innovative program funds to 
support tribal transportation programs that are coordinated with other 
public transit and community transportation services.
    We are all in this together. We hear a lot of talk these days about 
the principles upon which our country was founded. I ran across this 
passage the other day written by John Winthrop on his voyage to the 
Massachusetts Bay Colony in 1630. He was preparing his shipmates and 
his family for their arrival in the new country and how they should 
live their lives to make their new homeland truly a city on the hill . 
. . to be admired by all other countries.

          ``We must delight in each other; make others' conditions our 
        own; rejoice together, mourn together, labor and suffer 
        together, always having before our eyes our commission and 
        community in the work, as members of the same body.''--John 
        Winthrop written onboard the Arbella en route to Massachusetts 
        Bay Colony in 1630.

    I think this still holds true today and we should accept it as a 
challenge as we move forward in the development of our new 
transportation legislation.
    Thank you so much for your time and attention.

    The Chairman. Mr. Altom, thank you very, very much.
    Ms. Houghton, welcome and please proceed.

        STATEMENT OF JILL HOUGHTON, EXECUTIVE DIRECTOR, 
         US BUSINESS LEADERSHIP NETWORK, WASHINGTON, DC

    Ms. Houghton. Chairman Harkin, Ranking Member Enzi, and 
members of the committee, thank you for this opportunity to 
provide testimony today.
    My name is Jill Houghton. I'm the executive director of the 
US Business Leadership Network, also known as the USBLN. We're 
a nonprofit, nonpartisan organization promoting workplaces, 
marketplaces, and supply chains where people with disabilities 
are fully included. We have over 60 Business Leadership Network 
affiliates across the Nation, and we represent over 5,000 
employers.
    I have to tell you we go to our members all the time and 
ask them for feedback from A to Z. And when we went to them and 
asked for feedback on accessible transportation, they are still 
providing feedback. Never in the history of any issue that we 
have raised with them thus far has there been an issue so 
important to business. And the bottom line of what they've told 
us is that access to accessible transportation inhibits their 
ability to effectively recruit, hire, retain, and sometimes 
even advance their employees with disabilities.
    And I will tell you that as the workforce continues to age 
and the incidence of disability continues to grow, this issue 
is only going to become more catastrophic to business. Some of 
the examples that they cited is, some of our members have 
facilities in Iowa, in rural locations, where there is no 
access to accessible transportation. So if they're trying to 
drive their employment efforts there around people with 
disabilities, they have a problem. If they're trying to drive a 
national, multisite, multistate employment effort, they have a 
problem because of the lack of access to accessible 
transportation.
    I will tell you that they shared many stories with us. One 
member company shared a story about an employee that recently 
became legally blind. That employee's job was to go out and 
meet with their clients. And because they're legally blind, 
they now have issues with transportation.
    As a company, they've worked with that individual to try to 
find solutions, and at the end of the day, the employee has 
become so completely overwhelmed by the daunting experience of 
dealing with accessible transportation and the access to it 
that she's decided to take another position within the company 
that inhibits her ability to continue to grow. So now she's 
going to sit back, and she's watching, and they're going to 
work with her to try to find the right opportunity where she 
can use her experience and, hopefully, have some really good 
luck to find a position that will allow her to continue to grow 
in her position.
    Another member company--a senior executive leader cited 
that she has to travel, and that travel is oftentimes not safe. 
She's a person that uses a small pediatric chair that folds. 
She cited examples like we've heard earlier today, where when 
she's flying on the airlines, she needs them to fold the chair 
and put it in the closet. But they opt to take it down the jet 
way, put it underneath, put the suitcases on top. She arrives 
at her location, and now she has a broken chair and can't get 
to the work that she needs to attend to.
    She talked about accessing trains and not having bridge 
plates or ramps--trying to force her on the train; once getting 
on the train, needing to ask people to move from the accessible 
seating so that she has a place to sit. She talked about taxis. 
She talked about the issues with people not knowing how to fold 
her chair, putting her chair in the back and breaking it.
    I can tell you from personal experience--I'm married to a 
gentleman with a spinal cord injury. He uses taxis. He's got to 
get around. He was in DC the other day. It was pouring down 
rain. He sat outside for 15 minutes, waiting for a taxi to 
stop. And he called me and he said, ``The best thing happened 
to me today.'' I said, ``What happened?'' He said,

          ``The lady that waited on me in Starbucks saw me 
        sitting out in the rain for 15 minutes. She was able-
        bodied. She came out, and she flagged a taxi for me, 
        you know.''

    I mean, unbelievable.
    Now, I will tell you that while nothing replaces access to 
accessible transportation, there are some opportunities. And 
many of our members are looking to use things like 
telecommuting. So if they're trying to drive employment in 
rural communities, telecommuting is absolutely an option that's 
alive and well and many of our members are using it.
    Other members are looking at things like online booking, 
because we know that in a global economy, exempt employees need 
to be able to travel just like that. So they need to have 
access to accessible, online booking, bus kiosks, et cetera. 
One of our member companies is actually working on prototyping 
accessible technology through mobile phone applications and bus 
kiosks, et cetera. If you go to www.accessmynyc.com, it'll take 
you to a nice video on You Tube talking about some technology 
that IBM is creating on a mobile phone app around creating 
accessible routes--very interesting stuff.
    Some other examples--employer-provided transportation, not 
a perfect solution, but like one of our member companies in 
South Carolina partnered with a local disability service 
organization. They got a grant. They got a vehicle. They charge 
a subscription rate to their employees, and they transport 
their employees to work. Now, if somebody's got to work 
overtime, everybody's got to wait until that person is done. 
It's not perfect.
    But one of our member companies in Wyoming uses a company-
owned vehicle and the executive goes out and gives people 
rides. So, certainly, they are looking for opportunities and 
solutions to this problem.
    I would tell you in closing, here we are, nearly three 
decades past the passage of the Americans with Disabilities 
Act, and access to accessible transportation is still a huge 
issue, not just for people with disabilities, but for business 
as they try to recruit, hire, retain, and advance employees 
with disabilities. So please--thank you so much for the 
opportunity to provide testimony today. As a business, we want 
to be part of the solution.
    [The prepared statement of Ms. Houghton follows:]
                  Prepared Statement of Jill Houghton
    Chairman Harkin, Ranking Member Enzi, and members of the Health, 
Education, Labor, and Pensions Committee, thank you for the opportunity 
to provide testimony regarding The Americans with Disabilities Act and 
Accessible Transportation: Challenges and Opportunities. My name is 
Jill Houghton and I am the executive director of the US Business 
Leadership Network (USBLN), a national non-profit, non-partisan 
business to business network promoting workplaces, marketplaces, and 
supply chains where people with disabilities are included. The USBLN 
serves as the collective voice of over 60 Business Leadership Network 
affiliates across the United States, representing over 5,000 
businesses. Additionally, the USBLN runs the Nation's leading third-
party certification program for disability-owned businesses, including 
service-disabled veterans.
    As the USBLN executive director, I'm here today because access and 
accessible transportation as it relates to employment is an important 
issue for our corporate members including small, medium and large 
businesses across the Nation.
    As the former executive director for the Ticket to Work and Work 
Incentives Advisory Panel, between 2005 and 2008, I had the pleasure of 
working with bipartisan members and staff on this committee. I very 
much appreciate your commitment to equality of opportunity, full 
participation, independent living, and economic self-sufficiency for 
youth and adults with all types of disabilities in all aspects of 
society. My testimony is grounded in my professional experience with 
the USBLN, as a policy advisor, commissioner on the Florida Commission 
for Transportation Disadvantaged and my personal experience as a person 
who is married to someone with a spinal cord injury.
    In preparation for my testimony today we asked our members about 
their challenges and opportunities related to the Americans with 
Disabilities Act and Accessible Transportation and here is what they 
had to say:
                               challenges
    Many of our employers are located in places that are not easy to 
get to for people with transit-dependent disabilities. This is a 
significant disadvantage for business when recruiting, retaining, or 
advancing employees with disabilities who do not drive. Although access 
varies considerably by city, transportation barriers often complicate a 
company's ability to implement employment initiatives in a broad, 
multi-site manner.
    Many of our members have U.S. facilities that are rural and draw 
from an employee base within a large geographic radius who don't have 
access to public transportation. In many instances this had led 
prospective candidates with disabilities that don't drive to withdraw 
from consideration for employment. Similarly, some businesses have 
sought out assistance in sourcing talent with disabilities from local 
disability service organizations only to be turned away due to the lack 
of availability of public transportation. For example, when a job calls 
for people to work extended or unusual hours, as can be true in the 
entertainment industry, employees who rely on public transportation are 
unable to do so because there is no access after ``normal'' business 
hours. It is next to impossible for their employees to find a public 
bus at 1 a.m.
    In areas of the country where public transportation is an issue 
because of the amount of territory that the system must cover many 
employees with disabilities are faced with work/life balance 
challenges. These challenges are due to the amount of time that one can 
spend trying to navigate bus schedules, connections, etc. Sometimes 
employees with disabilities try so hard to prove that they can do the 
job that they are forced to use taxicab services, which in the end can 
prove to be cost-prohibitive or not an option due to lack of 
accessibility. In many of these instances when the individual with the 
disability performs a cost-benefit analysis of transportation costs or 
time spent traveling to and from their jobs, it usually surfaces that 
they are better off seeking financial support in ways other than work. 
This creates a huge missed opportunity to business because skilled and 
valuable employees are unable to accept or keep their positions. It 
also results in higher expenditures for public programs like Social 
Security Disability Insurance and Medicare.
    Poorly maintained and unreliable public transportation systems 
disproportionately impact employees with disabilities particularly 
those who are unable to drive, cannot afford vehicles that are 
accessible or who have difficulty locating accessible parking in 
congested areas. Buses that do not have working lifts, broken elevators 
in subways, unreliable paratransit and taxis that bypass individuals 
with service dogs and wheelchair users create significant barriers to 
employment. Speaking of taxis that bypass individuals in wheelchairs, 
my husband uses a lightweight, sporty chair that can easily fit in the 
trunk of a taxi. However, he has become accustomed to taxis that as he 
describes them, ``put the pedal to the medal'' when they see him. One 
of his tactics to overcome this is to have me, a colleague, or even a 
Starbucks clerk go out and hail the cab while he sits off to the side.
    While many employees with disabilities face these challenges on a 
daily basis, allowing for additional time and alternate plans can 
become so obtrusive that work becomes an unrealistic option. Lack of 
access to transportation means that individuals may choose to leave the 
workforce unnecessarily--when able to perform the essential functions 
of the job but unable to get to and from work reliably. This robs 
companies of valuable employees. As the workforce ages, and with it the 
incidence of disability grows, if transportation systems are not 
improved the problem will become catastrophic to business.
    Even when accessible transportation is available, there may be 
issues with actually using the transportation option. For example, one 
of the USBLN's members, a senior executive leader, shared that 
traveling alone on business is not safe or feasible due to 
accessibility issues as a wheelchair user. Literally on every trip she 
takes she runs into challenges loading and unloading her wheelchair and 
she has a light weight pediatric-sized chair.
    Some issues she highlighted were:

    Airplanes: Refusing to put her chair in the flight attendant closet 
and throwing her wheelchair underneath from the jet way with luggage 
placed on top resulting in damage to her chair.
    Trains: Not having a bridge plate or lift readily available and 
rushing to get her ``over the gap'' to stay on time. She described it 
as really scary when they grab her chair and try to pull her over the 
gap, and her personal assistant has had to intercede and either insist 
on the bridge plate, or get her across himself more carefully. Also: 
Not having a clearly marked place to park her wheelchair and having to 
ask passengers to find another seat so she can sit in a disability 
accessible location.
    Car Services/Taxi: Drivers disassembling, bending or breaking her 
chair while loading/unloading into trunk so it does not operate when 
she arrives.
    Finally, she emphasized that there really needs to be training for 
personnel in all of the above areas. Her assistant carries tools to 
repair her chair everywhere they go, and tries to instruct 
transportation personnel on proper handling, but often there are 
language barriers or people are in too much of a rush to listen.
    An additional USBLN member, a senior executive leader who is blind 
mentioned that getting assistance from gate to gate at airports in a 
timely manner can be challenging and has caused her to miss connecting 
flights.
                             opportunities
Telework
    While telework does not replace adequate accessible transportation 
systems, for some industries, it can be a good solution to recruit and 
retain employees with disabilities. For our members attempting to 
recruit in rural or low population areas where there is not available 
or adequate public transportation, telework can provide access to 
employees without requiring relocation. In addition, distance learning 
can also provide an opportunity to teach employees new work skills. 
Telecommuting can also be a stop gap measure during and after natural 
disasters such as earthquakes, tornadoes or hurricanes and for shifts 
when public transportation is not available and/or when work hours are 
not consistent.
    Given the increased accessibility of information and communications 
technology, an employee located at a distance can often perform the 
same work regardless of location. This said, like many agencies in the 
Federal Government, companies must first purchase accessible 
technologies and be knowledgeable about the functions and features that 
can make information and communications accessible to their employees 
with disabilities.
Online Booking
    In this global world, many of our member companies expect their 
exempt employees to travel at moment's notice. This requires that the 
transportation system of the future will be accessible for things like 
route planning, ticket purchasing and accessory services inclusion 24/
7.
    In fact, one of our member companies has been working on 
prototyping accessible airline/bus kiosk and mobile phone-based 
accessible city routing (e.g. www.access
mynyc.com). These solutions are available now but the usage rate is 
slow probably because both the Government and the transportation 
industry still need to be educated about the needs of people with 
disabilities and the market potential.
Workplace Flexibility
    Additional solutions include creating flexible work schedules by 
re-working start and end times. One member even cited that in areas 
within their geographical region, they have evaluated the potential for 
setting up a satellite office within a school or support facility 
instead of the employee coming to them. Others have leveraged ride 
shares through van and car pools where feasible. Those enrolled in this 
program are often rewarded with prize drawings and reserved close 
parking privileges.
Employer-Provided Transportation
    A member company in South Carolina worked with their main 
disability service partner to create a solution by accessing a grant to 
purchase a small bus and they charge the employees a subscription fee 
to cover the operational costs of running that bus. It operates with a 
``hub'' system so that in most cases, the employees need a ride to the 
pick-up spot, but it eliminates family members needing to drive 
individuals for an hour each way every day. This system also has 
limitations because if one person on the bus has overtime, everyone has 
to stay at the building until the last person's shift ends. However, 
their Texas location partnered with the agency that provided the 
largest number of employees with disabilities and selected them as the 
charity for 1 year's campaign. The funds raised were matched by a grant 
and the money was used to purchase a bus to transport individuals for 
training as well as for work.
    In Wyoming, one of our members has had members of management drive 
a company vehicle to transport their team members to and from work. 
However, this is limited by the size of the vehicle and territory they 
are able to cover.
                               conclusion
    Developing transportation solutions can create complex issues for 
both the individual and employer. While flexible work hours and 
telecommuting may provide a partial solution for some job categories, 
it is not a complete solution. Not every individual thrives in a 
telework or telecommuting position. Even for those with positions that 
can be performed primarily from a remote location, there are formal and 
informal meetings and events that must be held onsite. The glass 
ceiling, or chrome ceiling as it has been called in the disability 
world, will be reached very quickly by employees who face 
transportation barriers. In the words of one of our members, who is 
with a company with very flexible worksite policies, related the 
following story:

          ``One individual who became legally blind and could no longer 
        drive to her clients took public transportation some places, 
        car services to others (the firm paid), and carpooled with 
        colleagues when possible. Ultimately, the complex arrangements 
        proved so daunting and inefficient that she changed roles and 
        is still looking for the right opportunity where she won't need 
        to travel regularly to different client sites. This has had a 
        huge career impact for her and others, and it takes both an 
        exceptional track record and luck to be able to carve out the 
        right role at the right time that's not career-limiting.''

    In conclusion, 21 years after the passage of the Americans with 
Disabilities Act accessible, reliable, courteous and affordable public 
transportation continues to be one of the major, if not the major, 
barrier for business when recruiting, hiring, retaining and advancing 
people with disabilities in the workplace. For this reason, employers 
need to be part of transportation policy discussions at all levels of 
government. This country is experiencing major workplace challenges and 
our country needs the talents, dedication and creativity that people 
with disabilities bring to the workplace, marketplace and supply chain. 
We applaud this committee's leadership in examining this issue and 
Congress' oversight of the agencies, regulations, policies and actions 
that have been developed to insure that the intent of the Americans 
with Disabilities Act to level the playing field is realized.

    The Chairman. Thank you very much. That was also very 
powerful. Thank you. I appreciate that very much and all of you 
for being here today.
    This is a general question or maybe an observation 
question. We have some specific legislation, the Air Transit 
Act, that we talked about and the regulations pertaining 
thereto; the Surface Transportation Act and the regulations 
pertaining thereto. Do we need to modify the ADA? Do we need to 
add something? Or do we need to look at air transportation, 
surface transportation, taxicabs, of course, as slices of it 
and address those individually?
    How much needs to be changed legislatively, and how much 
just needs to be enforced, regulatory? We have the regulations, 
and as you point out--most of you pointed out, the regulations 
aren't being followed. Where should we be focusing some of our 
attention on this issue? Should we be focusing it on those 
slices or an overarching modification of the ADA? Any thoughts 
on that?
    Mr. Capozzi.
    Mr. Capozzi. I think the answer depends. For example, under 
the Air Carrier Access Act, the law is very short. It's modeled 
after section 504, so it basically just says ``air carrier 
shall not discriminate on the basis of disability and 
regulations shall be written.'' And so the teeth is in the 
regulations. The particulars are in the regulations.
    Regulations have been written. They were first written in 
1990. They've been modified many times since. They now cover 
international carriers as well through a piece of legislation 
that extended the coverage to international carriers. So part 
of it is regulatory, but I think a large part is just 
enforcement, compliance, training.
    I mean, it was very interesting when Marca talked about the 
training that the employees for that airline had gone through, 
and they misunderstood the regulations, because the regulations 
in that case would say that if you had a disability so severe 
that you couldn't assist in any way, then they could require an 
attendant to fly with the passenger, but they can't deny you 
boarding. So they kind of missed the nature of the issue.
    So I think training has a large part of any disability 
legislation or regulations. Compliance, though, is a big part 
of it. Most of our legislation is all complaint-driven, as you 
know. And so that sometimes is a failing. There are probably 
places, though, that could benefit from both some legislative 
oversight and some--perhaps retooling.
    When the ADA was passed in 1990, the issues really were 
different. The issues at that time were having mainline 
accessibility to buses and trains. I mean, people were still 
chaining themselves to buses before 1990. So the issue wasn't 
really private sector transportation or taxicab accessibility 
or shuttle buses from hotels. But I think those are now the 
issues of today.
    The Chairman. Any other thoughts?
    Mr. Altom. And then Marca.
    Mr. Altom. Thank you. I just want to echo those thoughts of 
enforcement. Since there are no ADA police, so to speak, it is 
complaint-driven. And a lot of times for an individual with a 
disability doing that complaining or filing that complaint, 
they have the fear of the repercussions that may come from 
that.
    If you live out in a rural area, and you start griping, 
well, the squeaky wheel gets the grease. Sometimes it does get 
the grease, and it's just out of the way, and you don't think 
about it anymore. So I would like to see enforcement mechanisms 
in place and maybe not so much onus on the individual sometimes 
of being the lone wolf out there.
    Ms. Bristo. Senator Harkin, as you remember, the ADA and 
most laws that we have are a byproduct of the compromise 
process. And in 1989, when we were working on the ADA, there 
were a lot of different forces going on that caused us to have 
certain elements of the laws that weren't as strong as we'd 
like them to be. That, coupled with the advances in 
technology--I think if we were writing the ADA today, we might 
have come up with certain differences.
    For example, the concept of key stations which are built 
into the law--it doesn't require 100 percent of subway stations 
to be made accessible, just key stations. Well, we're now 20 
years after--shouldn't we start going back to revisit that 
idea? Can we now raise the bar and either elevate the number of 
key stations or set a goal of making all of the subway stations 
accessible unless they cannot structurally ever be made to do 
so?
    Another example would be in the area of taxis. Right now, 
taxis are not required to be accessible unless they purchase a 
van of a certain size. And even then, if they can prove that 
they're providing equivalent service--which none of them can, 
in my opinion--they have a loophole to get out of it.
    It's a question I think we should be asking. Why can't we 
create a standard where all taxicabs are accessible for 
everybody? Increasingly, our population are going to need them, 
and, as you pointed out, there are many people who take 
advantage of accessibility features besides just wheelchair 
users.
    The Chairman. I want to followup one thing, Ms. Bristo, and 
that is you, in your written testimony that I read last night--
just a second. Let me find it again here. Oh, yes. You 
mentioned, ``If taxis were accessible, paratransit costs would 
be reduced for several reasons,'' and you go through those. 
Then in another part, you said, ``New York City transit spent 
over $500 million on paratransit this year.''
    And you said,

          ``In New York City, for example, paratransit rides 
        cost the transit system about $60 per ride, far more 
        than the cost of a taxi ride. Nevertheless, New York 
        City's taxi of tomorrow program shockingly chose an 
        inaccessible vehicle to be New York City's taxi for the 
        next 10 years.''

    Mayor Bloomberg--and I'm reading from your testimony--
``Mayor Bloomberg, commenting on the situation, stated that 
accessible taxis cost $16,000 more than inaccessible taxis.'' 
Then you go on about--dangerous for them to hail a taxi, some 
of the things I mentioned. And so I think what you're pointing 
out here is that if taxis were accessible, dollars spent on 
paratransit, ambulettes, and other things would be reduced.
    Ms. Bristo. Yes. I believe that's the case. I know that's 
one of the things that we've been working on in Chicago, as I 
mentioned, trying to get users who can use cabs out of 
paratransit into cabs. Also, there's a lot of people who have 
incomes who would gladly pay a cab fare rather than wait the 
long waits that you have to for paratransit if they could. But 
if they have to wait just as long to get a private cab to come 
pick them up, there's no incentive.
    I do think that the issue of cost is an issue that's worth 
having more conversation about. I do believe, for example, if 
you build something from the ground up, over time, the costs of 
doing so are much less than if you're trying to convert 
something. I don't know the difference in the cost between this 
and a converted vehicle. But I also think if demand takes over, 
competition will drive those costs down. And also, there could 
be ways that we could incentivize the acquisition of accessible 
vehicles.
    In Chicago, the city contributed funding at the beginning 
to incentivize the cab companies to purchase accessible cabs. 
Why couldn't we take some of the public funding that we're now 
putting into other types of transportation and find incentives 
for the private system to make more of their fleet accessible?
    The Chairman. Ms. Houghton, you said something that caught 
my attention--that from the business standpoint, you can't 
retain, train, promote, et cetera, people with disabilities 
because of transportation problems. You talked about 
telecommuting and online--I understand all that. But I guess 
what I wanted to point out--I've just met recently with the 
Secretary of Defense, being on Defense Appropriations, and we 
have a lot of GIs, veterans now, with some pretty severe 
disabilities.
    Because of the advances in medicine and our rapidity with 
which we can go in and get injured soldiers out, get them to 
Ramstein, and get them here within 24 hours, we're saving a lot 
more lives than we would have, let's say, in Vietnam or some 
place like that. But some of these are really pretty badly 
banged up. I mean, they have some pretty severe disabilities. 
They're going to have mobility problems.
    At the same time, we have just passed a bill in Congress, 
the Vow to Hire Veterans bill, to give more tax credits to 
businesses to hire veterans and a bigger tax credit if you hire 
a veteran with a disability. I'm all for that. But they're 
still going to have mobility problems.
    You mentioned that we're having an aging population, aging 
baby boomers. We have a whole new cohort of veterans coming 
through that have disabilities, and they're going to need 
transportation. And on the one hand, we're saying to businesses 
hire more, but I think you pointed out the problem. You can 
hire more, but how are they going to get to work? How are they 
going to get the mobility?
    I think that's another thing that we're going to have to 
factor in and think about in terms of--not only with the aging 
baby boomers, but those individuals that are young, and they're 
going to need to be upwardly mobile to get promoted and that 
kind of thing. So that's a whole other aspect where we're sort 
of telling the business community to do one thing, but they're 
going to have a problem doing it, unless we make sure that they 
have the transportation systems in place.
    Ms. Bristo. Senator Harkin, I wanted to expand upon what 
you're saying in that regard. I'm an employer as well as an 
advocate and employ quite a few people with disabilities. And I 
would say for the folks with mobility impairments, the single 
greatest accommodation that we have to offer is flexibility in 
their arrival times, completely driven by transits.
    They're perfectly capable to do the job. They're perfectly 
capable to get to work. But all these problems we've talked 
about often mean that they show up later than they'd like to 
for reasons that have--through no fault of their own.
    The Chairman. Good point.
    Ms. Bristo. So I think it's extremely important to 
underscore what the challenges are. But I want to make sure 
that we're also going on the record talking about--the talents 
and the skills that people have to offer in the workplace are 
themselves an untapped resource, and we don't want transit to 
be a limit to it. But in the meantime, we want employers to 
make accommodations for those employees so that they can be 
there when these kinds of provisions are causing them to 
perhaps show up late when they don't want to.
    The Chairman. Ms. Houghton.
    Ms. Houghton. Chairman Harkin, I think that Marca raises a 
really good point. Many of our members have created flexible 
work schedules so that people can start at different times and 
end at different times, as well as, like we talked about, 
creating telecommuting opportunities. In fact, we even had a 
member company in Florida located next to a very large Navy 
base that has created alternate work environments that are 
closer to where individuals, in fact, live to try to make it 
easier and more accessible for their employees to come to work.
    So, absolutely, these returning veterans with disabilities 
are definitely on our members' radar screen, and we want to 
work together to find creative opportunities and not let the 
lack of access to accessible transportation be the reason why 
we're unable to recruit and hire these returning veterans, and 
at the same time work together to create solutions to this 
access to accessible transportation issue so that we can hire 
more people.
    Mr. Capozzi. I'd just like to add about the notion of--I 
think your comment about veterans was very appropriate, and it 
reminds me of when I worked at Paralyzed Veterans of America. 
The veteran population returning from World War II really 
started to drive accessibility. There wasn't an accessibility 
movement before returning veterans from World War II. They had 
high expectations. They were independent people before they 
went to war, and they wanted to be independent citizens when 
they returned home as well.
    I think today's veterans have those same expectations and 
probably higher expectations to be fully participating members 
of society. More veterans today are still on active duty even 
with a disability. That didn't happen years ago. So 
expectations have changed as well.
    The Chairman. Mr. Capozzi, just getting back to you again, 
you're a professional. You travel a lot. I'm sure you've been 
to New York City a few times in your life. Have you had any 
taxi experiences there or other places that you--what do you do 
when you get there?
    Mr. Capozzi. I've actually had some pretty horrendous 
experiences with the taxis. One time I was in New York--I don't 
remember if it was in an EPVA conference or not. It was in the 
wintertime--trying to hail a cab--couldn't get it, couldn't get 
a taxi.
    Finally, these people in a bar saw me trying to get a taxi 
in the snow storm. It was a driving snow storm. And they came 
out of the bar, grabbed a taxi, and in the middle of doing 
that--they tried to help me get off the curb and into the taxi. 
It was a totally inaccessible taxi, by the way. And in the 
process of doing this in a snow storm, I fell in the middle of 
the street, broke my nose--luggage everywhere. It wasn't a 
great experience. I don't have very good experiences in New 
York.
    But I can say that in Boston, whenever I travel to Boston 
and get off the airplane and ask for a cab, the people that are 
organizing the cabs at the airport will generally get an 
accessible taxi within a matter of minutes. That's, I think, a 
good success story. I don't know about hailing a taxi downtown 
in Boston. I don't think I'd have very good luck there. But at 
the airport, you wait just a few minutes to get an accessible 
taxi.
    The Chairman. That's encouraging.
    Marca.
    Ms. Bristo. It's a joke in the disability community that if 
you're in a wheelchair and you're trying to hail a regular cab, 
we hide. We get our friends to go--we hide behind a tree or a 
bush. I'm not kidding. Andy can attest to this. I wonder how 
Mayor Bloomberg would feel about having to hide to get a cab. 
So that's one thing.
    I also wanted to come back to the issue of the cost-
effectiveness of this approach to moving to a more universal 
design. We're bleeding money in healthcare. The cost of 
transporting people for healthcare purposes is extraordinarily 
high. For people on dialysis, for example, they're not only 
paying that $60 paratransit. They're paying the Medivan fee, 
which is much higher than that.
    In Chicago, recognizing that, we've started a program where 
people get a different kind of card if they're low income and 
they have medical needs, and those cabs can be used for people 
to go to and from dialysis. And I will also say here--another 
cab story for you. DC has amongst, in my opinion, the hardest 
time hailing cabs. I'm happy to see the new accessible cabs 
here. But the design features that they've used in that cab--in 
the new cabs here are really dangerous. I don't use them that 
frequently.
    But three times, they didn't tie me down properly, because 
it's so clumsy for the drivers to do it. And my chair has 
flipped backward and I've hit the back of my head three times, 
you know. There's something wrong with the way these cabs are 
being designed.
    There's also no central dispatch, so you have three 
jurisdictions--not enough cabs in any of them. You should 
consider a central dispatch and allow the accessible cab 
drivers not to face the penalties of picking up people in DC if 
they're a Virginia cab. They should be given a waiver so that 
all the cabs in this area can be deployed for people with 
disabilities.
    The Chairman. Help me out, all of you. When we passed the 
ADA, we gave lengths of time for certain accessibilities and 
accommodations, building designs, transit designs, things like 
this, which take some time. We know you can't do all the old 
stuff. But if you're going to do something new, make it 
accessible.
    Every building being built in America today is fully 
accessible. We didn't go back and say you've got to redo every 
building built in the 19th century. We understood you couldn't 
do that.
    So here we are--taxicab fleets and stuff change over. I 
mean, why can't we just say, ``OK, all new taxis'' in 
Washington, DC--if you want to get a taxi permit, they've got 
to be accessible. You can't get a taxi permit, and if you have 
one, and you want to get it renewed, and you're getting a new 
taxi, it has to be accessible, period.'' Why can't we do 
something like that?
    Ms. Bristo. You can.
    [Laughter.]
    It would take an act of Congress.
    The Chairman. I don't know that we could do that in a local 
jurisdiction. We might be able to do it in DC because of DC 
being sort of the last plantation, I guess, of the Federal 
Government. But I don't know if we could do it in other cities. 
I'm not certain we would have that jurisdiction. I'm not 
certain. I'd have to think about that. I don't know. I'd have 
to ask the experts back here.
    But you're saying to me that we could do other things. We 
could provide some tax credits. If you have a taxi, and you've 
got to get a new one, and the new one costs a little bit more 
than the one that's--OK, maybe we'll give a tax credit and spur 
that changeover so that as we move ahead, every new cab is 
accessible, no matter where you are. I mean, I don't know why 
we can't do that. We did that for other things in ADA, but we 
didn't do it in taxicabs.
    My staff just said it's likely that the paratransit savings 
to New York City would be greater than the cost difference for 
an accessible cab in just 1 year if they had one ride per day 
transporting one person with a disability. One person, one ride 
per day--that the paratransit savings would be greater than 
that cost difference in just 1 year. So there you go.
    I'm sorry. Mr. Altom, you were going to say something. I 
kind of interfered.
    Mr. Altom. That's perfectly fine. Thank you. Another quick 
cab anecdote here in DC, where I've kind of seen--it's a little 
bit of the drivers who have the hesitancy to pick someone up. 
The other day I called and got a cab to come. So as I come 
outside and I see the cab driver, immediately, I see his 
expression change--oh, God, here comes a guy in a chair.
    So I get in the back of the cab, and I'm taking my chair 
apart and I hand it to him. As he walks around, he's still 
grumbling, and he picks it up, and I could tell immediately, as 
soon as he touched the chair, it was like, uh-oh. So he got in. 
As soon as he sits down, I go,

          ``Wheelchair technology has come a long way, hasn't 
        it, buddy, since the last time you picked a chair up, 
        because you expected that to weigh 800 pounds, and it 
        weighs about 15 or 20.''

    And I said,

          ``So how many times have you passed up one of my 
        brothers and sisters on the street because you thought 
        that it was going to break your back to put it in the 
        back of your vehicle?''

    And he goes, ``All the time.'' And I went, ``Well, stop 
that,'' and I said, ``because let me tell you one other thing 
about people with disabilities.'' And I said,

          ``Most of my brothers and sisters are incredibly 
        smart people. We would never hail you down if we didn't 
        think we could get in and out of this vehicle. So stop 
        having this mind set of, oh, I'm not going to pick them 
        up for whatever reason, but mainly because you think 
        it's going to be too difficult for you to do this.''

    Because most of the time, like this morning--in fact, I got 
a cab this morning, and I put my chair inside the cab. I took 
it apart and had it in the cab before the guy even got out. And 
he's like, ``Holy cow. What's happening here? ''
    So a lot of times, it's the drivers who have such a 
misconception about a person's abilities whenever they get 
there. And I know most of the folks that I know that have a 
disability would never try to hail a cab if they didn't think 
that they could make this happen.
    The Chairman. Sure.
    Mr. Altom. And one other point on the veterans that I--I 
want to brag on one of my member center organizations, the 
Center for Independent Living in western Wisconsin, who just 
got in partnership with the Eau Claire County Aging and 
Disability Resource Center and was awarded one of the first 
Federal Veterans Transportation Community Living Initiative 
grants for the next 5 years to provide transportation for our 
veterans who are back.
    The Chairman. Where is that?
    Mr. Altom. The Center for Independent Living in western 
Wisconsin? It's in Menomonie. Mr. Tim Sheehan is the director 
of that center. So it's an awesome program. They were the only 
center in the United States that got funding. There were a lot 
of other organizations that got funding, but the only Center 
for Independent Living that was funded.
    The Chairman. Marca.
    Ms. Bristo. A lot of my comments today have been focused on 
my own experience and, therefore, it's been biased a little on 
the physical disability side. Transportation issues for people 
who have other disabilities are equally challenging. A 
colleague of ours was telling us just the other day that they 
were traveling with a child with autism, and they were in the 
airport, and their child had an outburst and started crying and 
was just a little bit out of control. And the father took the 
child off to calm them down.
    In the meantime, the mother and the other child got on the 
plane. And when the father came to get on the plane, they 
wouldn't let him board. They said, ``Your child was too 
disruptive.'' And then they wouldn't let the mother get off the 
plane. So the mother took off, not even knowing what occurred 
with her child until she landed and was able to find her 
spouse.
    But these kinds of things, whether it's people who are 
blind trying to hail a cab with a seeing-eye dog--and even 
though the law says you've got to let the dog in, still a lot 
of cab drivers will say, ``I don't want them in my cab because 
they're going to mess up my upholstery.'' And it's so funny to 
us how many things apply to us and not to others. How about all 
those big suitcases that people throw in the back seat that 
might scuff up your upholstery?
    There's still a lot of bias and prejudice. And comments 
like those that the mayor made in New York don't help.
    The Chairman. No, they don't.
    Ms. Bristo. They don't help.
    The Chairman. They sure don't. I've focused a lot this 
morning on taxicabs, because that's one area where we just 
haven't made any progress at all, except for a few, where you 
have to call them up and wait for them. And yet more and more 
people are relying upon taxis. And we see how much money we're 
spending on paratransit, for example, in New York City--$500 
million a year.
    It just seems to me it's sort of one of the last frontiers 
in transportation where there's blatant discrimination and sort 
of the attitudes that somehow you can't hail a cab. Why can't 
you--I mean, I was in London this summer. The cabs are 
comfortable--good head room, a lot of room in them, totally 
accessible. They've been doing it, you said, since 1989. I 
didn't even know that. I thought this was recent or something, 
but they've beat us at it.
    And you say that you've been in other countries, Seoul and 
other places, where they're actually having better mobility 
than what we have here. That's shameful. That's shameful. But 
this attitude that it can be optional--that's got to change. 
It's just got to change.
    I'm sorry, David. Go ahead.
    Mr. Capozzi. I just wanted to add two points. One is I 
think we could benefit from better data and better information. 
There is no central place to find out information about what 
cities have accessible taxis. That doesn't exist.
    Second, I wanted to followup on Marca's point about other 
people with disabilities and the challenges that they face and 
just take two examples within our own Metro system here in 
Washington, DC. If you're traveling on the Metro, and you are 
wanting to see when the next train is coming, there's a little 
sign board that indicates when the next train is coming. It's 
visual only. So if you're blind or visually impaired, you don't 
have that same information.
    When you're on the train, they'll tell you what the next 
stop is and what the line is to make sure that you're on the 
right train. It's audible only.
    The Chairman. Right.
    Mr. Capozzi. So if you're hearing impaired, you're not 
getting that information. And if you have residual hearing, you 
could benefit from having a loop in the train, but those don't 
exist, you know, in most transit vehicles in this country.
    The Chairman. And the cost of doing that is so minimal.
    Mr. Capozzi. It is. Yes.
    The Chairman. So minimal to do things like that. By the 
way, I just wanted to say that my staff had acquired some data 
on taxis--I won't read them all--for some of the major cities. 
New York City, approximately 13,000 taxis, 231 wheelchair 
accessible--we've already talked about that--Chicago, 6,951 
taxis, 92 accessible; Washington, DC--are you ready for this 
one--5,700 taxis, 20 are accessible.
    There's some other ones here--Los Angeles, 2,300 taxis, 222 
accessible; Houston, 2,245, 200 accessible; Miami, 2,100 taxis, 
80 are accessible; Boston, 1,825 taxis, 78 accessible--must all 
be at the airport, David.
    [Laughter.]
     Wow. Philadelphia, 1,600 taxis, zero accessible. Now, I've 
got in parentheses 50 expected. I don't know what that means. 
What's that mean, 50--oh, the advocates are working on getting 
50. San Francisco, 1,500 taxis, 140 accessible; Seattle, 900 
taxis, 45 accessible; Portland, 382 taxis, 38 accessible. 
That's shameful. That's just some of the major cities. I don't 
even have Des Moines on there. But you can imagine what that's 
like, and other cities.
    I guess that's why I've focused so much on taxis, because 
it's an opportune time with what New York is doing, and it's so 
big. They're sort of the behemoth when it comes to number of 
taxis, and they're making this changeover, and they've dubbed 
it the taxi of tomorrow. The taxi of tomorrow has got to be 
accessible. That's the taxi of yesterday, not the taxi of 
tomorrow.
    This just gives us an opportune time, and, as I said in my 
remarks, I'm hopeful that Mayor Bloomberg will get a better 
understanding of this. And I hope that, maybe not him, but his 
staff and others around him will pay attention to this hearing 
and some of the things that you've brought forward to get a 
better idea of what it means.
    And, quite frankly, I think from some of the savings they 
would accrue on paratransit--I would not be so unreasonable as 
to say, ``Well, they've got to go back and do every old one.'' 
You can't do that, but every new one ought to be fully 
accessible in New York.
    I've focused a lot on that today, because I think it's one 
area where we've waited too long and we haven't made enough 
progress. You've pointed out we need to do something about 
regulations on the air transportation. I think we ought to have 
a hearing on that and get the regulators up here.
    I want to get the right people up here. I'll let my staff 
find the right people to come up here and start talking about 
some of these regulations in both that and the Surface 
Transportation Act. And you could be helpful if you've got more 
information that you want us to get from these people and what 
we need to do to change these regulations.
    Did I cut somebody off again? Did I cut you off, Marca? No, 
I was still on the taxis.
    Have you ever taken those taxis in London?
    Mr. Capozzi. I haven't, but I've taken one in Singapore 
that was a London taxi, and it was independently usable.
    The Chairman. When I looked at them this summer, I think 
that there are some people who probably could not--I think the 
slope is a little too steep on that ramp. And you really have 
to be pretty strong or have a power chair--a power chair could 
do it. But if you didn't have a power chair, it would be pretty 
tough, I think.
    Ms. Bristo. I've used the London cabs quite a bit, and they 
worked OK for my chair as long as I had assistance getting in. 
There were no tie-down devices. For some people that's a 
problem. For people who had either larger chairs or taller 
chairs, there would be a lot of difficulty using them. So 
they're universally accessible to some people with disabilities 
but not to everybody.
    That's why when the MV-1 people came to Chicago originally 
thinking that they were going to bring the London cab, the 
disability community through Access Living weren't too hot on 
the idea and urged them to go back to the drawing board, and I 
was very, very happy to see that they did. And, to me, that 
underscores a final point that I just want to make--which is, 
how important it is for the voice of people with disabilities 
to be in the transit industry.
    A lot of the things we've done in Chicago we've done 
because we've gotten people on the board of the Chicago Transit 
Authority. We have a person on the Pace board. And it's 
extremely important that, as you're looking at budget cuts as 
we go forward, the programs that support people with 
disabilities and give us our voice--please keep them strong. 
The P&A system, the independent living network, the parent 
training centers--we understand these are discretionary 
programs that could get cut. But they are the vigilant 
overseers that have held accountable all the different systems, 
that have made the rights that you've worked so hard to get on 
paper a reality in our lives.
    The Chairman. Thank you for that.
    As you said, Mr. Altom, the phrase you all use is ``nothing 
about us, without us.'' And that is absolutely true. It's 
absolutely true.
    Does anybody have anything else they want to bring out that 
I didn't ask or you didn't bring out that you wanted to point 
out before we close down the hearing?
    Ms. Houghton, anything else at all?
    Ms. Houghton. I would just thank you again for the 
opportunity to highlight this issue.
    The Chairman. Thanks for being here and bringing this 
perspective.
    Mr. Altom, thank you for all your----
    Mr. Altom. Thank you very much for having me here.
    The Chairman [continuing]. For rural transportation.
    Marca, thank you again for everything.
    Ms. Bristo. Just to you, personally, for being our 
champion, not just on this, but on everything.
    The Chairman. You're sure welcome.
    Ms. Bristo. You mean so much to us.
    The Chairman. But we need your help to get this taxicab 
thing. I appreciate that very much.
    Mr. Capozzi. Thank you for your leadership.
    The Chairman. Mr. Capozzi, thank you again for your service 
for so many years.
    And thank you all. We'll keep the record open for 10 days 
for any statements or insertions by other Senators. That's 10 
business days because we have the holiday coming up. So it'll 
be open for 10 business days. And I look forward to working 
with you as we proceed on making transportation more 
universally accessible.
    Thank you all very much for being here. I appreciate it.
    By the way, if any of you want to see this, it's right down 
on the corner. If you take these elevators right out here to 
the right and go down to--what floor is it--G, it's right 
outside the door. You can take a look at it.
    [Additional materials follow.]

                          ADDITIONAL MATERIAL

    Prepared Statement of The Community Transportation Association 
                           of America (CTAA)
    On behalf of the Community Transportation Association of America 
and it's over 4,000 members I want to express my appreciation for your 
decision to hold this hearing.
    Today's testimony allows us to provide information and ideas about 
the state of accessibility in the Nation's important surface 
transportation systems. It also gives us an opportunity to discuss the 
equipment used to deploy various mobility options and the people who 
provide these services across America every single day.
    Mobility services in the United States are as diverse as the 
physical landscape that makes our country unique. Some communities in 
our country have vast mobility resources that include a full range of 
surface mobility options from subways to taxi cabs. Others have a 
smaller range of options that can range from a weekly van service for 
seniors to one taxicab. Despite the range and type of services that 
exist they are all linked by one common element, ``need.'' All 
Americans need mobility to function in our society and there are ways 
we address that need both as individuals or groups of individuals. For 
many Americans that need is fulfilled by owning their own vehicle 
usually a car or a truck. There are other ways we achieve that mobility 
without individual car ownership and that comes from using public 
transit, the services of not-for-profit non-governmental organizations, 
taxicabs, car sharing efforts, volunteer transportation efforts, ferry 
boats, bicycles, and of course by walking.
    My testimony today concentrates on three important issues within 
this mobility community. These include our views on the status of 
accessibility within the Nation's taxi-based transportation system, the 
continuing crisis for accessible and often person-centered 
transportation in our growing outpatient health care system, and the 
continuing ways we can help coordinate our efforts not just between 
government agencies but between those who provide transportation to 
make more of that system accessible and affordable for the American 
people. Let me begin my testimony by discussing America's taxi 
industry.
    America's Taxi Systems and their role in our mobility systems: We 
want to see a taxi industry that is accessible, affordable, and 
environmentally sensitive. And we want to see this industry fully 
coordinated in partnership with all forms of surface mobility 
especially public and community transportation. There are many comments 
we could make about our country's taxi industry, but like the diverse 
landscape that makes up our country, a similar diversity is present 
across the taxi industry as well. In looking at the industry we think 
that there are some ``fundamentals'' that are important to remember and 
keep in mind the outset.
    These fundamental points include:

    <bullet> American communities need a flexible network of mobility 
services since no one service can meet the diverse service needs of all 
Americans. This mobility network is made up of various delivery 
components ranging from ambulances, through private automobiles to 
taxis, vans, buses, bicycles and walking. Taxicabs are vital to this 
network.
    <bullet> Taxicabs have long been part of the American mobility 
experience and have their origin in horse drawn vehicles prior to the 
discovery of the internal combustion engine.
    <bullet> Unlike many of the other forms of our surface mobility 
network the taxi industry is still predominantly a ``for profit'' form 
of transportation unlike its public or community transit partners who 
are usually public agencies or non-profit corporations. Taxis do not 
usually receive financial support from Federal, State, or local 
governments.
    <bullet> Taxi companies, especially those in smaller communities, 
are usually made up of independent small business cab owners or lessors 
often working under a ``brokerage'' arrangement. Because of that 
arrangement ``ownership'' in the taxi business has created numerous 
business and employment opportunities for minority and immigrant-based 
small businesses.

    The Future of the Taxi Side of the Mobility Market: Like all 
American businesses related to the transportation industry the taxi 
business and market has changed a great deal over the last several 
decades. In recent times, the harsh economic climate--the high price of 
financing coupled with the high price of fuel--have created numerous 
difficulties and dislocations in the industry. The increased ownership 
of private automobiles and changing patterns of movement from cities to 
suburban areas have created other negative financial changes affecting 
the size and operation of taxicab companies. We believe that there will 
be more change in the industry beyond the current economic difficulties 
that have bearing on its future. These will include:

    <bullet> The Role of Health Care and Individualized Mobility Needs: 
Regardless of the final implementation of the Affordable Care Act there 
is a continuing commitment to enhance ``outpatient'' medical treatment 
across all health care institutions and those who pay for them. Many 
forms of treatment that were previously ``hospital''-based are done in 
freestanding day facilities, or other treatment centers that are 
specifically designed to avoid hospitalization at all costs. For those 
actually needing in-patient hospitalization time, as an inpatient has 
been consistently lowered over the last decade. This dynamic creates 
the need for personalized transportation services especially when 
returning from medical facilities. Since many people leave these 
medical settings in less than perfect health using a bus or driving 
oneself is often impossible. As our society ages, the number of people 
finding themselves in need of this level of service can only increase. 
For some services like those related to kidney dialysis this 
transportation need is already acute. I will discuss that impact in 
more detail during my testimony.
    <bullet> Technological Impact: Right now we're seeing a dramatic 
switch within the taxi industry to smaller and more fuel-efficient 
vehicles being configured as taxicabs. There is a growing popularity of 
specific vehicle brands like the ``Prius'' in the taxi business with 
its dramatic engine efficiency and low operating costs. These lower 
cost vehicles help operators keep the growth of expenses down 
especially in the areas associated with high fuel prices. These smaller 
vehicles also produce extremely small environmental footprints, adding 
to their desirability. In addition to technology centered on engines 
and fuel systems the rise of technology that creates the ``fastest and 
most efficient'' routes of service based on GPS technology will grow in 
the industry. This technology will impact taxi costs and operations by 
allowing a higher volume of utilization benefiting the volume service 
that makes taxis profitable.
    <bullet> A Continuing Urbanization: Trends in the current census 
data illustrate a return to more traditional urbanized area with many 
of those living in these areas choosing not to own or maintain their 
own personally owned vehicles. Even where there is good public transit 
there will still be a need for the personalized services that only 
taxis can provide since besides medical transportation there will be a 
need for the flexibility and timing that make taxis popular.

    The Challenge to Achieving Accessibility: First and foremost our 
Association has always supported full accessibility in the 
transportation industry both public and private. Our support precedes 
the passage of the American's with Disabilities Act. In support of this 
accessibility commitment we've provided a host of technical assistance 
services to help small transit agency's to develop and implement full 
accessibility services. We developed and provided to hundreds of 
communities the PASS Driver education program, which trains those who 
provide transportation in the best possible methods of providing that 
service for people with disabilities. Using the resources of our 
certified development financial institution, the Community Development 
Transportation Lending Services Corporation, we've loaned both private 
and public sector transportation providers financing to improve and 
expand their own commitments to full accessibility.
    We believe that the greatest barrier to the taxi industry's growth 
and development is the need to become fully accessible to meet the 
transportation needs of all Americans especially those with 
disabilities. This is critical since we see many opportunities for the 
taxi industry in the health care area where accessibility demand will 
become more important in the years ahead. Within this challenge there 
are two kinds of issues preventing the implementation of fully 
accessible taxicab systems in our country. The first of these barriers 
is a technological one, while the second is one of financing.
    Technology: There is currently a challenge created by the inability 
to match vehicles accessibility in the industry and while maintaining a 
cost structure that will continue to allow the taxi industry to remain 
affordable. As I mentioned previously in my testimony smaller vehicles 
similar to the ``Prius'' offer low operating costs that help maintain 
affordable costs for taxi operations. Recent strides in accessibility 
like the recently developed MV-1 or a version of the ``London Taxi'' 
offer full accessibility but with much higher vehicle operating costs.
    What is needed for the industry is the ability to pull the full 
accessibility of the MV-1 and the operational costs of the ``Prius'' 
like vehicles into one ``universal taxi'' for the American market. We 
believe that such a vehicle is possible and it is a way to move more of 
the taxi portion of the American mobility market to both accessibility 
and maintain it's operational affordability. We propose that the 
committee consider looking at the development of this ``universal 
taxi'' using the same approach that the Environmental Protection Agency 
(EPA) developed its SMARTWAY technology in the trucking industry. In 
that effort, the EPA developed the necessary technology to achieve 
higher efficiency in diesel engines while reducing emissions. This 
technology was then licensed to the private sector and has become 
available in the market place. We believe there are other such vehicle 
developments that have been worked on in the bus industry by the 
Department of Transportation where government helps with the research 
that then can be incorporated in bus design. We need the same vision 
for the creation of a ``universal taxi.''
    Putting a Universal Taxi into the Mobility Market Place: Because 
the majority of the taxi industry is in the private sector and made up 
of many small operators it is necessary to consider how once such a 
vehicle is developed it can be placed into general operation. We again 
turn to an example developed with the Environmental Protection Agency 
in which we were a participant. We believe making SMARTWAY technology 
available to owner operators in the trucking industry is similar to the 
way such technology can be made available in the taxi industry. The 
independent owner operator in the trucking industry faces a significant 
barrier to adopting new equipment because of the high price for 
financing that many of these smaller businesses find in the current 
financial markets. Conventional financing is often difficult to obtain 
and the financial history of the industry in the last several years has 
negatively affected the credit ratings of many independent operators. 
It is not unusual to find some borrowers paying well over 20 percent 
interest for operating let alone capital costs. Such high interest 
prevents even good sense and cost-efficient technology from entering 
the market place. Blending funds from the EPA with private sector 
financing our subsidiary financing operation, the Community Development 
Transportation Lending Services Inc., a Certified Development Financial 
Institution of the U.S. Treasury's CDFI Program dramatically leveraged 
lower financing rates in the trucking industry. In some cases we were 
able to finance newer trucks fully equipped with improved environmental 
equipment for as low as 4 percent. Considering the previously high 
rates being paid for financing, this created the kind of incentive that 
we feel would be needed within the taxi industry. Lower rates could be 
the key to rapid adoption of a ``universal taxi'' once it is developed. 
Such financing help would also allow individual small ownership to 
remain an integral part of the taxi industry and help provide the 
platforms we'll need in a more health-orientated market place.
    Until Universal Design Becomes a Reality: Even as we look toward 
the development of a new ``universal taxi'' there are still things we 
can and must do to promote accessibility with the tools currently 
available to us. For the last several months we've been engaged in a 
financing demonstration of a new taxi company in the mid-west that 
combines low-cost ``Prius'' taxis and the MV-1 as part of a fleet that 
provide partial accessibility, one-third of the taxi fleet. By 
supporting low-cost capital for this project we hope to measure the 
full impact of higher operating costs of more expensive equipment 
balanced against lower operating cost units. It is our hope to maintain 
a mixed but affordable platform until the development of the 
``universal taxi'' we have proposed.
    We intend to report on this outcome of this effort to the committee 
at some future time once we have more financial and operating 
experience in this project. It is our hope that success in this project 
will lead to a broader demonstration focusing on a higher percentage of 
fully accessible vehicles at different locations across the country. We 
still believe that lower cost financing can be leveraged to add 
accessibility.
    An Underlying Crisis in Health Care Connectivity: Earlier in my 
testimony I spoke about the need for additional platforms for the 
delivery of medical transportation that may become the most important 
markets for taxi-based service operations. A significant part of our 
thinking is focused on the continued utilization of outpatient medical 
treatment for many kinds of illnesses that were once done as inpatient 
procedures. The committee know well of this expansion in terms of not 
just publicly supported health care but in the private insurance market 
as well. Looking at today's situation we believe that one current form 
of medical transportation that is a ``preview'' of the way this growing 
outpatient service approach creates challenges for mobility can be 
found in the issue of dialysis transportation. At this time I would 
like the committee to hear from Scott Bogren, associate director of our 
association who has extensively reviewed this issue.
                                 ______
                                 
    Thank you Mr. Chairman, I am Scott Bogren, associate director of 
the Community Transportation Association of America and I recently 
reviewed the status of Dialysis Transportation and its impact on not 
just patients but on the transportation providers who make these 
services possible. It is both a rural and urban issue and one that 
lends itself to, as Mr. Marsico referred to in his testimony, the need 
for not just additional service platforms but for improved 
coordination--something we will also address in this testimony.
    The Dialysis Report, When: Transportation Demand Outstrips Supply: 
Everyday, thousands of Americans who need regular kidney dialysis board 
a community or public transit vehicle to access this life-sustaining 
care. The trips these patients take are time-consuming--they often last 
more than 4 hours in duration--and essential, as they absolutely must 
be made, regardless of the weather or any other circumstances. Dialysis 
trips also are changing the nature of public transit in many 
communities. The role of providing transportation for dialysis 
treatment has long been an area of challenge--as well as 
accomplishment--for community, public and human services 
transportation. Early outpatient dialysis treatment created significant 
needs for demand-responsive transportation services in communities of 
all sizes. Since, initially, many of the clinics providing dialysis 
were located in urban areas, transportation in rural communities took 
on greater importance for patients and their families. In the ensuing 
years, the growth in the overall number of dialysis patients brought 
increased needs for responsive mobility services in urban and suburban 
areas, too.
    The regular and consistent need for dialysis treatment requires 
similar consistency in transportation access. Paratransit services, 
rural public transit, human service networks and volunteer programs not 
only provided many of these life-sustaining trips, but also raised 
funds to support them. Although public funding helped with purchasing 
equipment or even operating costs, many programs needed to raise local 
funds to meet various match requirements or to meet the needs of 
individuals that didn't fit into some categorical program or individual 
eligibility requirement. In one of the greatest and often undisclosed 
success stories, these transportation providers and networks made 
dialysis treatment possible for millions of Americans--and changed many 
people's lives. Over the last 30 years, dialysis transportation 
services have made it possible for patients to stay in their homes and 
in their communities, thus greatly lowering the overall cost of 
providing the treatment. And although these efforts stretched the 
resources and ingenuity of the Nation's transportation services--the 
need for dialysis transportation was met day-in and day-out across the 
Nation.
    The significant growth of dialysis treatment--as is detailed later 
in this report--makes daunting the prospect of continuing to meet the 
demand under the current structure. It seems that one of our Nation's 
greatest medical challenges is equally a test of our transportation 
system. Across the Nation those who created the current dialysis 
mobility solutions are faced with dramatic increases in demand as the 
number of dialysis patients and the number of clinics--which often work 
on a 24-hour basis to serve more patients--require both additional 
resources and tools. Because there are many patients needing evening 
services and since many patients experience difficulties with 
treatment, there are now needs for more individualized dialysis 
transportation service strategies that are more expensive to provide. 
For community and public transit operators, these trips are a mounting 
challenge. Demand for dialysis transportation, according to every 
transit manager interviewed for this article, is skyrocketing at the 
same time payment mechanisms dwindle. Trips distances have grown even 
as available dialysis center chairs are expanded locally to keep up 
with the number of patients. What is needed today, clearly, are new 
solutions, new partnerships and new thinking. ``We've reached the 
tipping point,'' says Santo Grande, executive director of Delmarva 
Community Transit, headquartered in Maryland's rural Eastern Shore. 
``We just don't have the resources to meet the need--vehicles, drivers 
and money.''
    The Dialysis Transportation Task: Dialysis is a process by which 
excess waste and water are removed from the blood of patients whose 
natural kidney filtration system is no longer effectively functioning. 
Typically, individuals on dialysis have moved from one of the first 
four stages of chronic kidney disease and into what is known as end-
stage renal disease (ESRD). Physicians and researchers agree that once 
an individual is diagnosed with chronic kidney disease, they will 
eventually require either dialysis or a kidney transplant--the end 
stage for the disease. Dialysis treatment frequencies and the duration 
of individual sessions are largely dependent upon the patient. That 
said, for more than 40 years the generally accepted standard of care 
for ESRD patients has been dialysis treatments thrice weekly, each at 
around 4 hours in duration. More recently, several studies have 
suggested that increased frequency in shorter duration treatments--six 
times a week for 2\1/2\ hours--increased overall health and quality of 
life in patients. Needless to say, the mobility ramifications of this 
potential treatment schedule change are frightening as it would 
effectively double the current, necessary transportation service, a 
service that many community and public transit systems already find 
daunting. ``We're struggling to meet growing demand already,'' says Jim 
Wood of Kennebec Valley Community Action in Waterville, ME. ``Doubling 
the service would be frightening.'' To undergo dialysis treatment, 
patients typically sit at reclining chairs with tubes leading from 
themselves into humming dialysis machines. Though life sustaining, the 
process often wears out patients and leaves them susceptible to a 
number of side effects such as nausea, infection, bleeding and more. In 
fact, this bleeding--due to a patient's inability to clot--was cited 
time and again in the preparation of this article as a chronic 
challenge with dialysis patients on community and public transit 
vehicles. In some cases, dialysis patients may be able to board a 
fixed-route community or public transit bus to get to their scheduled 
service. But the return trip, after the debilitating process, must be 
made on a demand-response service. ``In all honesty, the ability to use 
fixed-route transit for dialysis is limited,'' says United We Ride 
Region 3 Ambassador Rex Knowlton, who managed dialysis transportation 
service in Philadelphia for more than two decades. The regimentation of 
dialysis treatments creates additional health care and transportation 
costs, too. Typically, patients on a Monday-Wednesday-Friday schedule 
are more likely to be private-paid, particularly those receiving their 
dialysis in the middle of the day. Conversely, Tuesday-Thursday-
Saturday patients and those early morning and later night clients are 
more likely to be Medicare patients. These are also the dialysis 
patients more likely to be dependent upon community and public 
transportation--in the most difficult and costly to serve time slots. 
``The cost of off-peak and Saturday treatments is much more than an 
incremental cost increase to transit,'' says Knowlton. ``It's a 
significant increase.''
    ESRD By the Numbers: Today, the National Kidney Foundation reports 
that 26 million Americans suffer from Chronic Kidney Disease--a more 
than 20 percent increase since 1994--with millions more at increased 
risk due to the increasing prevalence of such health risk factors as 
diabetes and high blood pressure. This figure represents approximately 
13 percent of the adult population of the United States. Though 
smaller, the statistics are no less daunting for end-stage renal 
disease. More than half a million Americans are currently suffering 
from ESRD, the vast majority of whom require dialysis treatments to 
stay alive. Growth rates of ESRD are staggering. In 1980, 60,000 
patients received treatment for the disease; 571,000 received the same 
treatment in 2009, a growth of 900 percent in 30 years. The rate of 
ESRD incidence is 355 per million population; the rate of prevalence of 
ESRD per million is 1,738. In 1980, 19,000 Americans began treatment 
for ESRD, as compared to 116,000 in 2009. The rise in ESRD incidence 
has, not surprisingly, led to a significant rise in health care 
expenses associated with the disease and its treatment. Total Medicare 
ESRD expenses for 2009 came to $42.5 billion--or $82,285 per person per 
year for hemodialysis patients. Just over 1 percent of Medicare 
patients have end-stage renal disease, yet these same patients account 
for more than 8 percent of total Medicare spending. The dialysis 
transportation challenge is so great that major changes in public 
policy must occur to enable this mobility link to continue. First the 
time has come to extend reimbursement for this vital health support 
service. Second there must be increased communication between those 
providing dialysis treatment and transportation.
    Who really pays? The crux of the transportation challenge is that 
the majority of dialysis patients are covered by Medicare, which--
unlike Medicaid--does not offer non-emergency transportation as a 
benefit. Three out of four dialysis patients in our country are 
Medicare primary, meaning that Medicare sets the reimbursement rate and 
pays 80 percent of that amount. Reimbursements include one rate for 
routine dialysis services and another for dialysis medications. This 
leaves 20 percent of the typical dialysis charges to be paid by a 
secondary insurer. For roughly half of the Medicare primary dialysis 
patients, the secondary insurer is Medicaid, thus creating the so-
called dual eligibles. How much of that 20 percent that Medicaid covers 
depends upon the State.
    Recent studies indicate that only 1 in 10 dialysis patients are 
Medicaid primary, in which case Medicaid pays between 80 percent and 
100 percent, depending on the State and its Medicaid plan. Finally, 10 
percent of dialysis patients are covered through some form of private 
insurance. Clearly, demographics and health care treatment trends are 
creating the steady growth of people needing dialysis transportation. 
At the same time, fewer dialysis patients have the ability to pay for 
the life-sustaining trips, which is taxing the ability of community and 
public transportation providers to respond--particularly given the 
current constrained fiscal environment at Federal, State and local 
levels. ``Twenty-five years ago when we first launched this service, it 
seemed to us that 90 percent of the dialysis patients we encountered 
were on Medicaid,'' says Grande. ``Today that equation has flipped, and 
90 percent are on Medicare, which is why we're hurting. I know it's 
happened, but I don't know why.'' Bill McDonald, executive director of 
Medical Motors in Rochester, NY, has seen the same transition: ``We 
hardly do any Medicaid dialysis anymore, so our focus is on the 
patients who aren't Medicaid eligible and who still very much need that 
ride.''
    The Transit Perspective: ``The first thing you have to remember is 
that without the trip, these passengers won't live,'' says Ann August 
of the Santee Wateree RTA in South Carolina. ``So when we receive a 
call requesting this type of service, we understand the ramifications 
and don't want to say no.'' Indeed, in background discussions with 
community and public transit officials around the country for this 
article, a common refrain was the difficult position in which many 
transit operators find themselves--how to continuously add new dialysis 
patients to the transit schedule with no means of payment. Some worried 
that their general public service was, in effect, being usurped by the 
swiftly growing dialysis transportation demand that is, in many ways, 
life-and-death. ``It's terribly challenging,'' says Jim Wood of KVCAP 
in Waterville, ME. ``We're really concerned about our ability to 
continue meeting the growing demand without finding a way to pay for 
the service.'' At KVCAP, as with a surprising number of transit systems 
nationwide, the system reserves its local United Way funding 
specifically for this purpose. But community and public transit 
managers around the Nation are reporting that these United Way funding 
sources, like many others, is not growing nearly as quickly as the 
dialysis transportation demand.
    Another key issue some transit managers point to, is that the 
privately owned and operated dialysis centers--many of which operate 
from before 5 a.m. to midnight--seem to believe there is a statutory 
rule that prohibits them from actually paying a portion of the 
transportation costs to get their patients to their chairs. In 
researching for this article, we could find no such rule.
    A Different Kind of Solution: Of course, an obvious solution to the 
growing demand for dialysis transportation is to reduce the demand. A 
key component is the need for kidney donors across the United States. 
In 2008, more than 16,000 kidney transplants were performed across the 
country with either organs harvested from cadavers or from living 
donors.
    Today, the average wait time for a kidney donation can regularly 
exceed 2 years, at the minimum. The Community Transportation 
Association of America is hereby calling on its members around the 
country to be sure to designate themselves organ donors and to work 
with transit employees and advocates to do the same. Transplants can 
add decades to people's lives and significantly forestall the need for 
dialysis, but only when the needed organs are available. One way to 
help solve this problem is to support donor programs like that of the 
National Kidney Foundation.
    Moving Forward: The key solution for community and public 
transportation, moving forward, is to develop a funding mechanism for 
dialysis transportation in Medicare.
    Currently, Medicare will only reimburse for emergency 
transportation services--read: ambulances--and not for non-emergency 
dialysis transportation. For Medicare, dialysis transportation is not 
an emergency. ``Yet we all know that not providing dialysis 
transportation results in life-threatening emergency situations that 
include both emergency transports and emergency room stays--both of 
which are exceedingly expensive to the program,'' says Coordinated 
Transportation Solutions Executive Director David White. ``If you're 
wondering what happens when we can't do the trip,'' says McDonald, 
``the patients simply dial 9-1-1.'' Yet once a dialysis patient does 
dial 9-1-1, the Medicare program, in many cases, still refuses to pay. 
Just last month in West Virginia, for example, a private rural 
ambulance company paid a more than $1 million penalty to Medicare for 
dialysis trips taken thrice weekly for 2 years by five local ESRD 
patients. The penalty was levied, not surprisingly, because Medicare 
inspectors had ruled that, ``ambulances were not needed.'' Community 
and public transportation managers that were interviewed for this 
article were asked to roughly estimate the transportation costs 
incurred for a year of dialysis transports. Most came to a figure in 
the neighborhood of $5,000 per patient, per year. When Medicare is 
paying more than $82,000 per year per person for dialysis, it does not 
seem unreasonable to build in a 6 percent increase to ensure that the 
patient arrives safely and efficiently at the dialysis clinic to 
receive life-sustaining treatment. ``That's really the issue,'' says 
August. ``We are, by transporting dialysis patients, saving Medicare 
and the taxpayers a lot of money. We just can't keep up with the demand 
without a payment system.'' Additionally, new solutions, partnerships 
and thinking are necessary for both health care and transportation 
providers to best manage the significant, continued growth in dialysis 
patients that researchers expect. A national dialog between 
transportation providers and the dialysis industry, to include the 
National Kidney Foundation, must be a part of any short- or long-term 
solution. As Mr. Marsico said, dialysis transportation is the 
foundation of much of the non-emergency medical transportation provided 
in our country.

          ``The dialysis transportation issue--because of the life-and-
        death nature of the service and the overwhelming demand--is the 
        logical place to first focus when considering the role of 
        community and public transit in health care provision and 
        transportation.''

    It's really another first step in the long journey that our 
Association and its members have embarked upon to bring together 
successful health care and transportation outcomes for the American 
people.
                                 ______
                                 
    The Need for Coordination: One way we can help better manage the 
current situation is to support and encourage transportation services 
to work together to resolve some of the situation cited by Scott 
Bogren. For instance a coordinated approach utilizing transit to get 
patients to dialysis needs to be coordinated with taxi services to meet 
the return needs of patients who experience difficulties in being 
physically able to make a return trip on public transit vehicles is 
absolutely necessary. Coordination means bring public and private 
transportation providers into partnerships at the local level that 
focus on patient needs. This has been an important part of our 
Association's continuing efforts on coordination. Congress has been 
helpful in this effort by supporting the Community Transportation 
Assistance Program within the Department of Health and Human Services 
and in the National Resource Center on Coordination within the U.S. 
Department of Transportation. My colleague Charles Dickson, associate 
director for Technical Assistance has recommendations in these areas 
that we feel will help us to continue these efforts that promote 
coordination and improved services to patients.
    Mr. Chairman, I am Charles Dickson, associate director of our 
Association for Technical Assistance, and I have been engaged in 
working to provide greater coordination for the benefit of not just 
medical services but a range of other activities where private and 
public efforts come together. Whether it's employment service 
transportation, health care, or the special needs of Americas' seniors, 
coordination is a vital way we make those services better and more 
efficient for everyone. Mobility is an oft-overlooked and misunderstood 
component in modern American life. For many, the ability to get there--
wherever that may be--is simply assumed. Yet for millions of 
transportation disadvantaged Americans--those who do not or cannot 
drive, cannot afford cars, or who have only one car available for 
several family members--getting there is a supreme challenge. Today, 
more than 100 million Americans are transportation disadvantaged. This 
growing group includes 46 million people with disabilities, 44 million 
elders, 60 million people living in rural areas and 38 million people 
living in poverty.
    For these isolated and at-risk citizens, the transit services 
funded by the U.S. Department of Health and Human Services and the U.S. 
Department of Transportation provide life-changing access to jobs, 
education, childcare, social services and especially healthcare. For 
most, there is no alternative. In 1991, Senator Tom Harkin recognized 
the need to help communities of all sizes around the Nation provide 
mobility to those residents most in need--America's growing 
transportation-disadvantaged population--by creating the Community 
Transportation Assistance Project, or CTAP. The goal: building a more 
accessible society. Initially, the CTAP program provided targeted 
technical assistance to the human services transportation network that 
had no other forms of guidance available to it. Efforts focused on 
developing and maintaining a human service-focused information station 
providing resources on improving access, implementing the ADA, and 
providing effective welfare-to-work transportation, as well as 
identifying experts in all aspects of human service transportation. The 
accessibility component that was central to the program's founding has 
been a focus throughout this effort.
    In recent years, the work of the CTAP program has broadened to 
include assistance with cost-effective mobility coordination and 
management strategies, employment transportation services, practical 
technology applications and, innovative health care transportation. 
Health care is a central focus for all communities and has been a major 
focus for our CTAP program for the past two decades. The program's 
initial mantra that, all the human services in the world are useless if 
people cannot access them, is as vital today as it was when first 
coined. The recently passed health care reform legislation will 
significantly add to the number of Americans receiving health care 
benefits through the Medicaid program. More Americans will have greater 
access to preventative health care programs. Yet these programs are 
destined to fail without an adequate mobility strategy. Our program's 
mission of ensuring access to vital services like health care and of 
providing the necessary strategic technical assistance has never been 
more important. The CTAP Coordination effort has conducted extensive 
research in the field of non-emergency medical transportation.
    Medicaid's Medical Transportation Assurance: Origins, Evolution, 
Current Trends, and Implications for Health Reform. In 2009, we 
released a report on medical transportation as it related to the 
important role it plays in helping outpatient services in Medicaid that 
we believe is similar for all areas of outpatient transportation. The 
key findings in this report were:

    <bullet> The assurance of transportation to medically necessary 
health care is one of several basic program features that set Medicaid 
apart from traditional concepts of health insurance. In combination, 
these features embody an approach to health care financing whose aim is 
to assure not only coverage and payment but also access to medically 
necessary care.
    <bullet> Since Medicaid's enactment, medically necessary, non-
emergency transportation has been woven into the program.
    <bullet> While there is considerable variation, virtually all 
States recognize non-emergency medical transportation as a fundamental 
aspect of program administration and healthcare.
    <bullet> Non-emergency medical transportation represents a small 
portion of overall Medicaid spending, slightly more than $3 billion in 
fiscal year 2006, yet it constitutes the second largest Federal 
transportation payment system, behind only programs administered by the 
U.S. Department of Transportation. Indeed, Medicaid NEMT expenditures 
represent almost 20 percent of the entire Federal transit budget.
    <bullet> States have increased the use of transportation brokers as 
a way to provide transportation benefits since the Deficit Reduction 
Act permitted the use of brokerage systems when providing 
transportation as medical assistance under the State plan. Between 2001 
and 2009, the number of States using exchange brokers rose from 29 to 
38 (an increase of 31 percent).
    <bullet> Brokerage programs may include wheelchair vans, taxis, 
stretcher cars, transit passes and Medicaid non-emergency medical 
transportation tickets, and other transportation methods. Although 
there is still little evidence about the effects of brokerage services, 
some research indicates their use may reduce costs and improve access 
to services.

    Moving from research to action, the Community Transportation 
Association through the CTAP Coordination project developed a training 
course for public and private non-emergency transportation providers to 
help them cope with the changing demands of the program. This course 
entitled the ``The Competitive Edge'' helps community and public 
transportation providers become efficient, safe, cost-effective and 
accountable in order to maintain important medical transportation 
services. This training helps both public and private providers by 
identifying the following important concepts:

    <bullet> Value: Determining the true cost of service.
    <bullet> Pricing: Lowering your costs to be competitive.
    <bullet> Accountability: Building a recordkeeping and reporting 
process.
    <bullet> Training: Focusing on the patient.

    The CTAP Coordination effort has also created a Medical 
Transportation Toolkit to help communities better provide access to 
medical care that focuses on coordination. The toolkit describes how 
non-emergency medical transportation works in communities across the 
country and how communities can work to improve access to medical care 
for individuals who lack mobility options and for people with 
disabilities. In the past year, this document has been downloaded more 
than 7,000 times. In addition, the CTAP program hosted two webinars on 
non-emergency medical transportation that explored the creation of the 
Medicaid NEMT program and how it operates today. These two programs are 
archived on the CTAP Web site. Some of the additional work we've done 
in individual communities has focused on ways to improve access to 
health care and coordination. These have included:

    <bullet> Worked with the Mid America Regional Access to Care 
committee for the metropolitan planning organization in Kansas City, 
MO, to discuss how transportation impacted access to health care. 
Helped the committee form a transportation task force.
    <bullet> Assisted in the development of a Health Care Coalition, in 
Lafayette County, MO.
    <bullet> Assisted the State of Rhode Island in coming into 
compliance with CMS regulations, which helped them maintain non-
emergency medical transportation services.
    <bullet> Worked in concert with the Veterans Integrated Service 
Network in Nashville, TN, to create a veteran's health mobility summit.
    <bullet> Met with the New York State Department of Health about its 
non-emergency medical transportation program--and specifically 
discussed new CMS regulations and their impact.
    ``We have made a beginning but only begun.'' We believe that the 
committee can help us build on this record by supporting the 
continuation of the CTAP coordination effort through investment from 
the U.S. Department of Health and Human Services. Our goals for an 
expanded effort would include:

    <bullet> Continue the ability of the CTAP program to help 
communities meet their non-emergency medical transportation by 
providing technical assistance through a medical transportation Web 
site, telephone support and in-person technical assistance as needed.
    <bullet> Expand the ability of the CTAP program to offer impactful 
technical assistance by creating a research program to demonstrate the 
cost savings potential of providing timely and affordable 
transportation for chronic conditions such as end-stage renal disease 
and cancer. Also provide funds to conduct demonstration programs with 
Medicare providers to demonstrate potential benefits of including 
transportation as a benefit in that program.
    <bullet> Provide technical assistance to traditional providers of 
public transportation on methods they can use to improve services for 
human service agencies and coordinate other services in their 
communities.

    Beyond Heath Care: Although we have singled out health care for 
separate discussions relative to coordination we would like to comment 
on the more general question of how larger coordination efforts can 
improve access services for all Americans with special needs. We were 
pleased that in the last highway and transit reauthorization, Congress 
created the National Resource Center for Human Services within the 
Federal transit programs administered by the Federal Transit 
Administration within the Department of Transportation. We are pleased 
to have worked with the Federal Transit Administration to improve 
transportation not just in the human services area but also between 
human service providers and public transportation. Coordination of this 
kind has been the topic of various Federal activities over the last two 
decades, but the National Resource Center is the first effort to work 
on this situation not just from the Washington perspective, but at the 
State and local level as well. Through the work of the NRC Steering 
Committee individuals who represent all facets of those who can benefit 
from transportation coordination come together to work on issues as a 
team. There are also coordination Ambassadors in every Federal region 
to help State and local agencies achieve better ways to work together 
for more effective and efficient transportation that looks at the needs 
of communities as well as the needs of individuals. In the pursuit of 
these efforts the NRC has been an important partner of our Associations 
efforts to create ``Coordination Institutes'' across the country that 
bring local providers together with strong technical support to further 
efforts to collaborate. These efforts are often linked back to the work 
done by these regional Ambassadors.
    I'd like to provide some information about our recent efforts with 
Veterans in this behalf that show how this kind of coordination is both 
possible and needed. Let me begin with the words of President Abraham 
Lincoln when he said:

          ``Let us strive on to finish the work we are in, to bind up 
        the Nation's wounds, to care for him who shall have borne the 
        battle and for his widow and his orphan.''

    The lines from President Abraham Lincoln's second inaugural are the 
most elegant statements about the responsibilities all Americans share 
in caring for our Nation's veterans and their families. Although he 
spoke these words in the midst of a terrible war, they were meant not 
just for then, but for all time. These words can be found engraved in 
many monuments and on the walls of the U.S. Department of Veterans 
Affairs--but they are embodied in the words and actions of many 
institutions and individuals across America. As America has changed 
since Lincoln's time, so have the needs of our veterans and their 
families. We've seen these needs evolve as each generation of veterans 
has faced new and often complicated challenges resulting from their 
service to the Nation. Some of these changes are designed to provide 
rehabilitation services that were impossible to imagine in Lincoln's 
time. The GI bill with its approach to educational benefits for 
veterans was another response to changing needs. The individual 
contributions to support today's veterans by employers and their 
communities are still other ways we live up to the words and thoughts 
behind President Lincoln's promise.
    In our own times, we face complex challenges in meeting veteran's 
needs in the areas that we call transportation and mobility. Some of 
these challenges result from service-related disabilities, some by a 
larger population of older veterans who need continuing medical care, 
and some by the needs for mobility that are required for those going to 
work or education. Many of these challenges exist not just for 
veterans, but also for the families and dependents. Addressing these 
mobility and transportation-related issues is not just an issue for the 
Department of Veteran's Affairs or traditional Veterans Services 
Organizations--they are shared, societal responsibilities. More 
specifically, these mobility and transportation-related issues are a 
key component in the ongoing work of the network of mobility providers 
we call community and public transit and the human services 
transportation network. Those who provide many of these mobility 
services are linked through the National Resource Center of Human 
Services Transportation (NRC). Created by Congress in the U.S. 
Department of Transportation, the NRC has a priority to bring together 
many programs and interests together to address gaps in the mobility 
needs of all Americans, especially the needs of our veterans. In the 
process of fulfilling its mission, the center has supported 
coordination issues in every region of the country to enhance mobility 
services and resources across the Nation. This report is designed to 
present the ongoing progress in this vital area and how the NRC and its 
constituents are doing our part in addressing the needs of our veterans 
and their families.
    The National Resource Center's Work with America's Veterans and 
their Families: The National Resource Center for Human Service 
Transportation Coordination (NRC) was established as a result of 
SAFETEA-LU. The Community Transportation Association of America (CTAA) 
through a cooperative agreement with the Federal Transit Administration 
(FTA) operates it. The fundamental purpose of the NRC is to provide 
States and communities with the support they need to better integrate 
public transportation services with the services and demands of their 
human services networks--including America's veterans and their 
families. The goal is simple: that communities across the country are 
able to better coordinate human services and transportation provision, 
making them more livable, especially for the people who are customers 
and beneficiaries of human services programs. The NRC focuses on 
providing the education; facilitation and technical assistance that 
helps local communities improve their residents' mobility through 
strong partnerships among public transportation providers, human 
service agencies, private institutions, businesses, volunteers, 
consumers, political leaders, and other public agencies and non-profit 
organizations.
    Through its staff, through its network of United We Ride 
Coordination Ambassadors, and through the materials on the NRC Web 
site, the center provides the strategies; information and assistance 
that allow communities to develop locally appropriate solutions for 
their mobility challenges. Working diligently and respectfully with 
State and Federal agencies and policymakers, the NRC helps to assure 
that communities receive the support they need to improve local 
mobility through coordination between public transportation, human 
services and their partners. What follows are examples and best 
practices of the NRC's valuable work in assuring cost-effective, 
efficient mobility for America's veterans and their families.
    Ann Arbor VA: Tapping the Region's Mobility Resource: The VA Ann 
Arbor Healthcare System is one of six pilot sites for the Department of 
Veterans Affairs' Veterans Transportation Service (VTS). Under its VTS 
activities, veterans living in portions of Michigan's Wayne, Oakland 
and Livingston counties who have appointments at the Ann Arbor VA 
medical campus are to receive no-cost shuttle service from their homes 
to these appointments, and there also is a shuttle to transport 
veterans between the Toledo (Ohio) VA outpatient clinic to the Ann 
Arbor facility. Like most VA medical facilities, the VA Ann Arbor 
Healthcare System has not historically engaged in providing 
transportation services, assuming instead that veterans would use 
existing resources of their families or communities--or the resources 
of local veterans service organizations (VSOs)--to get to and from 
necessary medical services. As such, it has been a challenge for this 
center to get its transportation program up and running, especially 
given the timelines and prompt performance set forth by the VA national 
staff, the VTS Resource Center was able to step in and aid the Ann 
Arbor VA Healthcare System in arranging the partnerships to help this 
important project get off the ground and running. As could be expected, 
there were many phone calls and e-mails in which the NRC team, the 
national VTS team and other experts shared ideas and information with 
the Ann Arbor VTS project staff, but the seminal event was an in-person 
meeting one of our Ambassadors arranged between the Ann Arbor VTS 
manager and key personnel from the Detroit-area SMART transit system.
    SMART is the largest of the public transit providers operating in 
the counties that are to be served through the Ann Arbor VTS project 
initiative. Through its corps of United We Ride Coordination 
Ambassadors, the National. Through the introductions and facilitation 
provided by the Ambassador at this meeting, SMART offered to partner 
and provide service, management, planning and public relations 
resources to help with the VTS program. The VTS team was struggling 
with the challenge of producing significant, almost immediate, results 
throughout the entire region to be served by this program. Without the 
Ambassador's intervention, it's entirely possible that the Ann Arbor 
VTS staff would not even have considered partnering with their regional 
public transit system. As a result of the NRC's assistance in this 
project, not only is the Ann Arbor VA Healthcare System partnering with 
SMART, but they also are entering into relationships with the other 
transit agencies in the three-county area to be served under the 
project. And there's a bonus: because the VTS staff are finding 
strength and opportunity in partnerships with public transit, they are 
entering into relationships with the transit agencies in Ann Arbor 
itself and in Flint, all of which are above and beyond the programmatic 
expectations of the VTS initiative and which expand mobility options 
for veterans and their families to access the healthcare they need.
    Temple VA: Building a Coordinated Approach: On September 17, 2010, 
the Central Texas Veterans Health Care System began operating its 
Veterans Transportation Service (VTS) project, which is intended to 
provide transportation for veterans with special needs and veterans who 
don't have transportation to-and-from their outpatient appointments at 
the Olin E. Teague Veterans Medical Center in Temple, TX. Every one of 
the VTS pilot sites is unique; in Central Texas' case, they've given 
priority to meeting the transportation needs of female veterans and of 
veterans with physical disabilities--including wheelchair-dependent 
veterans. The project focused exclusively on providing transportation 
to their VA Medical Center in Temple, and began its service with a 
number of directly operated vehicles. Although they successfully and 
quickly launched their service, challenges and opportunities almost 
immediately presented themselves, and the NRC was poised to help ensure 
the success of this project's service. The leading challenge was one of 
geography. The Central Texas Veterans Health Care System operates two 
VA Medical Centers and six outpatient clinics spanning 39 of Texas' 
counties. The enormous service area covers 35,243 square miles and has 
a population base of more than 252,000 veterans. There simply was no 
way the Central Texas VTS staff could use the limited number of 
vehicles at its disposal to meet the burgeoning transportation demands 
of its target population. Through connections made via the national 
project staff, and contacts that had arisen at some of the other sites, 
the Central Texas VTS manager reached out to one of the NRC's United We 
Ride Coordination Ambassadors, who set to work helping the VTS staff 
get connected with the transportation partners and resources that would 
help the project succeed. As a result of this technical assistance 
effort, there have been many accomplishments, including:

    <bullet> The VTS manager is an active participant in the Heart of 
Texas Council of Government's MPO Transportation Committee for Temple, 
from which he is able to see that veterans' issues and mobility needs 
are considered in the area's federally supported transportation 
planning, programming and service delivery.
    <bullet> Hill Country Transit, which is the regional public transit 
system serving Temple and a nine-county rural area surrounding Temple, 
has worked with the VTS site to establish a program of tokens veterans 
can use for riding Hill Country Transit for all their transportation, 
regardless of destination or trip purpose.
    <bullet> A service has been designed in partnership with CARTS, the 
regional public transit system operating in nine counties along the 
southern part of the Central Texas VA service area, through which CARTS 
picks up veterans from origins in Burnet and Williamson counties and 
transport them to a transfer point in Georgetown, TX, from which a 
scheduled VTS van makes daily round-trips from Georgetown to the VA 
Medical Center in Temple. Moreover, there would be no fares charged to 
the individual passengers for using this CARTS-VTS transportation 
service.
    <bullet> Having secured these operating relationships between the 
Central Texas VTS, Hill County Transit and CARTS, additional 
opportunities for cost-effective partnership are being discussed, 
including possible technical assistance or coordination on vehicle 
procurements, and the likelihood of service expansion in the area to 
bring even more of Central Texas' veterans to medical appointments and 
other destinations.

    Pacific Northwest: The NRC's Successful Role in Convening the Right 
People and Forging Results: With respect to veterans and military 
families, the States of Oregon and Washington have much higher 
concentrations of veterans' populations in both urban and rural areas, 
as compared to national averages. And as is the case in many places, 
more and more of the health care services, jobs and social services 
needed by these veterans has been concentrated in major metropolitan 
core areas, which makes life and mobility increasingly challenging for 
rural veterans, especially rural veterans with disabilities and rural 
veterans with limited economic and transportation resources.
    Clearly, for veterans to enjoy mobility in the Pacific Northwest, 
particularly in more rural areas, partnerships between transportation 
providers and the networks of health care and services for veterans 
would have to be forged. However, putting that clarity into practice 
was a challenge that had vexed this region for years. Almost 
immediately upon establishment of the NRC, we began to do our part to 
help these communities tackle this challenge. The NRC's first step was 
to help bring partners together at the community level. We focused our 
attention on one area having both need and capacity to address that 
need--Washington's Olympic Peninsula. A United We Ride Coordination 
Ambassador began bringing together the peninsula's two public transit 
providers, Mason Transit and Jefferson Transit, along with numerous 
community-based groups serving veterans and other populations, and 
essentially challenged them with the question: What can we do to better 
serve the needs of this important segment of our community with the 
resources available to us? Those conversations--both formal and 
informal--led to a number of ready and successful outcomes in the areas 
of information, outreach and inclusion of veterans' needs in the 
delivery of transportation services to veterans living in the 
peninsula. Another outcome that took more time to materialize, but 
which ultimately was successful, was to incorporate veterans with 
disabilities among the people who are able to receive discounted 
universal Regional Fare Permits that are accepted not only on Jefferson 
Transit and Mason Transit, but also on eight additional public transit 
systems in Washington State, and on the State's ferry system. The 
successes of this first step, though, uncovered greater challenges.
    While the Olympic Peninsula has many veterans among its population, 
and has its share of economic and social services for veterans, the 
only VA health services on the peninsula are those that can be provided 
at a single outpatient clinic in Port Angeles, WA. Once our Ambassador 
began talking to veterans' service organizations, and to individual 
veterans, the enormity of this challenge became clear. Almost every 
element of health care that a veteran on the Olympic Peninsula would 
require--whether for a one-time doctor's visit or for recurring 
treatments or therapies--involved a trip to the Seattle VA Medical 
Center, which can be as far as 200 miles away from some communities on 
the peninsula, and which inevitably involves either a ferry ride or a 
surface journey of significantly greater length. Almost every veteran 
our Ambassador encountered had his or her own story of health care that 
had been self-rationed, or services not received, because the 
transportation challenges were too great, or the logistics of how to 
arrange the time and travel for a medical trip from their home to 
Seattle were too complicated, even with the availability of relatively 
affordable public transportation.
    To get a more concrete grasp on the extent of these mobility 
challenges--and to help begin to get stakeholders talking about 
possible solutions--the NRC's United We Ride Coordination Ambassador to 
this region worked with State, local and national partners to convene 
the Washington State Veterans Forum: A Symposium on Transportation 
Access for Veterans, Military Personnel and Their Families. The primary 
participants in this event were more than a hundred veterans, active-
duty military personnel, and members of military families. They were 
joined by a cadre of transportation providers and veterans' service 
organizations, and by representatives from the VA and from State 
agencies addressing veterans' health care and other needs. Many 
pressing needs surfaced in this symposium, including:

    <bullet> The need to minimize the burden of repeated veterans' 
medical trips to Seattle, whether through efficiencies of coordinating 
medical and transportation services, or by bringing more medical 
services for veterans to the communities in which they live.
    <bullet> The need to reduce the extent to which rural homeless 
veterans are at a medical transportation disadvantage.
    <bullet> The need to improve communication to veterans, their 
families and their support networks about the transportation-related 
options available to them and how they may be used.
    <bullet> The need to improve the coordination of transportation 
services used by veterans, including those services provided by the 
various public transit agencies and the services provided by DAV and 
other veterans' service organizations.
    <bullet> The need to address aspects of veterans' mobility that are 
not specifically related to health, such as jobs, social services, and 
senior services for older veterans.
    <bullet> The need for local governments and service delivery 
agencies to have a better and more accurate understanding of veterans' 
needs, issues, and programs.
    <bullet> The need to take into account that trip chaining is to be 
expected, can be efficient, and should be supported; in other words, if 
a veteran has to spend part of a day receiving medical care in Seattle, 
the veteran or his or her family will want to--and should--be able to 
take advantage of that transportation experience to take care of other 
necessary functions, which could include shopping, personal 
appointments, etc.

    The forum raised a high profile among the region's veterans' 
community, and among the State and local agencies charged with 
addressing aspects of veterans' needs. As a result, many organizations 
took a fresh look at, and in some cases restructured, the ways in which 
they addressed veterans' services and transportation. More 
significantly, a working group of key public and private transportation 
providers was organized, which continues to work together to carry out 
strategies that assure as simple, efficient and seamless a mechanism 
for providing regional mobility to veterans as structures and 
circumstances will allow. In addition, the State agencies in Washington 
whose missions address various aspects of veterans' services and 
mobility also began working together more closely to do their part to 
help make State-delivered veterans' services as simple, efficient and 
seamless as could be realized. And although all the activity reported 
above was taking place within Washington, their neighbors to the south, 
in Oregon, were witnessing the news and the discussion, and hearing the 
reports from their United We Ride Coordination Ambassador, and also 
began to find ways within Oregon's State agencies to find ways to work 
together to improve the coordination and delivery of services to 
Oregon's veterans. The bottom line from this step, then, is that one 
event led to an ongoing working group in the Olympic Peninsula and 
Puget Sound region, an ongoing State-level working group in Washington, 
and an ongoing State-level working group in Oregon. With the NRC having 
helped tackle what first presented itself as a local challenge of 
veterans' mobility on the Olympic Peninsula--and which then became 
additionally addressed as a statewide issue in both Washington and 
Oregon--it was not long before national attention and the prospects of 
national solutions emerged. In the spring and summer of 2010, the 
Department of Veterans Affairs began committing its internal resources 
to a pilot program of Veterans Transportation System sites, such as 
those cited above in Texas and Michigan.
    At that same time, many of the key Federal players active in the 
Federal Interagency Coordinating Council on Access and Mobility (CCAM) 
were beginning to revisit the question of what can we, as an 
interagency body of Federal departments, do together to improve 
veterans' transportation? Since one of the other functions of the NRC 
is to provide technical expertise in support of the CCAM, it helped 
channel the headquarters-level Federal concern into a pair of listening 
sessions in the autumn of 2010, which the NRC's regional United We Ride 
Coordination Ambassador helped organize. One was in Olympia, WA; the 
other was in Portland, OR. In both listening sessions, Federal 
personnel from both the headquarters and regional offices of the 
Departments of Labor, Transportation and Veterans Affairs were on hand 
to listen to dozens of veterans, veterans and military family members, 
transportation providers, veterans' service organizations, local and 
State government officials, and other stakeholders as they described 
issues, challenges, solutions, and ideas for how the Federal partners 
could help to address these challenges. The Federal agency personnel 
left these sessions not only with a keener grasp of the breadth of 
mobility challenges facing veterans and their families and networks, 
but also with an appreciation of the many locally developed, 
appropriate and effective solutions that already were being put into 
place, with some support from the NRC and its Ambassadors, but also 
with the knowledge that there would be a degree of support and 
encouragement from local, State and Federal governmental agencies. Even 
in the absence of additional funding, that atmosphere of governmental 
supportiveness and cooperation already was making a world of difference 
in Oregon and Washington.
    Some key considerations were raised in these listening sessions. 
One was that veterans have a host of community and mobility needs 
beyond the basic need to access health care at VA facilities, and that 
there need to be ways to get these needs recognized across the family 
of transportation plans and programs. Related to this was the 
consideration that categorically defined transportation programs, even 
exciting initiatives such as the Veterans Transportation Service, can 
pose problems when veterans or their family members are trying to 
access all sorts of activities and destinations, including employment, 
education, social services as well as health care.
    There already was frustration that veterans might have to call one 
number to access the DAV or other VA-related transportation, and then 
have to call some other number to access their public transit service, 
and then maybe even another number if trying to get transportation at a 
time or location not served by the public transit. Therefore, a clamor 
was raised to simplify the access to these transportation services 
through some type of simplified ``one-call'' service, in which the 
providers could sort out who's doing or paying for which part of which 
trip, and the only up-front burden on the veteran is to call one, and 
only one, phone number to request the trip. This last finding from 
these listening sessions that the NRC helped organize led to a result 
with national implications. On November 9, 2011, the U.S. Department of 
Transportation, working in partnership with the Departments of Labor, 
Defense and Veterans Affairs, announced the award of more than $30 
million in discretionary grants to support 55 communities across the 
country in the development of coordinated, inclusive one-call/one-click 
services to help address and respond to the transportation needs of 
veterans and military families through a CCAM-backed Federal 
interagency Veterans Transportation and Community Living Initiative.
    Community and Public Transportation's Coordinated Response to the 
Growing Mobility Needs of Veterans and Their Families: Across the wide 
spectrum of community and public transportation, service to America's 
veterans and their families is a long-standing commitment. And these 
services are as varied as the mobility needs they seek to address. From 
the thousands of veterans who board public transit buses and trains 
everyday to commute to-and-from work, to the coordinated transportation 
service specifically designed to connect veterans with VA Healthcare 
Centers, community and public transportation plays an ongoing and 
pivotal role in the lives of veterans and their families. What follows 
is a series of veteran's transportation best practices from across the 
country and representing the family of community and public transit 
providers making this service possible.
    Free and Discounted Fares for Veterans: The Bay Area Rapid Transit 
(BART) system--serving the metropolitan areas of San Francisco and 
Oakland--is one of the busiest transit networks in the Nation. With 
five lines operating over 100 miles of rail, BART connects 43 stations 
and moves nearly 350,000 passengers daily. It will become the largest 
transit system to offer free trips to all active duty military service 
personnel. With a large number of military personnel living or 
stationed in the Bay Area, BART's regional rail network is a crucial 
means to access destinations across the area. As a result, on Nov. 19, 
BART's board of directors voted to offer a $50 ticket to any active 
duty military service personnel on formal leave from the conflicts in 
Iraq and Afghanistan. ``We want to recognize the tremendous sacrifices 
the men and women of the military make,'' said Murphy, who represents 
the Contra Costa County communities of Concord, North Concord, 
Lafayette, Martinez, Orinda, Pleasant Hill and Walnut Creek on the BART 
Board. ``Even in these tough budget times, we want to send our military 
personnel a message that BART, on behalf of the Bay Area community, 
values their service and sacrifice.'' Houston, TX is the third-largest 
U.S. city in terms of population and has a service area of 1,285 square 
miles. The local transit system (METRO) has a daily ridership that 
exceeds 600,000 passengers. METRO's complementary ADA paratransit 
service, METROLift, has annual ridership of about 1.3 million. 
METROLift has innovative services in that, in addition to deploying a 
traditional paratransit service with large lift-equipped vehicles, they 
contract out a large portion of the METROLift service to a taxicab 
company, which, in turn, deploys a fleet of 160 wheelchair-accessible 
vehicles dedicated to this service. Houston Metro offers deep fare 
discounts to veterans who are more than 50 percent disabled (as 
certified by the VA). For example, according to transportation program 
staff, instead of paying a $2.00 fare each way, a veteran might only 
pay $0.75. Across Minnesota--a land dubbed with evocative nicknames 
such as the North Star or Gopher State, or the Land of 10,000 Lakes--
community and public transportation systems provide more than 11 
million rides each year, spanning 76 of the State's 81 counties (68 of 
those offering county-wide service). Meanwhile, more than 50,000 
disabled veterans live across Minnesota. As of the summer of 2009, all 
of them can ride for free on any fixed-route transit service in the 
State.
    Providing Efficient Transit Service to VA Medical Centers: In 2008, 
Veterans Administration (VA) leaders in Seminole County, FL, were faced 
with a challenge. Its existing Community-Based Outpatient Clinic (CBOC) 
in Sanford was lightly used and sparely staffed. A new facility in 
Orange City--about 13 miles to the north--would offer better services 
and reach more veterans in need of care. However, the relocation of the 
CBOC to Orange City would introduce travel difficulties for those 
veterans utilizing the Sanford clinic. Representative John Mica, after 
consulting with Sanford County VA officials and veterans organizations, 
decided to try transit first and turned to the local experts in 
addressing mobility needs: LYNX, the region's public transportation 
system. Fortunately, LYNX was already actively involved in working with 
area veterans and their advocates to overcome transportation 
challenges. The agency's leadership had cultivated relationships with 
veterans' service officers in Seminole, Osceola and Orange counties, as 
well as officials at the Orlando VA Medical Center, to provide veterans 
with unlimited-use transit passes and evaluate how the system's fixed-
route and AccessLYNX paratransit operations responded to veterans' 
transportation needs. These joint efforts between transit professionals 
and veterans representatives established a foundation to build future 
enhancements for veterans' mobility. Due to the groundwork established 
between LYNX and the veterans' community, a solution to the challenge 
in Seminole County became readily apparent. Representative Mica and 
LYNX chief executive officer Linda Watson arranged for one of LYNX's 
VanPool vehicles to be assigned to the Orange City VA Clinic, which 
would operate the vehicle between the Central Florida Regional Hospital 
in Orlando and the Orange City clinic. LYNX also would deliver veterans 
to the hospital via its Link 34 or 46 fixed-route bus lines, or on its 
AccessLYNX service. The arrangement allowed LYNX to leverage its 
existing service network to provide the connection to link with a 
regional transportation nexus--the Hospital, in this case--while the VA 
was able to prioritize its transportation resources to ensure veterans 
could access its services.
    For area leaders, the solution represented both an efficient and 
responsive outcome to a significant, but not insurmountable challenge. 
Through Representative Mica's leadership in Congress, a new VA Medical 
Center will soon be completed in Orlando's Medical City health services 
campus in Lake Nona. The Lake Nona Orlando VA Medical Center will 
include 134 inpatient beds, a 120-bed community living center, and 60-
bed rehabilitation center. Projected to employ more than 2,100 people 
and serve more than 113,000 veterans each year, the new facility will 
also be located near the University of Central Florida's Medical 
School, the Burnham Institute for Medical Research and Nemours 
Children's Hospital. Already, LYNX is planning for how best to serve 
the thousands of riders it projects to carry to the campus. The new 
Center's substantial size, innovative medical services provided and the 
numerous clients to be treated by the various facilities at the Medical 
City campus demands it. ``The new Lake Nona VA Medical Center will be 
an important origin and destination of trips across all of LYNX's 
services,'' says Masselink. ``We will be diligent in making sure that 
the veterans who need transportation for the care the center will 
provide will be able to access it.''
    Near the confluence of the Potomac and Shenandoah rivers, three 
States come together--Maryland, Virginia and West Virginia--in the 
heart of the Blue Ridge Mountains. And much like the meeting of these 
iconic waterways at Harper's Ferry, WV, the meeting of mobility options 
in the Eastern Panhandle of West Virginia is equally significant. Near 
Martinsburg, WV, the Blue and Orange Routes of the Eastern Panhandle 
Transit Authority--known locally as PanTran--meet at the Martinsburg VA 
Medical Center. Here, PanTran's bus lines originating from the small 
cities of Martinsburg and Charles Town serve one of the region's most 
important destinations--one that serves more than 129,000 veterans in 
Western Maryland, West Virginia, South Central Pennsylvania, and far 
Northern Virginia. That the facility serves as the terminal point for 
two regional transit routes is not one of coincidence, but of strategy. 
In as much as PanTran's routes to the VA Medical Center anchor two of 
the system's five routes with a steady stream of veterans and employees 
accessing the facility, the services find a just as vital role in 
connecting those veterans with other destinations and community-based 
services in the region.
    The Blue Route--which offers 11 trips on weekdays and 7 on 
Saturdays--provides connections to the Martinsburg Mall, Senior Center 
and Martinsburg train station, which hosts Amtrak's Capitol Limited 
between Washington, DC, and Chicago as well as MARC commuter trains to 
the Nation's capital. ``PanTran is a tremendous resource for veterans 
in the area,'' says Bobby Simpson, Veterans' Service Officer for 
Jefferson County. ``Because of their half-price fares and direct lines 
to and from the VA center, its easier for our veterans to become 
involved in the community.'' Beyond the coordination of its two transit 
routes at the Medical Center, PanTran also serves veterans more 
directly, by contracting with the VA to provide trips for veterans on 
Tuesday and Friday evenings to ongoing rehabilitation treatment outside 
the Medical Center in Martinsburg and Charles Town. For more than a 
decade, PanTran has partnered with VA to operate two vehicles, which 
have produced more than 6,500 rides over that span. Since 
rehabilitation treatment is vital for continued well-being, but not 
urgent medical care, it is provided off-site from the VA Medical 
Center. Rather than establishing its own transportation operation to 
transport these clients from the Medical Center to the treatment 
facilities, local VA officials tried transit first. ``PanTran are the 
folks around here who know how to provide transportation,'' explains 
the VA's Simpson. ``Since the treatment is offered on a predictable 
schedule, working with the transit system made the most sense. It's 
been a great partnership for us.''
    A unique partnership has led to a daily veterans transportation 
route between the towns of Lufkin and Livingston in East Texas and the 
Michael E. DeBakey VA Medical Center, a 118-acre campus, in downtown 
Houston. Everyday, 30 veterans and their family companions board an 
over-the-road coach operated by Coach America under contract to Brazos 
Transit to access the therapeutic and routine care provided by the VA. 
The veterans transportation service between Lufkin, Livingston and 
Houston was launched in 1995 and last year two new buses were added to 
the service to help Brazos Transit's capacity to connect veterans with 
both the local VA facility in Lufkin, and to the transportation 
available there to the larger Houston VA medical center. It's a highly 
successful example of local cooperation, one that was led by the late 
Congressman Charlie Wilson. ``Charlie was always supportive of good 
public transportation in East Texas,'' says Brazos Transit director 
John McBeth. ``He understood the nature of rural transit and the 
importance of connecting veterans to the services they need.'' The way 
Wilson made such a dramatic difference in the case of this service is 
to work with Brazos Transit's board's vice chair Louis Bronaugh to 
bring along the Temple Foundation to help pay for increased transit 
service using better, more comfortable equipment--the Coach America 
vehicle has a video system, restroom and room for two veterans in 
wheelchairs. Any veteran traveling to Houston for an appointment at the 
DeBakey VA Medical Center can reserve, in advance, a seat on the bus by 
contacting the Charlie Wilson Outpatient Clinic in Lufkin on a first-
come, first-served basis. The VA and Brazos Transit operate several 
vehicles that they use to collect veterans from the surrounding rural 
areas and bring them to Lufkin for the longer ride to Houston. The 
veterans bus runs Monday through Friday--except Federal holidays--
departing Lufkin at 7:30 a.m., Livingston at 8:30 a.m., and arriving at 
the Houston VA facility at 10 a.m. It departs Houston for the return at 
3 p.m. ``One thing's for sure,'' says McBeth. ``The veterans sure love 
the service. They are so thankful for it and are very courteous to the 
drivers and staff.'' ``It's an important service,'' says Coach 
America's Peggy Doyal. ``We need to be serving those who served our 
country.''
    Making This the Rule and Not the Exception: This work in the 
Veteran area needs to become the foundation of how we can do more in 
other areas on coordination. As in the case of the Human Services 
coordination effort of which I spoke earlier, we believe continuing the 
efforts of the National resource Center on Coordination are in 
everyone's interest. Since the Human Service community benefits in this 
effort we would appreciate this committee advising its colleagues on 
the Senate Banking Committee of the importance of coordination to these 
constituencies. In a way we're asking you to ``coordinate'' with your 
colleagues so that we can continue to ``coordinate'' at the local 
level. I want to thank the committee for it's time and I believe Mr. 
Marsico has some closing comments.
    In closing, Mr. Chairman I want to thank you again for holding this 
hearing and allowing us to testify. Accessible transportation remains 
an important ``work in progress'' in our country. Our testimony 
attempts to address several key issues that reflect only a portion of 
this important need. We hope that the committee will look at other 
aspects of this issue in the future and I hope that you will keep in 
mind that we will always be supportive of your interest and grateful 
for your continuing support.
    Thank you.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 ______
                                 
                                        Abilities!,
                                       Albertson, NY 11507,
                                                 November 28, 2011.
Hon. Tom Harkin, Chairman,
Hart Senate Office Building,
Washington, DC 20510.
Hon. Michael B. Enzi, Ranking Member,
Russell Senate Office Building,
Washington, DC 20510.

    Senator Harkin & Senator Enzi: Thank you for allowing me to be a 
voice on the subject of transportation for people with disabilities. It 
has been my high honor to work with you both over the past 20 years on 
serious disability policy matters, and you both have been stalwart 
protectors of our rights and opportunities. I thank you on behalf of 
millions of people with disabilities.
    Today, I have the privilege of serving as president and CEO of 
Abilities!, located on Long Island, NY, a non-profit agency dedicated 
to empowering people with disabilities to be active, independent, and 
self-sufficient participants in our society, and annually serving more 
than 2,000 adolescents and adults and 185 severely disabled and 
medically fragile children. Through education, training, research, 
leadership, and example, we seek to provide the highest quality 
services and to influence national attitudes, policies, and legislation 
in ways that will lead to the greatest benefits for the people we 
serve.
    Transportation poses a major obstacle for people with disabilities 
who wish to utilize transportation for work as well as a means of 
assuring that we can live independently within their communities. Some 
of the pressing issues, particularly for those of us who reside on Long 
Island, revolve around the following:

    <bullet> Transportation routes are generally very limited, which 
often means that people with disabilities may have difficulties getting 
to the bus stop locations;
    <bullet> Fares are high yet schedules have been reduced severely, 
so that evening and weekend bus and paratransit services are very 
limited;
    <bullet> Utilizing buses for work becomes extremely difficult; 
lifts, which are supposed to be available on every bus route, often do 
not work;
    <bullet> Government fails to recognize the importance of buses and 
public transportation generally in the lives of persons with 
disabilities and those who may have limited funds to consider 
purchasing a vehicle if they have the ability to drive, especially in 
this difficult economy. It is short-sighted and discriminatory to cut 
back on already limited and unequal public transportation services, 
thereby making it even more difficult for people with disabilities and 
limited means to participate fully in our society;
    <bullet> Finally, it is inherently contradictory in public policy 
terms to want people with disabilities to work but not provide them 
with a reliable means to get to their places of work.

    Traveling around Long Island is very difficult for people who do 
not own or have access to a car. If people with disabilities want to 
work and live more independently, we must be able to rely on accessible 
public transportation in real-time. We want to be full participants in 
our society--but public policy does not assure us of this.
    What should be done:

    <bullet> State unequivocally in public policy that public mass 
transportation must be substantially equivalent to public mass 
transportation services available to non-
disabled persons. Train bus and train personnel continually to be 
respectful to all those who utilize their services, providing 
continuous and recurrent training on disability etiquette/customer 
service, especially on the use of lifts and how to respond to those 
people who need them.
    <bullet> Ensure that all lifts are working before rolling stock 
departs on scheduled runs, in the same way planes are checked to assure 
all parts are working properly and safely before takeoff.
    <bullet> Assure bus schedules reflect the needs of all its 
citizens, including people with disabilities.
    <bullet> Recognize that public mass transportation must be a civil 
and equal right for all tax-paying citizens; alternately, reduce taxes 
of people with disabilities who are not able to participate fully in 
our society due to inaccessible mass transportation.

    As you have recently said, Senator Harkin,

          ``I'm concerned if we continue to allow people with 
        disabilities to be treated like second-class citizens when it 
        comes to transportation access we will not achieve the goals of 
        the ADA and we will not open up the doors to employment to 
        everyone who can work and wants to work.''

            Sincerely,
                                              John D. Kemp,
                                                   President & CEO.
                                 ______
                                 
                  Catskill Center for Independence,
                                   Oneonta, New York 13820,
                                                  December 2, 2011.
Hon. Tom Harkin, Chairman,
Hon. Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Please accept these comments on the challenges and opportunities 
for consideration toward improvements in accessible transportation. 
Feel free to contact me with any questions and we would appreciate 
receiving a response from you on this important issue. Thank you for 
your time and commitment to the U.S. Senate HELP Committee.
                                 ______
                                 
    The current state of transportation which is obtainable, 
inexpensive and accessible for individuals with disabilities is 
deficient at best and poses a number of challenges in all areas, 
particularly for those living and working within rural communities. 
Despite these impediments, there are many opportunities to improve 
existing systems and provide full and complete access for individuals 
with disabilities. Decades after the establishment of laws which 
recognized the rights of individuals with disabilities, including 
specifications related to transportation, proper implementation and 
allocations continue to lack, creating a mass of concerns, barriers and 
inequities for those whom are otherwise reliant upon this public 
offering. In addressing these issues, we must also strive toward 
upholding the affirmations contained in the Americans with Disabilities 
Act (ADA), the Olmstead v. L.C. decision and the Urban Mass 
Transportation Act of 1970 (P.L. 91-450), which states:

          ``It is hereby declared to be the national policy that 
        elderly and handicapped persons have the same right as other 
        persons to utilize mass transportation facilities and services; 
        that special efforts shall be made in the planning and design 
        of mass transportation facilities and services so that the 
        availability to the elderly and handicapped persons of mass 
        transportation which they can effectively utilize will be 
        assured; and that all Federal programs offering assistance in 
        the field of mass transportation (including the programs under 
        this Act) should contain provisions implementing this policy.''

    Catskill Center for Independence is an Independent Living Center 
(ILC) and a community-based non-profit provider of advocacy, various 
services and supports for consumers of all ages with various 
disabilities in upstate New York. The Catskill Center for Independence, 
like all ILCs, serve as the influence for the direction of the 
disabilities rights movement, focusing upon the procurement and 
resolution of difficulties toward full integration of individuals with 
any disability. In addition, it is part of our mission to ensure that 
the individuals we serve have the ability to exercise choice and 
control in order to achieve individual success and independence.

                                               Joshua King,
                                        Disability Rights Advocate.
                                 ______
                                 
                                  December 2, 2011.
Hon. Tom Harkin, Chairman,
Hon. Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Harkin, Senator Enzi and Committee Members: As the 
systems advocate of the Independent Living Center of the Hudson Valley 
(ILCHV) in New York and the chair of the National Council on 
Independent Living's (NCIL) Policy Sub-Committee on Transportation, I 
am writing--first and foremost--to thank you very much for your 
tireless work and support of legislation designed to enhance access for 
Americans with disabilities. In particular, on November 17, both the 
House and the Senate discussed Transportation legislation, but largely 
due to the leadership of Senator Harkin and Senator Enzi, the Senate 
discussion focused primarily on issues that affect persons with 
disabilities.
    As Senator Harkin, said at the November hearing, ``the Americans 
with Disabilities Act (ADA) does not address air transportation because 
of the Air Carrier Access Act''. Further, the lack of accessible 
private transportation, demonstrated by what we have been experiencing 
in New York City, in their recent decision not to purchase accessible 
taxi cabs, is an area that has escaped the intent of the ADA. However, 
this is a much greater and pervasive problem beyond New York City, 
affecting millions of Americans with a variety of disabilities 
throughout America.
    I have been advocating for the rights of persons with disabilities 
for over 26 years and I have been involved more specifically with 
transportation issues for the past 10 years, with the last 3 years as 
chair of NCIL's Transportation Committee. As a committee we have 
developed a Transportation Position Paper where we have focused on 
three basic areas of transportation services. The three areas of 
concentration that will maximize community integration, involvement and 
participation of people with disabilities are:

    1. Rural transportation services: NCIL strongly supports increased 
availability and greater access to affordable and accessible rural 
transportation, including small airplanes.
    2. Livable communities: Safe and accessible rights-of-ways 
including complete streets & pedestrian safety that are all essential 
elements of community life.
    3. Private Transportation Services: Legislation is needed to 
increase the number and availability of accessible vehicles within the 
private transportation industry, i.e., taxis, limousines, shuttle 
service, car rentals, buses, trains, etc.

    Without reforming the current outdated transportation 
infrastructure, increased investment in transportation alone will not 
solve the problems that plague Americans, especially individuals with 
disabilities on a daily basis who are ready for a new direction and 
demand transportation options that are affordable and accessible. It is 
essential for Congress to move toward a 21st Century system that 
focuses on accountability and results while creating jobs, providing 
access to opportunity for all Americans, including individuals with 
disabilities, reducing carbon emissions and our dependence on foreign 
oil, and improving America's economic competitiveness.
    In today's society, economic competitiveness and success in the 
21st Century is dependent upon revolutionary ideas and solutions 
providing Americans, including individuals with disabilities, with 
accessible transportation options which connect our cities, regions, 
and rural areas. Our goal is to promote the inclusion of people with 
disabilities into society by designing accessible transportation 
systems and encourage pedestrian safety. All new and innovative public 
and private transportation systems that transfer passengers including 
individuals with disabilities from one point to another must be 
accessible for all passengers. Also, pedestrian safety and the rights 
of way must be designed to maximize their access to all community-based 
services, programs, activities employment opportunities, etc., that are 
available to the general public.
    Rural areas have higher proportions of lower income and older 
populations who would directly benefit from increasing the availability 
of affordable public and private transportation options. Due to the 
lack of affordable and accessible transportation services, disabled 
veterans and aging Americans, including persons with disabilities, 
often remain isolated and segregated in their homes with few options to 
become an integrated member of their own community. Additionally, these 
minimal transit services must remove architectural barriers and 
eliminate the discriminatory policies and procedures in all modes of 
transportation services as required by the ADA.
    Along with enhancing rural and private transportation services to 
maximize community integration and comply with the 1999 Supreme Court 
Olmstead decision, accessible public rights-of-way are also critical 
for community integration. People with disabilities typically rely on 
the ability to traverse public rights-of-way to access both public and 
private transportation, to get to their jobs, to stores, to visit 
friends and family, and to live. Lack of accessibility contributes to 
the abysmal unemployment rate for people with disabilities and prevents 
people with disabilities from being integrated as full members of the 
American community.
    For millions of Americans with disabilities, the right to fully 
participate in their communities and access services is significantly 
hampered by the current inequities in our country's transportation 
network. It is a matter of fairness and in spirit with the principles 
and provisions of the Americans with Disabilities Act (ADA) that all 
residents and visitors to this great country of ours are afforded equal 
access to all modes of transportation. Due to the lack of universally 
designed and wheel chair accessible vehicles, especially within the 
taxi and limousine industry, legislation is required to create greater 
accessibility in pre-arranged for-hire vehicle transportation service.
    A national study conducted by the U.S. Bureau of Transportation 
Statistics in 2002 found that 6 million people with disabilities have 
difficulties obtaining the transportation they need. Four times as many 
disabled people as nondisabled people lack suitable transportation 
options to meet their daily mobility needs. In 2000, a Harris Poll 
funded by the National Organization on Disability established that 
nearly one-third of people with disabilities report having inadequate 
access to transportation. In addition, an aging population means that 
the demand for universally accessible transportation will increase. 
According to the American Public Transportation Association (APTA), to 
serve the rapidly growing portion of Americans older than 65, public 
transportation will incur increased operating and capital costs--an 
additional $3.9 billion annually--by 2030.
    For many communities, pre-arranged for-hire vehicles, such as 
taxis, are a fundamental part of the transportation system. The 
Community Transportation Association of America reports that nearly 40 
percent of the country's transit-dependent population--primarily older 
Americans, persons with disabilities, and low-income individuals--
reside in rural areas. However, in many rural communities, little to no 
public transportation exist, leaving people with disabilities without 
accessible transportation since current law does not require private 
for-hire vehicle companies to offer universally accessible vehicles. In 
New York City, an estimated 60,000 people use wheelchairs, but only 238 
of the 13,000 medallion yellow cabs (less than 2 percent) are able to 
accommodate passengers with wheelchairs. Even fewer livery vehicles and 
limousines are accessible for customers in wheelchairs. The lack of 
accessible taxis currently costs the Medicaid program millions of 
dollars because people who use wheelchairs presently have no 
alternative but to use very expensive Medicaid funded ambulettes for 
transportation to non-emergency medical appointments. This cost could 
be dramatically reduced if accessible taxi service were available.
    As for the Airline Industry, not covered by the ADA, discrimination 
and lack of access against people with disabilities is very much alive. 
Especially, as a result of recent events concerning people with 
disabilities and the Airline Industry--where they were prohibited from 
flying--it is alarming to think that the Department of Transportation 
(DOT) may further weaken aircraft access for many wheelchair users, by 
removing the obligation to stow folding wheelchairs in the cabin 
closet. For many wheelchair users, a well-signed, designated space in 
the main cabin is all that is needed to ensure people with disabilities 
are able to fly independently. Some airlines stow wheelchairs by 
strapping the manual wheelchair on the back of an airline seat, 
potentially damaging to the chair as well as increasing the potential 
for injury to cabin crew. It simply makes little sense. Further, it 
amplifies the spectacle and stigmatization that so many people with 
disabilities must endure to board an aircraft with the help of 
untrained ground staff who transfer wheelchair users from their 
wheelchair to straight backs, (which are often left exposed to the 
elements at medium and smaller airports. Rather than weakening 
accessibility, the DOT should be strengthening the Air Carriers Access 
Act by ensuring that every aircraft, including commuter jets serving 
small airports, provide a designated space onboard that holds a folded 
manual wheelchair and does not require ``seat strapping''. The DOT 
should also ensure signage at aircraft entries and at the stowage 
location to easily identify the right of passengers to stow their 
manual chairs onboard. Finally, the Department must prohibit United 
States and foreign carriers from removing existing closets or other 
priority spaces used for stowing a passenger's wheelchair on aircrafts. 
This is just one example of ``our continued lack of access and 
independence''.
    On June 19, 2011, TheDenverChannel.com posted an article about a 
young man who was told by the pilot that because of his quadriplegia he 
would have to get off of the plane. There are hundreds of individuals 
that fly with the same or similar disability every year. In fact, the 
same individual being thrown off the flight flew 2 days earlier from 
Denver International Airport to Dallas to attend a family wedding. 
Again, this is just one more example of this kind of treatment being 
endured by persons with disabilities. Others with different 
disabilities have recently been experiencing similar treatment by other 
airlines.
    Honorable Senators and committee members, on behalf of the 
Independent Living Center of the Hudson Valley in New York, and as the 
Chair of the National Council on Independent Living's Policy Sub-
Committee on Transportation, I thank you for focusing your efforts 
toward addressing transportation inequities for persons with 
disabilities. In advance, I would like to again thank you for all and 
any support you can render, which will serve to maximize and enhance 
the availability of accessible and affordable transportation options 
for all, including individuals with disabilities.
            Respectfully,
                                     Clifton Perez, M.S.W.,
                                                  Systems Advocate.
                                 ______
                                 
          Southern Tier Independence Center (STIC),
                                      Binghamton, NY 13905,
                                                  December 2, 2011.
Hon. Tom Harkin, Chairman,
Hon. Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Harkin, Senator Enzi, and members of the Senate 
Health, Education, Labor, and Pensions Committee: I am writing today to 
commend you for holding five public hearings since March, hearings that 
have addressed the barriers facing people with disabilities in the area 
of employment:

    <bullet> The Americans with Disabilities Act and Accessible 
Transportation: Challenges and Opportunities;
    <bullet> Leveraging Higher Education to Improve Employment Outcomes 
for People Who Are Deaf or Hard of Hearing;
    <bullet> The Future of Employment for People with the Most 
Significant Disabilities;
    <bullet> Lessons from the Field: Learning From What Works for 
Employment for Persons with Disabilities; and
    <bullet> Improving Employment Opportunities for People with 
Intellectual Disabilities.

    Southern Tier Independence Center, located in Binghamton, NY, has 
been in operation since 1983. STIC provides several programs and 
services for children and adults with all types of disabilities, as 
well as family members, agencies, businesses and government entities. 
Serving over 3,000 people a year, STIC programs and services cover a 
wide geographic area across the Southern Tier. Staff and consumers have 
watched the hearings during and after their recording. Members of the 
local deaf community were deeply moved by the hearing held at 
Gallaudet.
    STIC has provided supported employment services since 1995, 
assisting people with the most severe disabilities to find and keep 
employment in integrated settings. Consumers and staff members have, 
for decades, also been very active in working with local government to 
develop accessible and affordable transportation options. As pointed 
out by the people on your panels: people with disabilities want to 
work, want to receive a fair wage for their work, and want to be able 
to get to their jobs.
    I wish to share our thoughts and deep concerns with the committee. 
STIC consumers and staff have been advocating with our legislative 
representatives as WIA (the Workforce Investment Act) has been 
reviewed. We believe that the sub-minimum wage and segregated 
employment should be eliminated. We strongly support four bills 
currently being considered in the House of Representatives: the TEAM 
Acts (H.R. 602, 603, and 604) and the Fair Wages for Workers with 
Disabilities Act of 2011 (H.R. 3086). Ten of the eighteen co-sponsors 
of H.R. 3086 are from New York and we are very pleased with this 
support. We continue to write the other members of the House from New 
York State, encouraging them to also sign on. Three of the co-sponsors 
of the TEAM Act bills are from New York. One of our local House 
members, Maurice Hinchey, supports all these bills. We wish to point 
out, however, that there are no comparable bills in the Senate and we 
would strongly encourage you to introduce similar legislation in the 
Senate.
    In addition, we would like to address the issue of transportation. 
Both consumers of services and employees of STIC rely on public 
transportation to get to work, school, medical appointments, shopping 
sites, and community events. We consider transportation to be in the 
same category as other publicly financed necessities (fire and police 
protection, education, infrastructure, etc.). Those of us who live and 
work in this upstate New York community echo the observations and 
experiences of your transportation panelists.
    Over the past 3 years we have lost transit services. After a major 
route line was cut last year, we took a 1-day survey of 323 riders (a 
small sample). Six percent of the riders we surveyed had lost their 
jobs because they were no longer able to get to work on time. Although 
that route was partially restored, we are now facing further reductions 
of service that will start in January. The time between route buses is 
being increased, which will result in buses filling quicker and going 
``out of service,'' as full buses will have to drive past waiting 
customers. The people waiting will have to hope that the next bus 
(coming in 45 minutes) will have a spot for them. For people who use 
wheel chairs, a full bus will not be able to pick them up. Service will 
end around 9 p.m. weekdays and 6 p.m. Saturdays. Second and third shift 
workers who rely on public transit will be negatively affected. 
Students with disabilities who attend local schools are scrambling to 
come up with alternative ways to get to classes, libraries, and campus 
activities.
    We have worked very hard for many years to train people to use 
regular transit. We suspect that people will re-apply for para-transit 
when they are not able to get to work, medical appointments, etc. We 
continue to meet with local transit officials and county legislators to 
try to find answers to the lack of adequate transportation in our 
community. The comments made at your hearing about taxis were very 
revealing. We have asked local officials for decades to invest in 
smaller vehicles for para-transit for people who are blind or who have 
cognitive disabilities. There are ways to be more efficient, save 
dollars and still provide service.
    As you look ahead at legislative, regulatory, and budgetary issues, 
we thank you for your recognition of the very real employment problems 
facing people with disabilities. We have much to contribute to our 
communities if we can just get to the doors of employers and be 
welcomed inside as their employees.
            Sincerely,
                                                Susan Ruff,
                                                 Advocacy Director,
                                 Southern Tier Independence Center.

    [Whereupon, at 11:27 a.m., the hearing was adjourned.]

                                   

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
